<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED
                 AGENCIES APPROPRIATIONS FOR 2000

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman
 JIM KOLBE, Arizona                  JOSE E. SERRANO, New York
 CHARLES H. TAYLOR, North Carolina   JULIAN C. DIXON, California
 RALPH REGULA, Ohio                  ALAN B. MOLLOHAN, West Virginia
 TOM LATHAM, Iowa                    LUCILLE ROYBAL-ALLARD, California
 DAN MILLER, Florida
 ZACH WAMP, Tennessee               
                                    

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

    Jim Kulikowski, Jennifer Miller, Mike Ringler, and Cordia Strom,
                           Subcommittee Staff

         Printed for the use of the Committee on Appropriations
                                ________

                                 PART 7
                                                                   Page
 Secretary of State...............................................    1
 Embassy Security.................................................  217
 International Organizations and Peacekeeping.....................  275
 Administration of Foreign Affairs................................  329
 State/ACDA/USIA/BBG Inspector General............................  383
 Asia Foundation..................................................  409
 National Endowment for Democracy.................................  425

                              <snowflake>

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 57-622                     WASHINGTON : 1999

______________________________________________________________________

            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC
                              20402




                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                   DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California              JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois         NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky              MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                JULIAN C. DIXON, California 
 FRANK R. WOLF, Virginia              STENY H. HOYER, Maryland
 TOM DeLAY, Texas                     ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                   MARCY KAPTUR, Ohio
 RON PACKARD, California              NANCY PELOSI, California
 SONNY CALLAHAN, Alabama              PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York             NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina    JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma      JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                 JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan            ED PASTOR, Arizona
 DAN MILLER, Florida                  CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                 DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia               CHET EDWARDS, Texas
 RODNEY P. FRELINGHUYSEN, New Jersey  ROBERT E. ``BUD'' CRAMER, Jr.,
 ROGER F. WICKER, Mississippi            Alabama
 MICHAEL P. FORBES, New York          JAMES E. CLYBURN, South Carolina
 GEORGE R. NETHERCUTT, Jr.,           MAURICE D. HINCHEY, New York
Washington                            LUCILLE ROYBAL-ALLARD, California
 RANDY ``DUKE'' CUNNINGHAM,           SAM FARR, California
California                            JESSE L. JACKSON, Jr., Illinois
 TODD TIAHRT, Kansas                  CAROLYN C. KILPATRICK, Michigan
 ZACH WAMP, Tennessee                 ALLEN BOYD, Florida
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania     
                                    

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2000

                              ----------                              

                                         Wednesday, March 10, 1999.

                    UNITED STATES SECRETARY OF STATE

                                WITNESS

HON. MADELEINE K. ALBRIGHT, SECRETARY OF STATE

                  Opening Statement of Chairman Rogers

    Mr. Rogers. The Committee will come to order. It is a 
pleasure to welcome Secretary of State Madeleine Albright in 
her third appearance before this Subcommittee as Secretary of 
State. The Secretary will testify today regarding the fiscal 
2000 budget request for the operations of the State Department 
and the assessed contributions of the United States for the 
United Nations and other international organizations.
    Perhaps the two most important issues as far as the fiscal 
2000 year budget is concerned are, from this Committee's 
perspective, embassy security and the foreign affairs 
reorganization, which integrates public diplomacy and arms 
control and disarmament into the State Department fold. We are 
very interested to hear your testimony on these and other 
important issues.
    I understand that on your return from Indonesia, you met in 
London with both the British Foreign Secretary and former 
Senate Majority Leader Dole working toward a resolution to the 
ongoing problems in Kosovo. I am sure that you will be asked to 
field some questions on that and perhaps some other critical 
foreign policy issues as well.
    Madam Secretary, your responsibilities are great. The 
foreign policy challenges that have emerged over the last 
several years in the wake of the Cold War have proved to be 
very complex and in many cases intractable. And the bombings 
last August remind us of the dangerous environment in which you 
are trying to do your work. It is our job to see that you have 
the resources necessary to accomplish essential foreign affairs 
goals while ensuring a balanced budget.
    Before we recognize you, I will yield to Mr. Serrano.

                Opening Statement of Congressman Serrano

    Mr. Serrano. Thank you, Mr. Chairman.
    I would like to take this opportunity to welcome Secretary 
Albright. I know that this is a very challenging time in terms 
of our Nation's foreign policy, and it is a pleasure to have 
the chance to discuss these important issues with you, 
Secretary Albright. Although I am a new member of this 
Subcommittee, I am well aware of the outstanding service that 
is performed by our State Department personnel, both here and 
abroad. In addition, I am familiar and sympathetic with the 
need to fund the many responsibilities of your Department 
ranging from embassy security to having your technology ready 
for the 21st century. I look forward to working with you, Madam 
Secretary, as this committee appropriates the funding so vital 
to the State Department and to ensuring the leadership presence 
of the United States and the world.
    As you are aware, one of my deeply held foreign policy 
goals is to change our Nation's current policy towards Cuba, 
which only hurts the Cuban people. I would like to see our 
country move towards a more humane policy towards Cuba, one 
that engages instead of punishes. There is widespread 
opposition to our embargo in this country from the business and 
agriculture communities and from numerous religious, 
humanitarian and trade organizations. It is time to show 
leadership and vision and join the rest of the international 
community in recognition that sanctions have not worked and to 
demonstrate the courage to bring an end to this inhumane 
embargo.
    I look forward, Madam Secretary, to working with you and 
the members of this Subcommittee in the development of a new 
and more constructive relationship with Cuba. I am clear in the 
fact that we are governed by law, Helms-Burton and Torricelli, 
but I sometimes get the feeling, Madam Secretary, that some 
people at the State Department would rather run their own 
policy on Cuba rather than the one the Administration and you 
would sometimes want followed. That is my personal experience, 
and I am ready to discuss that with you in any forum you wish.
    I am also concerned about our country's failure to meet its 
legal obligations to the U.N. The work of the United Nations is 
important to the United States and to the world community. I am 
committed to resolving this funding crisis and will work 
closely with you, the Chairman and the members of the 
Subcommittee as we deal with the appropriations bill for fiscal 
2000.
    Finally, I am aware of all of the efforts that you and so 
many others have devoted to peacefully resolving the many 
crises that now confront us. Many of these areas are of concern 
to me, and I am hopeful that our country can continue to 
exercise the necessary leadership and commitment.
    Madam Secretary, you lead a diverse and talented group of 
Americans who are dedicated to representing our country and the 
world community. You have a tremendous responsibility as you 
strive to retain and recruit personnel and ensure their 
protection. As a new member of this Subcommittee, but one who 
takes his work very seriously, I stand ready to support you in 
these efforts and to be one of your strongest advocates. Thank 
you.
    Mr. Rogers. Madam Secretary, your statement will be made 
part of the record. If you would like to summarize it, we would 
like to hear from you.

                Opening Statement of Secretary Albright

    Secretary Albright. Thank you very much, Mr. Chairman. It 
is very good to appear before you and members of the 
Subcommittee again. Congressman Serrano, I am very pleased that 
you are here with us, and I look forward to working with you, 
and I congratulate you on your new position.
    I look forward to working with all of you in support of the 
President's fiscal year 2000 budget request for State 
Department operations and related programs.
    As is customary, in order to leave ample time for 
questions, I will try to be very brief in my summary of my 
written statement.


                security challenge facing the department


    I begin with the challenge of security. Following the 
tragic embassy bombings in Africa last August, President 
Clinton ordered military strikes to disrupt terrorist 
operations and deter new attacks. As this decision 
demonstrated, we will not hesitate to use force when required 
to respond to or defend against terrorism, but force is only 
one element of our strategy. Every day in every part of the 
world we use the full array of our foreign policy tools to wage 
a zero tolerance campaign against international terror. These 
tools include nonproliferation programs, law enforcement 
cooperation, intelligence sharing, antiterrorism training, and 
sanctions. We are waging the fight against terror hard and on 
all fronts, and we are determined to seize the offensive, but 
we also need a strong defense.
    In the aftermath of the August bombings, I established 
accountability review boards chaired by Admiral William Crowe 
to investigate and recommend security improvements for our 
diplomatic posts. The boards identified what they called a 
collective failure by the executive and legislative branches 
over the past decade to provide adequate resources to reduce 
the vulnerability of U.S. diplomatic missions. The report 
recommends, and I concur, that we provide sustained funding for 
enhanced security and new construction reflecting the full 
range of terrorist threats.
    The State Department is determined to go forward with just 
such a comprehensive multiyear program, and the President's 
budget seeks the resources we need to move ahead. It includes 
$268 million to fund the recurring costs stemming from the 
emergency supplemental that was approved with the leadership of 
this Subcommittee last fall. It includes a request for $3 
billion in advance appropriations for new construction in the 
years 2001 through 2005, and it includes $36 million to augment 
the emergency funds provided last year for site acquisition and 
design.
    I am aware members of this Subcommittee have questioned the 
adequacy of this component of our request. Last month the 
President told the joint congressional leadership that he is 
looking forward to working with them on this issue, and I look 
forward to working with you as part of that dialogue.
    Mr. Chairman, I appreciate very much the support the 
Subcommittee has given to our efforts to upgrade security. 
Having been to Dar es Salaam and Nairobi in the aftermath of 
the bombings, and having met with many of those injured and the 
families of those killed, I have no higher priority.
    We understand that in this era, perfect security does not 
exist. We also understand that it would make no sense to spend 
huge amounts of money putting our people into fortresses around 
the world and then deny them the resources they need to 
represent American interests effectively. Our leadership 
requires adequate funds for security for operations and for 
programs.


                  budget constraints on the department


    Despite strong support from this Subcommittee, we have been 
squeezed fairly hard in recent years, and our workload is up. 
There is a dizzying array of foreign policy problems, as you 
have mentioned. They command our attention, in effect our 
interests, and we are in a very difficult competition with the 
private sector to recruit top personnel.
    We have had to devote significant resources to becoming 
Y2K-compliant, and we have enormous infrastructure and 
modernization needs in addition to the security requirements, 
and yet the funds available to us over the past decade in real 
terms have declined. So I hope very much we will have your 
support for the President's full request for State Department 
operations next year. Given the needs, it is truly a modest 
request, but the full amount will help us to move forward and 
give the American people the effective diplomatic 
representation they deserve.


                foreign affairs agencies reorganization


    On a related matter, Mr. Chairman, our budget request this 
year reflects the integration of USIA and ACDA into the 
Department of State as well as our closer relationship with 
USAID. This is an historic reorganization in which the 
Subcommittee has played an important role, and we submitted a 
detailed report last December on our plans for implementation 
and continue to receive comments that may lead to some 
modifications.
    I want to emphasize our commitment to the importance of 
public diplomacy, sustainable development, arms control, and 
nonproliferation to our foreign policy. We are determined to 
make reorganization work to the betterment of our diplomacy and 
those who participate in it, and with your help I am confident 
that we will succeed.


                assistance to central america and jordan


    Before closing, I would like to touch on just a couple of 
front burner foreign policy issues. As you know, the President 
is now in Central America, where I will join him later today. 
He has journeyed there with a message of support for our 
neighbors who are striving to recover from one of the most 
destructive hurricanes in history, and providing such support 
is important for humanitarian reasons, but it also reflects the 
very strong stake we have in stability and economic viability 
of the Central American democracies.
    I realize this is a matter for the full committee, but I do 
hope we will have your support for the President's request for 
supplemental funds to aid recovery efforts and for other 
priorities, such as assistance to Jordan, Israel's partner in 
peace. I also ask that you not encumber those funds with 
offsets similar to those proposed by your Senate counterpart. 
It makes no sense to provide needed resources with one hand and 
take them away with the other.


                          situation in kosovo


    Turning now to Kosovo, we are pleased that the Kosovo 
Albanians, including KLA leaders, indicated they accept the 
interim political agreement negotiated in France. We believe 
this agreement provides the foundation for a peaceful 
resolution of the conflict in that region, and that it meets 
the needs and respects the rights of all concerned, and our 
focus is now on the Serbs.
    I have asked Ambassador Holbrooke to travel to Belgrade, 
and he is, as we speak, meeting with President Milosevic to get 
him to accept the agreement as well as to live up to the 
agreement that he made to comply in October. If that occurs, 
our intention is to participate in a NATO peace implementation 
mission in which our allies will provide the lion's share of 
troops.
    I am aware the House is considering a vote on whether to 
authorize such a mission. My request this morning is that such 
a vote not be taken while we are at this critical time in our 
negotiations and in our attempts to secure a settlement. We 
will not make a decision on sending U.S. troops until we have 
an agreement in hand and can evaluate whether it meets the 
conditions President Clinton outlined. A congressional debate 
now, I can assure you, would complicate our efforts to get the 
Serbs and the Kosovo Albanians on board, because the President 
and I and Secretary Cohen will be out of the country as I will 
join them later today. I might also add that a vote at this 
time will send a totally wrong signal to Milosevic and to our 
NATO allies. And a vote at any time to impose an authorization 
could be taken by both sides as a green light to resume 
fighting.
    There is no question that Kosovo presents some very 
difficult problems for the international community and that the 
administration's approach is not free from risk. We believe, 
however, that the greater risk will be to permit the situation 
there to erupt into a new round of large-scale fighting with 
potentially devastating consequences for the entire region, and 
today and yesterday there actually has been a return to some 
skirmishes. It is easier, as we all know, to put out a campfire 
than a forest fire, and it is better to act now rather than 
later in Kosovo.


                              u.n. arrears


    Finally, Mr. Chairman, we have been trying, it seems 
forever, to find a way to encourage further reform at the 
United Nations while meeting America's obligations to pay our 
arrears, and I hope we can work together in 1999, successfully 
this time, to pay our bills and thereby increase our leverage 
in keeping the U.N. on the reform road. That is the right thing 
to do, and it is a smart thing for America because we have an 
enormous stake in the work performed by the U.N. and other 
international organizations.
    Members of the Subcommittee, this does conclude my oral 
statement, and I realize I have not touched on a host of 
important issues that were referred to in my testimony, but I 
spoke long enough, and I now look forward to your questions.
    Mr. Rogers. Thank you very much, Madam Secretary.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           Kosovo negotiation

    Mr. Rogers. First, briefly on Kosovo, I understand that the 
negotiations are scheduled to resume March 15; is that correct?
    Secretary Albright. The talks themselves are supposed to 
resume March 15 in France, but in the meantime, there are 
things going on. As I mentioned, we have been in very close 
touch, and you did mention Senator Dole's role, and Ambassador 
Holbrooke is delivering a very tough message as we speak.
    Mr. Rogers. Assuming that all goes according to plan, if 
there is a plan, and all parties sign onto the interim 
agreement, what would that mean in the way of commitment of 
U.S. forces in Kosovo?
    Secretary Albright. First of all, the plan itself is really 
a combination of the political part, which is designed to give 
a high degree of autonomy to the Kosovars, and the 
implementation part, which provides for an implementation 
force, which we believe has to be a NATO-led force. The NATO 
military has indicated that the force should be about 28,000, 
and the U.S. contribution to this would be, according to our 
military's calculation, 4,000, which is around 15 percent.
    I consider this kind of a model for how things ought to 
work now with NATO operations. Where we continue to maintain 
the leadership role, the operation would be run by CINCEUR, who 
is American, General Clark; the Commander, NATO Forces South, 
Admiral Ellis; and then the force itself would be run by a 
British officer, but the operational command of Americans would 
be run by an American commander.
    Mr. Rogers. Now, would the agreement include a clear-cut 
objective, a timetable and an exit strategy so that we would 
know going in what it would take to get out and when?
    Secretary Albright. Well, I think that we have learned a 
number of lessons from Bosnia in terms of dealing with problems 
early on, but one of them has been not to set an artificial 
deadline. So our exit strategy on this is a set of benchmarks 
that would include, first of all, that the local police has 
been able to take over, local elections have been held, and 
that they are able in a number of ways to show that there is a 
secure and peaceful environment. The KLA is to be disarmed. The 
benchmarks are the kind that would indicate that we have 
completed that part, rather than setting an artificial 
deadline, which we all now understand was not the correct thing 
to do as far as Bosnia was concerned.
    Mr. Rogers. Many critics say they don't see a vital U.S. 
national interest in Kosovo justifying the placement of 4,000 
or so U.S. troops in harm's way. Could you help us with that?
    Secretary Albright. Well, I disagree, obviously. I think, 
first of all, that we know that instability in the Balkans 
harms U.S. national interests. We also know that one world war 
started there, and the second one was fought within the region. 
We have worked very hard because we believe that instability in 
the Balkans could spread. That is one of the reasons that we 
went into Bosnia.
    Second, there is a compelling humanitarian reason in terms 
of the numbers of refugees as well as the slaughter that we 
have already seen with events such as the Racak massacre.
    And third, I think there is also a very clear national 
interest in terms of maintaining our leadership role in NATO, 
making sure that NATO is able to function in its next 50 years 
as well as it did in the first 50, and developing a new model 
for how NATO can operate with our leadership. Those are the 
major national interests that we have in the region.

                      Funding for embassy security

    Mr. Rogers. Quickly, on embassy security, and I will 
probably come back to this in the second round, we on the 
Committee were anticipating the budget request for the State 
Department to include a fairly large increment for embassy 
security around the world, especially since Admiral Crowe, the 
Administration's designee to head up the study, came back with 
a report that recommended a rather large commitment, $1.4 
billion a year for 10 years. And I was shocked, frankly, as we 
had the hearing the other day with the diplomatic security 
people from State Department, shocked as far as new 
construction in the year 2000, you didn't request a penny, and 
I don't understand that.
    I know your request includes $304 million, which is merely 
the tail end of $1.4 billion that we provided in the 
supplemental last year, but there is no money requested for 
fiscal year 2000 for new construction, and yet we have got 
problems all over the world in terms of security. My 
understanding is that you requested that amount from OMB, the 
$1.4 billion; is that correct?
    Secretary Albright. Well, we did request a large amount for 
this.
    Mr. Rogers. How much did you request?
    Secretary Albright. $1.4 billion.
    Mr. Rogers. $1.4 billion.
    Secretary Albright. Yes.
    Mr. Rogers. But OMB, the White House said, nope, not a 
penny, correct?
    Secretary Albright. No, that is not quite right. We went 
through what we felt was a fair process in determining the fact 
that we had money out of the emergency supplemental that you 
provided, plus the tail that we have asked for, and that we are 
asking for $3 billion in advance appropriations which allows 
us, I believe, to carry out an appropriate planning and 
construction process. Now, we are operating, as are you, within 
budget constraints, and I have felt that this was a minimum 
requirement, but I do believe that it was a fair process in the 
way that we talked about what we needed.
    Mr. Rogers. Whatever the process, the bottom line is that 
there is not a penny that you could spend in fiscal year 2000 
in your budget request for construction to relocate the most 
vulnerable posts because the monies in the supplemental let you 
hire guards and residential security, armored vehicles and that 
type of thing, but no construction of buildings or physical 
plants to remove from harm's way in the most dangerous spots, 
and I must say I am confused. I am frustrated, and you are 
sending us mixed signals. In your testimony you talk about 
there is no higher priority, and yet in your budget request 
there is not a penny.
    Now, the $3 billion in advance appropriations, which we 
don't do, by the way--I mean, people have always wanted us to 
do advance appropriations. We just don't do that. But even if 
we did, that wouldn't take place until 2001. Not a penny would 
be available until October 1, 2001, and I must say I am 
confused.
    Secretary Albright. Well, first of all, Mr. Chairman, I am 
very grateful to you for your interest and support and that of 
the Committee. I appreciate everything that you have done, as 
well as the questions that you are asking.
    The perspective here is that we do think that security 
isn't just new buildings, and the Department's request in 
fiscal year 2000 of $304 million includes funds for site 
acquisition and design of new buildings and for upgrades such 
as you mentioned, which is local guards, residential security, 
armored vehicles, mobile security teams, maintenance of 
security equipment, and the salary and support costs for new 
personnel.
    I understand the problem with advance appropriations. In 
talking to the people in my building that work on buildings 
acquisition and plans, they believe, and I would agree, that it 
would make more sense to be able to think ahead and try to get 
contracts that would allow a number of different kinds of plans 
to go forward in an organized way, and that we knew that the 
money was there and the buildings could come on line 
appropriately.
    The funding available in fiscal year 2001 would complete 
construction for four projects that are being started in fiscal 
year 1999 with the emergency appropriation. The fiscal year 
2000 funds would be used to begin the next tranche of eight new 
projects. Construction of these eight projects and an 
additional group of posts would then be funded out of the $3 
billion advance appropriation. The Department's fiscal year 
2000 request funds immediate security requirements and supports 
our embassies as we work to design and build new buildings that 
take longer to complete.
    The other point I must say is that our budget request 
preceded the Crowe report. What he suggested was a billion a 
year for 10 years. What we are asking for is $3 billion for new 
construction over 5 years--and that is significant. But we are 
working with OMB now in assessing the Crowe recommendations to 
determine whether there is a way to get additional resources.
    Mr. Rogers. In addition to Admiral Crowe, you have another 
commission here that is equally concerned, perhaps even more 
so. I would think that the recommendations of this commission 
might be a little bit more significant than Admiral Crowe if we 
can place ourselves in such a place. I can't speak for everyone 
at this point. I think I can generally say that we are 
disappointed in what Admiral Crowe called a meager request. He 
has been quite critical of the Administration's budget request 
for embassy security and personnel security around the world.
    Now, in fiscal year 1999, we provided $1.4 billion to not 
only rebuild Nairobi and Dar Es Salaam, but to start on a 
worldwide program of relocation and security improvements, an 
opportunity to minimize vulnerability by moving as many 
functions as possible to secure regional locations, in closing 
or at least minimizing staffing at vulnerable posts with a 
minimum mission. The Crowe report backs that up. What do you 
say about that?
    Secretary Albright. Let me return to something that you 
just said. I feel very strongly about the importance of embassy 
security, and I recognize that you outrank anybody that I have 
gotten in terms of our Accountability Review Board, and I can't 
tell you how much I appreciate what you are doing.
    My problem is the following, and I think we need to discuss 
this, as it came up with the Central American supplemental. We 
can have the most secure buildings in the world, but if we have 
no programs, they don't do us any good, frankly. And so I am 
all for more money for security, but I don't know where it is 
going to come from. When the Senate starts taking offsets for a 
program that we need, the Central American supplemental, out of 
security, this is just an example of the kind of problem that 
we all face together.
    Now, on the question that you asked, first of all, we have 
an Overseas Presence Advisory Panel. They met for the first 
time yesterday, and they are going over various recommendations 
and various suggestions. I believe that it is very important 
for us to have universality in representation because of our 
leadership role, for one reason. But the other reason is that, 
as you know, the embassies basically are aircraft carriers. 
They serve as platforms for other agencies to be throughout the 
world with us, it is very important for a number of those 
agencies to have eyes and ears in a variety of places.
    I do believe that technology will permit us to develop 
certain technical aspects of our diplomatic work out of 
regional hubs so to speak. Nairobi is being rebuilt in a way 
that there will be a number of functions that can take place 
there that will not be duplicated in other embassies in Africa. 
We are trying to find a balance between being operationally 
smart in these regional centers and at the same time continue 
to be able to have universal representation and provide that 
platform. But I will be working with this advisory panel that 
will want to hear from you also in terms of your suggestions on 
this.

                 regionalization of overseas functions

    Mr. Rogers. I will welcome that. As you have heard me say 
before, I firmly believe in the idea of regionalization in 
certain parts of the world; not to remove ourselves from any 
country necessarily, but to regionalize the base support for 
outreach in a region not only enhances security, but it costs 
less and I think would be more effective if we take advantage 
of at least 19th century communications, marvels that have come 
about such as the telegraph and things of that nature.
    I mean, the diplomatic pouch idea in the age of the 
Internet and satellites is taking it a bit far, but I really 
believe firmly, Madam Secretary, that if we establish that 
model embassy that you have studies ongoing to perfect, and if 
we, in certain parts of the world as you are doing somewhat in 
East Africa, begin to regionalize the State Department's 
operations, I think that would be a model method, if you will, 
that we could duplicate in other parts of the world and utilize 
modern means of communications. Secure and otherwise, that 
would save us money, make it more effective, and, most 
importantly, save our personnel from more threats.
    Secretary Albright. I think also, Mr. Chairman, an example 
of what we are doing which I have applauded, Ambassador Rohatyn 
in France has taken a very interesting step in establishing a 
very small office to pursue our economic interests in Lyon. It 
does not provide a large number of people that then become a 
security problem in themselves. In fact, it is very low key, so 
we are looking at a variety of ways of doing business 
differently.
    Mr. Rogers. I agree with you. We studied your request for 
reprogramming funds with which to do that office in Lyon, and 
we looked at it as--and we approved it as--hopefully a model 
for the future to extend America's presence without extending 
the bull's-eye that we do so readily in other parts of the 
world.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Madam Secretary, I just want to take a second to echo what 
the Chairman has been saying about this whole issue of the 
dollars being asked for embassy security. I understand clearly 
your constraints and what you have to work within, but I can 
assure you in all the years I have been in public office and 
probably never again am I going to hear a committee actually 
saying, ask for more money. The uniqueness of this situation 
merits for a unique approach so those folks that you speak to 
and who listen to you on a daily basis, tell them, listen, 
there is a committee over there that wants us to ask for more 
money. That may never happen again.

                    u.s. role in the united nations

    As you know, there has been a rumor floating around in my 
city that the U.N. may move out, and that brings all kinds of 
questions, but----
    Mr. Rogers. West Virginia?
    Mr. Serrano. You mean my city, West Virginia.
    Mr. Rogers. The State Department going to West Virginia.
    Mr. Serrano. That would be something, but it could.
    My question is, are we reaching at all yet a point where we 
are, you know, disabling your ability and our Ambassador's 
ability to work at the U.N., or, since we are who we are, can 
we get away with not paying our dues for a while longer? When 
does this become a crisis, or is it a crisis already?
    Secretary Albright. I would say, Congressman, that it is a 
crisis. When I was Ambassador there, I worked very hard on the 
reform program and, I think, began to get them to think 
differently. I used to make statements about the fact that the 
bureaucracy of the U.N. had grown to elephantine proportions, 
and we were asking that elephant to do gymnastics, and it 
really did need to get on a diet. I think that we managed to 
really get a reform mentality going within the U.N. But it is 
harder to press that issue, not so much within the Secretariat 
itself, where Kofi Annan has taken, a very strong role, but 
among the member states who are not willing. For instance we 
missed a huge opportunity to get our assessment lowered, which 
is something that the Chairman and I have been talking about 
for a long time, because we had not been able to pay our 
arrears and be in a position to press hard for that.
    We have also lost our seat on an organization called the 
ACABQ, which is their budget control committee, because, and 
they stated this when I was there, and they are stating it now 
to Ambassador Burleigh, we are out of compliance with the dues 
record of the United Nations, and therefore, do not have the 
kind of clout that we ought to have.
    Now, obviously as the United States, we will always have a 
lot of clout, but you can feel it in the reform agenda. And you 
can actually feel it on things such as Iraq, where at the same 
time we are asking for support by our fellow members on the 
Security Council for our Iraq policy, they say, well, you are 
not giving the U.N. its due, you don't understand its 
importance, so we are going to take a larger role. That is a 
little harder to measure, but the elections to various bodies 
is not, and the ability to change our assessments is not. That 
is concrete.
    Mr. Rogers. If the gentleman would yield, we have two votes 
on the floor, two 15-minute votes. You can resume when we 
return.
    Mr. Serrano. Sure.
    Mr. Rogers. We will recess briefly, Madam Secretary, for a 
vote.
    [Recess.]
    Mr. Rogers. Madam Secretary, we apologize for the delay. We 
hope that is the last recorded vote during your expected time 
here.

                     u.s. economic embargo on cuba

    Mr. Serrano was in the process of asking questions, and we 
will let him resume.
    Mr. Serrano. Thank you, Mr. Chairman.
    Madam Secretary, getting around to, as you know, one of my 
favorite issues, last year Under Secretary Stuart Eizenstat and 
the European Union agreed that the Europeans would suspend 
their complaints before the World Trade Organization in 
exchange for the administration seeking modification to Helms-
Burton and particularly title 4. Are we still seeking those 
modifications, and where are we at?
    And on a larger note, if I may, I would like to ask you a 
question which probably is perhaps better left to a 2-hour 
discussion between you and I someday about, within the 
restrictions of the law, what you see as the future in terms of 
people contact and other things that may make people like me a 
little happier.
    Secretary Albright. First of all, we do continue to work on 
Title 4. Stu Eizenstat has a very active agenda, and he does 
continue to work it. We also, specifically with the Europeans, 
have pressed them to press the democracy agenda with the Cubans 
as they have contact with them.
    I have to tell you this is a subject I have spent a great 
deal of time on and I have a lot of interest in. The embargo is 
the law of the land, and at the same time, I believe that 
various aspects of the Torricelli bill can be used from the 
perspective or track to democratization and pushing for people-
to-people contacts.
    So within the parameters that we have for operating, we 
have now taken what are called two sets of measures, the 
purpose of which is to expand the space for the Cuban people to 
be able to act as independently as possible within the 
unfortunate context in which they live. We have, first of all, 
increased the amount of remittances that could be sent by Cuban 
Americans, and most recently in the measures that we took, we 
said that any American could now send remittances to Cuba 
because we believe that if it is possible for individual Cubans 
to have some space economically, that will help.
    The last set of measures also allowed for there to be 
additional charter flights from more than just Miami to Havana, 
which should increase people-to-people exchanges in academic 
and cultural and sports activities. Also, food and agricultural 
inputs will be available to individuals and independent 
organizations so that these new entrepreneurs--restaurant 
entrepreneurs and private farmers--can have some freedom of 
action. And we also have, I think, worked out a way that there 
can be organization-to-organization contacts.
    I believe the real embargo that exists is Fidel Castro's 
embargo against his people. So what we are doing is 
consistently, and to the extent possible within the law, 
expanding that space. But what has happened, I think, that is 
of major concern is this trial that he is now involved in with 
the four dissidents. All they did was basically distribute the 
Universal Declaration of Human Rights, and I think this is a 
closed trial. The Europeans, who have been more open with the 
Cubans, are upset about it.
    Within what is available to me, I am going to keep pushing 
on trying to expand the people-to-people contacts in creating 
this space for the Cuban people. I am this afternoon actually 
meeting with a representative of the Vatican, and I have met 
with the Pope and stay in touch with him on how to push the 
possibilities for the Church in Cuba.
    Mr. Serrano. I know, Madam Secretary, that you and I have a 
major disagreement on who is right here and who is wrong. I 
suspect both sides have been wrong for 40 years. This fits into 
this discussion because someone said, well, these hearings are 
about budgets, but budgets work on policy, and therefore it is 
not improper to question policy.
    I understand your statement that perhaps the embargo is 
cast on his people, but we don't have an embargo on China, and 
I once asked a great leader in this country why China and not 
Cuba, and the great answer was China is big. I could have 
answered Cuba has no oil, or Cuba doesn't have a bomb to 
threaten us with.
    But here is my concern. I really believe, even though we 
have a strong disagreement on this, it is probably the only one 
we have, by the way, and that is good because we can get rid of 
it now and deal with other things. I know you are doing what 
you can within the law to have these contacts, and I sometimes 
get the feeling that there are people at the State Department 
who don't have this in mind, and I know you can't oversee every 
single employee every single day.
    For instance, we may have a game March 28 between the 
Baltimore Orioles and Havana--the Cuban national team. I 
understand now that the State Department and Treasury will say 
no Americans can go. Members of Congress could probably go if 
we wanted to go, but no Americans can go. Well, I don't get 
that. I mean, you are going to have the team go, but you can't 
have, quote/unquote, tourists go. So where is the person-to-
person contact?
    And I must tell you that we were told yesterday by the 
State Department--Treasury also--that they could not go. That 
doesn't make sense to me. If we are going to have a game, then 
let everybody have the game, right?
    Secondly, this whole discussion which is partly, you know, 
yours because it is foreign policy, this issue of what to do 
with the proceeds from the Orioles game here in Baltimore, 
there are no proceeds in Havana. They don't charge people to 
come to the game. The proceeds here that we want to send to the 
Catholic church there directly, can you imagine Castro sending 
money directly to a program in my district rather than to the 
Federal Government? There would be an uproar.
    But that aside, you know, we are not going to tell Peter 
Angelos what to do with the money he is going to get out at 
Baltimore. It seems we get a statement from the President we 
want closer ties. Then we get from you we want closer ties, be 
it we want closer to forced democracy or closer for better 
relations, and then we get 15 other people who say, yes, but 
here is how we want closer ties, and they set up all these 
rules that don't allow that closeness to come. And I am just 
wondering, you know, if indeed we have two policies here, the 
one we hear and one some people carry out. And I can tell you, 
and I will tell you later, not now, this is not the forum, my 
frustrations in trying to get some things within the law done, 
and there is no desire to move on it.
    Secretary Albright. As you said, we could have a very long 
discussion on this, and I had believed that it was very 
important to move on the embargo before the shootdown. The 
shootdown to me was a critical point which showed me yet again 
what Castro is like in terms of protecting his system. I spent 
my whole life before having this position as a professor 
studying changing Communist systems. So I have spent a lot of 
time on this, and I think there are differences in terms of 
Castro's control and his ability to use the resources from this 
game.
    One of the thoughts was to have some kind of a way that 
there was going to be a Cuban Brigade-type thing, which was 
getting to use some of this money in other countries. We did 
not want that. I do believe that it is important to expand the 
people-to-people contacts. I work on that within the 
Department, and I will take a look at what you are talking 
about.
    Mr. Serrano. Let me close, Mr. Chairman, on this round by 
saying, I know, I know, because I remember how much you were 
troubled and hurt, as you should be, by the shootdowns. I know 
that prior to your taking your position, there were 17 
occasions where the Cuban Government told our government, your 
planes, private planes, are flying over our territory, our air 
space, please do something about it, and we somehow did not do 
anything about it. I know that those complaints are still going 
on. I hope that this time we at least let the American people 
know that there are Americans taking foreign policy into their 
own hands and flying over Cuban air space. I am praying to God 
it never happens again, but if it happens again, at least the 
American people should know that there are some people in this 
country who believe that they run their own foreign policy out 
of Miami. Thank you.

                     congressional debate on kosovo

    Mr. Rogers. Mr. Kolbe.
    Mr. Kolbe. Thank you very much.
    Welcome, Madam Secretary. As Mr. Serrano said, this is an 
Appropriations Committee, but it is also an opportunity for us 
to ask some questions about policy, and since we also have to 
vote on policy, I hope you will--indulge me by answering a 
question about Kosovo.
    As you know, we are scheduled to take that matter up 
tomorrow and have a debate, a fairly long and extended debate, 
which I think is healthy. I was struck by your comments that 
you felt this would be very unwise for us to do. You also said 
that no decision about using troops in Kosovo would be made 
until after there was time to evaluate the agreement or lack of 
agreement between Kosovo and with Serbia. But you didn't say 
that no decision about troops would be made until Congress had 
an opportunity to express its view on that. Is that correct, 
you do not intend to ask for Congress's views on this matter?
    Secretary Albright. We do not believe that we need 
congressional authorization. We are, however, interested in 
views. I have met a number of times with Members about this, as 
has Secretary Cohen and Sandy Berger and Hugh Shelton, and we 
will continue to have that kind of discussion. I don't think 
there is a problem with that. But once there is an agreement, 
then as we have said, deployment is not--first of all, we have 
to see the agreement. At the moment the Serbs have not even 
engaged on the military part of this agreement.
    Mr. Kolbe. You weren't in government at the time, but did 
you oppose a congressional debate on Desert Storm?
    Secretary Albright. No, I did not oppose.
    Mr. Kolbe. Why do you think it is wrong for us to have a 
debate on this?
    Secretary Albright. It depends on the timing, sir, and I 
think we are in the middle of a very critical negotiation.
    Mr. Kolbe. Did not the House of Commons debate this this 
week?
    Secretary Albright. They did.
    Mr. Kolbe. Why is it not inappropriate for them to debate 
it?
    Secretary Albright. Because they have a parliamentary 
system in which the leaders of the government have a majority 
in parliament. We have a divided system at the moment, and I 
think that it makes it very hard when one branch is controlled 
by one party and the other by the other party. I am trying very 
hard to be nonpartisan or bipartisan on this, and I can tell 
you from my job as Secretary of State that it is very hard to 
have a divisive debate on this just when I have asked 
Ambassador Holbrooke to go deliver a very tough message to 
Milosevic.
    Mr. Kolbe. I understand that, but obviously if we don't 
have that debate now, we can't have the debate, because it is 
over, and the decision is made, and then we are only doing it 
post hoc.
    I disagree with you on that matter. I do think it is 
appropriate that Congress--which, as you know, under the 
Constitution has a responsibility for funding these kinds of 
activities, and so I do think the Founding Fathers did 
anticipate that Congress would have a role in this kind of 
foreign policy decision. It is not a declaration of war as the 
Constitution contemplates specific involvement by Congress, but 
certainly through the purse strings, we do have an involvement.
    I am disturbed that the Administration thinks that Congress 
should not discuss this. I honestly don't know how I am going 
to vote. I have a very open mind on this. I am concerned about 
an unending obligation for troops in Kosovo with no timeframe 
on it. But on the other hand I understand, as you have pointed 
out very well, the dangers of doing nothing. But I think it is 
very appropriate for this body to debate this issue.
    Secretary Albright. As I said, I do not have a problem with 
the debate on this. What I am saying is that the timing at the 
moment-with the Kosovars waiting to sign the agreement and an 
attempt by us to press Milosevic to, one, comply with the 
agreement that he already made and, second, to come on to this 
agreement--that a debate in which there is some questioning 
about whether we have an appropriate policy is difficult in 
terms of trying to carry out that policy. And that is a 
statement of fact and the importance of showing NATO that we 
are there with them and showing support for our troops.
    Mr. Kolbe. But democracy is messy. We don't have a 
hierarchy, and we do have public participation through the 
process, and that is through their elected representatives. 
That is the only comment I would make, but I understand what 
you are saying there.

                     expiration of budget authority

    If I might turn to something that is both policy and 
budget, the budget for your Department expires on June 15, as 
it does for all the agencies that come under the purview of 
this Subcommittee. Do you have some concerns about what is 
going to happen after that date if we don't get some resolution 
to what is the census issue?
    Secretary Albright. Well, I do not want to get involved in 
the census issue.
    Mr. Kolbe. Please.
    Secretary Albright. Nobody else has.
    Mr. Kolbe. I really was not asking you to get involved in 
that.
    Secretary Albright. I think it is important for us to try 
to get these appropriations bills done, and when we go----
    Mr. Kolbe. We are working on next year's, but we are still 
talking about this year's.
    Secretary Albright. I do think it is a problem. I have said 
that.
    Mr. Kolbe. I guess the reason for asking the question is as 
you know, we have offered to fund the other agencies 
separately, the Judiciary and State Department for example, and 
just leave this census issue to within the Commerce Department. 
But that is not acceptable to the Administration. So I assume 
you are prepared to have a closedown of the State Department 
over the census issue. You are satisfied that that could 
happen?
    Secretary Albright. I am not going to answer questions 
about the census issue.
    Mr. Kolbe. I didn't ask that. You are prepared to have a 
closedown of the State Department?
    Secretary Albright. I would hope we would not have to close 
down the State Department.
    Mr. Kolbe. I would hope not either.

              world trade organization ministerial meeting

    Let me ask a question very quickly on strictly a budget 
issue. You have requested $2 million for the WTO ministerial, 
which takes place in Seattle later this year in November and 
December. If not now, could you please for the record give us 
some--I am curious as to what State Department's $2 million is 
going to be used for that ministerial. Is that for staffing, 
security, all of the above, since USTR obviously has the 
primary policy responsibility.
    Secretary Albright. I will get you a detailed answer. 
Because it is ministerial, we usually have responsibilities in 
dealing with various aspects of staffing and with security 
issues. Some of it has to do with transportation, lodging for 
the WTO Secretariat, contract project design, and to convert 
the Seattle Convention Center into a smoothly functioning 
ministerial scene.
    [Clerk's note.--The following information was provided 
subsequent to the hearing:]

    While attending the World Trade Organization (WTO) meeting in 
Geneva in May 1998, President Clinton invited the organization to host 
its third Ministerial Meeting in the United States.
    To help fund the FY 2000 costs of this meeting, the Department of 
State is requesting $2.0 million in its FY 2000 budget request to 
provide for conference resources and administrative expenses.
    The meeting, which will be held in Seattle from November 30, 1999 
through December 3, 1999, will be hosted through a cooperative effort 
involving both the Department of State and the United States Trade 
Representative. We also anticipate that the Departments of Commerce, 
Treasury, and Agriculture will actively participate in meeting 
preparations.
    Total funding requirements for the conference will be worked out in 
an interagency framework that will be developed by the participating 
agencies and the Office of Management and Budget. Total funding 
requirements will also depend on the amount of the contributions by the 
host committee and in-kind support to be provided by the City of 
Seattle.

                     import quotas on foreign steel

    Mr. Kolbe. Last question, Mr. Chairman, and also back on 
policy, and I ask this only because I am not sure when 
Ambassador Barshefsky comes up here. I realize, again, this is 
primarily out of your purview, but trade also comes under your 
interests. This week the Ways and Means Committee is scheduled 
to mark up a steel import bill which imposes quotas on steel 
imports. This may well pass the floor and pass in the House on 
the floor next week. What kind of message do you believe that 
this sends to our trading partners overseas, particularly those 
that are in a precarious financial situation?
    Secretary Albright. Well, first of all, I have actually 
spent some time on this subject because of the foreign policy 
concerns with it. In January the White House did announce a 
steel action plan, which included a number of steps to address 
the import surge from Japan, Russia, and other countries. And 
what happened was Japan has assured us that it would reduce its 
imports to precrisis levels. From what I know, this is 
beginning to take place.
    And then with Russia, we recently announced some agreements 
that restrict imports from them. That has actually been one of 
my big concerns because of the amount--I mean, we have to 
balance equities here in terms of Russia being dependent to a 
great extent on some of its steel exports.
    The Department of Commerce announced some preliminary 
affirmative determinations of dumping with respect to hot 
rolled steel imports from Brazil and Japan. The President is 
committed to an effective, vigorous and timely enforcement of 
our trade laws, and to a sustained implementation of this plan.
    Mr. Kolbe. I guess that is saying you don't think this 
legislation would be very helpful.
    Secretary Albright. Right.
    Mr. Kolbe. That wasn't a very strong statement on the part 
of the Administration, if I may say so, in that regard. I think 
I am surrounded by people who have a different view, but 
anyway.
    Thank you, Mr. Chairman. I will have other questions for 
the record.
    Mr. Regula. Thank you, Mr. Chairman. I think Mr. Kolbe 
pretty much covered the steel issue, but I think the bill 
coming out of Ways and Means does give the President discretion 
in the choice of techniques to achieve equity. I believe that 
in the long haul we have to take a look at our overall trade 
policy, because even though it affects State Department policy 
and our relationships with other countries, it also affects a 
lot of people that are out of jobs. And it seems to me that as 
long as what we do is within the confines of the GATT agreement 
and is WTO-legal, that we have a duty to ensure that Americans 
are treated fairly on trade issues. Could you comment on the 
overview of our trade policies, and particularly from the 
standpoint of the State Department.
    Secretary Albright. First of all, what I think is an 
entirely new development in terms of the post-Cold War Era is 
the extent to which the State Department is involved in 
economic policy, trade policy generally. And I am very proud to 
say that I think we have the strongest State Department 
representation on this ever with Stu Eizenstat as Under 
Secretary and Al Larson as Assistant Secretary for this issue. 
I have spent a great deal of time abroad in our embassies. We 
have made very clear that it is one of the goals of our 
embassies to help pursue U.S. national interests through 
encouraging our business enterprises.
    I do think that there is a very difficult balance to be 
reached here. It my understanding, in discussions I was 
involved in in terms of steel, that while there are many 
additional jobs that get lost in other industries, the steel 
industry obviously is vitally important to the United States. 
Who can operate more efficiently with more steel imports is 
also a job issue. I can tell you that we are taking a great 
interest in this, trying to develop equities, and obviously 
care a great deal about American jobs and American exports and 
the trade deficit.

                         american trade deficit

    Mr. Regula. I was just going to say the trade deficit is 
growing, and because the economy is good, people don't notice 
it. But if you get a downturn in the economy, there will be 
somewhat of a backlash among the American people as they 
realize that their jobs are being exported overseas due to a 
growth in imports. It will make it more difficult for us to 
have a good foreign policy without the public supporting it. If 
they feel that our foreign policy is detrimental to their 
economic well-being, I think that there will be diminished 
support for our policies.
    I guess I would ask you, does it concern you that this 
imbalance in trade is growing?
    Secretary Albright. Yes. But I have to say, you know, we 
are great beneficiaries of a global economy, and ultimately as 
we look at the 21st century, I think it is essential for us to 
be a part of the global economy and a leader in terms of the 
kinds of products that we have. I have found it very 
interesting that when I travel, I always meet with business 
groups, and for the most part they are, I think, the best 
constituency for the State Department because I think they 
understand the extent to which their interests and ours jibe.
    I have just been in China, where obviously we have a huge 
trade deficit which is a problem, and those particular 
businesspeople that I met with felt that our presence and the 
American business interests there are well-served at this 
stage, and that we need to work on the trade deficit. We are at 
this point, because we do have such a strong economy and are to 
a great extent the buyer of last resort.
    It is a problem and I understand that you can't have a 
foreign policy without domestic support for it or congressional 
support for it, Congressman Regula, so I understand the 
Constitution on this and I do understand the problems.
    Mr. Regula. I think the concern is that there is more 
emphasis on ``free'' trade than there is on ``fair trade.'' 
That is the issue. But thank you. I yield.
    Mr. Rogers. Ms. Roybal-Allard.

               transfer of satellite licensing authority

    Ms. Roybal-Allard. Madam Secretary, I recently served on a 
Select Committee on National Security with China, and the 
Department of Defense Authorization Act transferred the export 
licensing for commercial communication satellites authority 
from the Department--this was dual use--from the Department of 
Commerce back to the Department of State, where these items are 
subject to sanctions, to provide sanctions of the missile 
technology control regime. Could you give us a report on what 
the progress State is making in implementing these changes, and 
will the transfer in any way impact the timeliness and the 
transparency of the licensing process?
    Secretary Albright. First of all, let me say that we have 
supported this transfer, and the intent of the program is to 
improve the scrutiny of the export license applications, 
enhance end use monitoring, and strengthen compliance 
enforcement measures to make sure American technology is 
properly safeguarded when it is exported.
    One of our problems is that, while Congress did transfer 
this functional authority, it unfortunately didn't provide any 
additional resources to the Department in order to conduct this 
function. I think that is something that needs to be looked at 
because we do want to be able to carry out this function in a 
way that is careful and does all the scrutinizing, but does not 
delay the process.
    Ms. Roybal-Allard. But you are not anticipating any delays 
now or any reaction from businesses?
    Secretary Albright. No. I mean, we have been moving this 
process forward. We will require the proper information. I do 
not anticipate delays. I will provide a fuller answer for you 
as to whether there have been what are considered delays by 
business. It is my sense there is not that feeling at the 
moment, but I will check on it.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    We have made a great deal of progress in implementing the 
transfer of export licensing jurisdiction for satellites to 
State as required by the National Defense Authorization Act for 
Fiscal Year 1999 (NDAA). The International Traffic in Arms 
Regulations have been amended, following consultation with the 
defense industry, in order to reflect this change and establish 
the new procedures specified in the NDAA. The transparency of 
the licensing process to the defense industry should not be 
affected by the change as State has a computerized system 
accessible via Internet, which enables U.S. firms to follow the 
status of their license applications. We do anticipate that 
more time will be required to process these applications, 
because there are numerous new requirements established in the 
NDAA. With regard to additional resources, the Department 
notified the Congress on March 30 that it was immediately 
funding eight new positions at grade levels to be determined 
for the Office of Defense Trade Controls from within the 
centrally managed American Salaries account. An additional 
$150,000 was identified for bureaus managed funds (from the 
Diplomatic and Consular Programs appropriation) for support 
costs.

                         visa issuance problems

    Ms. Roybal-Allard. I thank you.
    Also, I have a very diverse district, and so we deal quite 
a bit with embassies around the world with constituents asking 
for visas either to visit families or, you know, on business, 
and our experience overall has been extremely good. We have had 
a very good relationship in working with the embassies, 
especially those in Seoul and Guatemala. They have been 
particularly responsive to our requests. But we seem to be 
having a recurring problem with the embassies in both Moscow 
and Jerusalem, and very often there are denials of business 
visas, and there is absolutely no explanation. We also 
experience excessive delays in validating the visas again 
without any explanation at all to my staff. And what I would 
like to do is submit to you some of the problems that we are 
experiencing, and perhaps you could look into that and have 
your staff get back with us with what those problems are.
    Secretary Albright. I will do that.

                international narcotics control efforts

    Ms. Roybal-Allard. One of the issues that we are hearing 
quite a lot about is the issue of the certification of Mexico 
and its relationship to the United States as a partner in 
dealing with the drug problem. My understanding is that you 
recently released a report, the International Narcotics Control 
Strategy Report, this month. Could you provide us with the 
State Department's perspective on our international drug-
fighting efforts?
    Secretary Albright. Yes. Let me, first of all, say that we 
consider our counternarcotic efforts and the drug problem as a 
national security problem. Congressman Regula had talked about 
the fact that business and trade is a State Department issue. 
Drugs are also, because we see it as undermining a number of 
our bilateral relationships and also creating problems, 
domestically, as well as a general national security issue.
    On the Mexico issue specifically, we believe that President 
Zedillo sees drugs as a national security problem also, and he 
has taken some very active steps to deal with what they see as 
a major problem for themselves. I met with Minister Labostito, 
who has been in charge now with this issue, when he was here 
about 3 weeks ago, and they have set aside $500 million to 
create a new kind of police that they are vetting very 
carefully.
    From our perspective, we have a bureau ourselves that works 
on drug issues, coordinates very closely with General 
McCaffrey, and we do see it as a foreign policy problem at 
issue. Just now when I was in Thailand, I made it a point of 
going to see a crop substitution program that is backed by the 
King and the Crown Prince there, which we have assisted in 
terms of trying to get them to grow vegetables instead of 
poppies. I met with people there to signal that it is a foreign 
policy interest for us.

                     international land mine treaty

    Ms. Roybal-Allard. There is one issue that I would like 
some clarification about because actually I am not really clear 
myself on our country's position on the international land mine 
treaty and why it is that we feel that it would be against our 
national security in order to sign that. Could you explain 
that, please?
    Secretary Albright. When I was at the United Nations, it 
was one of our highest priorities to make sure that we were not 
exporters of land mines, that there be a moratorium on the 
export and production of land mines. President Clinton has been 
a major supporter of trying to stop the export of land mines 
and of demining activities. I have studied the issue very 
carefully and was concerned about our position. Yet I can tell 
you this, and I can tell you because I just received a new 
briefing on this, that the U.S. has certain national security 
responsibilities that other countries do not have. I hope you 
all get this briefing actually, because I think that one of the 
issues we are all going to have to deal with is North Korea and 
some of the problems posed by that regime. I can understand why 
land mines, until some other method is developed, are necessary 
for us to be able to fulfill our national security 
responsibilities. The President has asked the Defense 
Department to try to find alternatives to land mines, but I can 
understand the problem, even as one of the leading advocates of 
this issue, our responsibilities to our troops require us to 
use them until we can develop something better.
    Ms. Roybal-Allard. Thank you.
    Mr. Rogers. Thank you.
    Mr. Latham.
    Mr. Latham. Thank you very much, Mr. Chairman, and welcome.

                            embassy security

    First of all, I want to associate myself with the 
Chairman's concerns and remarks as far as embassy security, and 
when we had the hearing previously from the State Department 
security, they made the point that the Administration had 
higher priorities. I would just ask, I guess, what higher 
priorities are there in the Administration than the safety and 
the lives of the Americans who are working for us overseas?
    Secretary Albright. I don't know who said that we had 
higher priorities.
    Mr. Latham. Secretary Bonnie Cohen said OMB, they set the 
priorities, and that was not----
    Secretary Albright. There are not higher priorities, but 
additional priorities. I do believe that we have a huge 
responsibility to the people that serve overseas, and I believe 
that our diplomats are as much on the front lines as our 
military and that we owe it to them. At the same time, I think 
that we have worked out a program where, although obviously we 
could use more money, the money that we have and what we are 
asking for is going to be used in a manner that provides that 
kind of security and develops a program that is sustainable. I 
know, as the Chairman said, you don't do advance 
appropriations, but it is important.
    Mr. Latham. If they were asking for money, that would be 
one thing, but they are not for this next year.

                      u.s. policies in the balkans

    Getting into Kosovo, 3 years ago when we had the debate 
about going into Bosnia and what to do there, the argument was 
the instability in the region, that the troubles were going to 
spread, and it is almost like ``deja vu all over again.'' You 
just said there are U.S. interests going in because of 
instability and the possibility of spreading the troubles 
around the region. Does this confirm that our policy in Bosnia 
hasn't worked?
    This is supposedly why we went into Bosnia in the first 
place--was to prevent this. Now this is happening, and our 
excuse again is because of the spread of these troubles.
    Secretary Albright. First of all, I would say that our 
Bosnia policy has worked, and that slowly but surely the 
institutions that we have supported and a peaceful working out 
of their problems is happening. From having had 20,000 troops 
there, I think we are now down to 6,700, so we are consistently 
working that policy.
    The problem that we have is President Milosevic. The whole 
problem with him started in Kosovo when he took away the 
autonomy that they had under the Yugoslav Constitution. He has 
systematically undermined the various hopes of the previous 
republics within Yugoslavia, and we have been dealing with it 
on a consistent basis.
    I can't say that we have solved all the problems of 
instability in the Balkans. President Milosevic is there 
creating instability, and we are, I think, in a very determined 
way dealing with it successfully in Bosnia, and need to pursue 
what we are doing there in terms of working with the various 
parties. But Kosovo is the problem that, as I said, started it. 
We had tried to deal with it in a peaceful way supporting Dr. 
Rugava and his attempts to deal with this peacefully.
    What happened last year is Milosevic, who was under a great 
deal of pressure because he has lost his hope for a country 
that started out as Yugoslavia--it is now Serbia/Montenegro--
and he is trying to shore up his own support by stirring up 
trouble again in Kosovo. That is what he started a year ago, so 
I think we need to deal with that problem early. I think the 
lesson that we have learned from Bosnia is that we need to deal 
with the problems before the slaughter is totally unacceptable 
to civilized people in the world.
    Mr. Latham. But you don't deny the fact that that was--part 
of the argument 3 years ago--that this type of thing wouldn't 
happen if we had stability in the region by having troops on 
the ground in Bosnia and throughout the region, that it would 
prevent this type of activity?
    Secretary Albright. I think that we said that it was 
important to do to maintain and get stability. I wish I could 
tell you that within a short period of time one can deal with 
what is a very difficult problem, but the fact that we have to 
deal with Kosovo does not mean that our Bosnia policy has not 
worked, because I believe that it has.
    Mr. Latham. You had stated that there is no deadline as far 
as going in, if there were certain criteria as far as our 
removal from--if we do go into Kosovo, such as elections, 
security and disarming the army. Do you have any kind of an 
idea how long that would take to have the elections? What would 
be a target?
    Secretary Albright. This interim agreement runs for 3 
years, but it is possible that some of these things will take 
place before that. There are, according to the agreement, 
elections. I don't have the whole schedule here. It is a long 
agreement, but in terms of timing, these are spaced out over 
the next months once the agreement is reached, and so we have 
deliberately not given a time frame because things could happen 
sooner than one expects, or they might take more time. And so 
benchmarks, and I have just listed a few of them for you and 
this is something that we are going to be consulting and 
working on, we believe are better than an artificial deadline.

                   deployment of u.s. troops overseas

    Mr. Latham. One thing I hear at home all the time is real 
concern about our military being stretched so far. I think we 
are on active deployment in some type of mission in what, 130 
countries around the world, something like that. And even to 
have 4,000 members of our Armed Forces go on this mission, we 
would have to call up the Reserves or the National Guard to do 
so because we are stretched so thin. At what point do we 
finally find out and make a statement as to what is truly in 
our national interests? I mean, all these deployments, it 
really puts us in harm's way across the world, and you really 
question the benefits sometimes.
    Secretary Albright. Well, first of all, I am very cognizant 
of the needs of the military, and we are looking, along with 
the Defense Department, at various things that can be shut 
down. UNPREDEP, which has been in Macedonia and had, I think, 
350 Americans, that has been closed as a mission.
    We are looking at other ways of trying to cut down the 
numbers of Americans serving abroad, but I do have to say the 
following: I do believe that American leadership is essential 
as we move into the 21st century and we are the only 
superpower. We do not want to be the world's policemen. We want 
to have others share the burden, which is one reason that the 
Chairman and I have spent so much time talking about U.N. 
peacekeeping operations, or that in Kosovo we would go in as 
only 15 percent of the force rather than 37 percent, which we 
had in Bosnia, and have the Europeans pick up the lion's share.
    I agree with the fact that we have to be very careful about 
how we use American military, but I also think that none of us 
would like to give up the responsibility that we have to try to 
make a better world for the American people because that is 
what is in our national interest.
    Mr. Latham. I agree with that. We seem to be somewhat 
selective as to where we go.

                         u.s. policies on china

    Just one last question. I guess obviously with some of the 
reports in the media lately as to what has happened with China 
and some of their activities here, I guess I would be 
interested to know what are the thoughts of the administration 
as far as--how much we can tolerate and still maintain close 
relations with China when we see a situation where our national 
security probably was compromised. Do we just continue on?
    Secretary Albright. First of all, we are all obviously very 
concerned about what is happening. This is now part of an 
investigation including by law enforcement parts of our 
government, and we are concerned about it and have also, I 
think, worked very hard in a number of areas to protect our 
national security.
    I think the whole question that you are asking is whether 
we should be engaging with China, and I believe that it is very 
important for us to engage with a country with 1.2 billion 
people, that has the huge land mass, and has an influence 
within its region, and is also a permanent member of the 
Security Council.
    Mr. Latham. And they can also use a lot of Iowa corn and 
soybeans.
    Secretary Albright. They can. They can. I, in fact, talked 
about that when I was there. And I think that I have said that 
we need to engage but not endorse some of the things that they 
do in the human rights area, those concerns that we all have.
    But I think we are better off talking with them, dealing 
with them. They have actually, I think, made some progress in 
terms of their cooperation on nuclear proliferation to rogue 
countries. They are not supplying things to unsafeguarded 
facilities.
    They are also very important at this stage in terms of 
trying to sort out what is going on in North Korea. So I 
believe engagement is essential, while we continue to be very 
watchful of our national security interests.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Miller.

                     extradition treaty with mexico

    Mr. Miller. Madam Secretary, good morning. This is my first 
year on this particular Subcommittee, so it is a pleasure to 
have this opportunity.
    Let me start off with a question of great interest to me in 
my district of Sarasota, Florida, on the Gulf of Mexico side, a 
question about an issue of our extradition treaty with Mexico. 
Tomorrow I will ask the Attorney General some questions about 
this as well. It is kind of amazing to me and to my 
constituents that we even have this situation I am about to 
discuss.
    In November of 1997, a horrible murder took place in my 
district. It was a young mother of six children, including 2-
year-old quadruplets. The mother was brutally murdered, shot 
twice in the head, neck slashed twice, during the middle of the 
day. The quadruplets crawled around in the mother's blood until 
one child arrived home from school and saw this horrible scene.
    Apparently this was a conspiracy. The accused person who 
actually shot and slit her throat is a U.S. citizen, born and 
raised in the United States, who fled to Mexico. As I said, 
there were other people involved in this. One has already pled 
guilty. One was convicted recently. Unfortunately this Mr. Jose 
Del Toro is still sitting in jail in Mexico. We had to waive 
the death penalty. He was arrested within 2 weeks of the murder 
in Mexico and so I want to commend the police work at the 
local, State, Federal and international level.
    The problem is that he is still sitting in Mexico, and we 
can't bring him back. He should have been deported. When he was 
originally arrested, Mexico was going to deport him. Apparently 
Mexico frequently deports people rather than initiating the 
extradition process, because it is lengthy, and we have no idea 
when he will come back to stand trial for this horrible murder.
    Last fall we did pass a resolution in the House, and I know 
you are opposed to it, that we renegotiate this extradition 
treaty, because Mexico has this arbitrary process of choosing 
when they deport versus extradite, and this just delays justice 
being served. We have waived the death penalty in the Del Toro 
case well over a year ago, so that should no longer be the 
issue, but the man is still sitting there. How can we expedite 
getting people to stand trial in the United States, a U.S. 
citizen who committed a crime, alleged crime, against a U.S. 
citizen in the State of Florida?
    Secretary Albright. Well, first of all, I think the whole 
question of extradition treaties is something that is very 
important to our day-to-day business with foreign countries 
because we also want protection for our people, so it is part 
of the whole diplomatic day-to-day business. We strongly 
believe that nationality should not be a bar to extradition so 
that fugitives really have no place to hide, and many of our 
extradition treaties indeed provide for mandatory extradition 
of nationals.
    But a significant number of countries, and particularly 
Latin America and Europe, still don't allow their nationals to 
be extradited as a matter of their Constitution and domestic 
laws. I am spending a great deal of time on issues where, 
because of the death penalty, there are a number of countries 
that are very concerned about various executions that are 
taking place. It is something that is actually a daily 
occurrence in some ways in our relations with countries now.
    What happened was in 1996, Mexico broke with this tradition 
of protecting its nationals, and under a provision in its 
Constitution, allowed its nationals to be extradited in 
exceptional circumstances and found a number of Mexican 
nationals extraditable to the U.S. And so far, of 13 Mexicans, 
4 have been surrendered, and others are pursuing judicial 
appeals, which is the case with this Del Toro. And the 
Government of Mexico has approved his extradition to stand 
trial in Florida. He appealed the decision, and he will remain 
in custody in a Mexican prison until the appeal is resolved.
    And as you said, the U.S. provided assurance that he would 
not face the death penalty in Florida because that was the only 
way that we could ensure that he would come to justice--under 
Mexican law a fugitive may not be extradited if there is a 
possibility of the death penalty.
    Mr. Miller. What is bothersome is this arbitrary-type 
process whether to deport or extradite. It is frustrating. 
There was a case we found in the newspaper in December. A 
person who was accused of a murder in Arkansas crosses over 
into Mexico, was arrested by Mexico authorities and sent right 
back to U.S. authorities. They kind of pick and choose. I don't 
know why they decided to protect Mr. Del Toro, which is 
unfortunate, because he is a U.S. citizen, born and raised in 
the United States. To me it is kind of like having a billboard 
at the border with Mexico, and we have this huge border that 
says, welcome, murderers.
    There was a fugitive that escaped from death row in Texas a 
few months ago, and it was in the paper in Texas, and they were 
worried the person would cross over to Mexico, and they would 
hold him there. Because of the large border, we have a unique 
situation with Mexico, so we need to figure out how to, 
renegotiate the treaty, to have such individuals deported, 
because the person in this case should have been deported. 
Mexico said he was illegally in the country, but they chose 
extradition instead.
    I can tell you, my constituents are still shocked that this 
situation continues to exist and justice is still not able to 
be served. So anything you can do to help to put pressure on 
Mexican authorities to return Del Toro would be helpful, but 
more importantly, I think this extradition treaty is not fair 
right now.
    Secretary Albright. Also part of the problem, as you know, 
this comes up in a variety of places, is he claims dual 
citizenship, and I think that creates an issue.
    Mr. Miller. Well, as I say, justice delayed is justice 
denied.
    [See page 206 for clarification.]

                     exchange programs with russia

    I have one other question on another issue. That is Russia. 
A Russian authority recently was talking about major problems 
in the central government in Moscow, but that the real optimism 
for a successful Russia is out in the cities and counties, 
communities around the country. We are finding real leadership 
existing there. And it is these people that are serving as 
mayors and city managers that are the future hope--this person 
said there are probably 4,000 people in that category.
    The best thing we could do is support a program to bring 
those people to the United States to see how our communities 
operate and work with us in an exchange program. It was 
successful at the close of the the Marshall Plan and this would 
be the best thing we could do and should not cost a huge amount 
of money. I know we do some of it now, but I was just wondering 
what programs already exist along those lines and how 
successful they are. We should not just send our university 
professors over there, but bring Russians in to see how our 
cities operate and run a utility system and such, and get them 
excited about democracy and the freedoms we enjoy. I don't know 
what programs exist and what potential to expand those programs 
there are.
    Secretary Albright. First of all, I agree with the analysis 
that there is a lot of hope out in the regions. There is also 
some process of decentralization going on with the governors of 
the various regions that are gaining more power, and it is true 
that some of the younger people that did not live through the 
Communist era are the hope of this kind of change.
    There are a number of exchanges that take place, and a 
number that I think need to be better organized in terms of 
funding, for trying to get these people to the United States. I 
agree, and I will pursue that further. Glad to hear that you 
are interested in it.
    I think that one of the things that has to happen is for us 
to appeal to a new generation. When I was a professor, I did a 
huge attitude survey of a lot of places, and Russia was one of 
them. The differences between the entrepreneurial spirit of a 
young man in Moscow and an old woman out on a farm, was 
something like 60 percent, which are huge disparities in terms 
of attitude surveys. So there are certain cities, also in 
Ukraine, where there was entrepreneurial spirit that we need to 
encourage either through private foundations or----
    Mr. Miller. We need more information about programs that 
are available.
    Mr. Rogers. Mr. Wamp.
    Mr. Wamp. Madam Secretary, I want to say thank you for 
being here today. I am a new kid on the block as well. What I 
said to you last year when I met you, I really admire your 
work, and I think in a bipartisan spirit we need to recognize 
that from time to time. There are some things I have disagreed 
with, but for the most part I have been very pleased with your 
service and proud of your service. I know every woman in 
America is very proud of you, and we all should be, even though 
from time to time we can disagree.
    I also want to weigh in support of what you said about 
Central America and the hurricane humanitarian relief for the 
victims of Mitch and the need for us in a bipartisan way to 
support that. There is no question about that in my mind. It is 
the right thing to do, and I hope we will come together on 
that.
    I spent a significant period of time as a young person in 
the country of Panama, and it pains me to see some of the 
things that have happened since I was there as a young man have 
a keen interest in the Central American region.

                        certification of mexico

    But that brings me to the issue of Mexico, because I have 
served for the last 2 years on the Speaker's task force on 
illegal drugs, and I consider you, Director Freeh and General 
McCaffrey as some of the better public servants in this 
administration, and I respect you and admire you. But I have to 
say I have been very frustrated over the last 2 years in terms 
of real progress on this issue of illegal drugs, and I would 
just ask you point blank how much of the illegal drugs coming 
into this country come through Mexico?
    And secondly, you indicated that you were satisfied that 
they are making progress or that they are where they need to be 
in terms of these agreements. But I want to know is are you 
somewhat satisfied, very satisfied, or extremely satisfied, 
with the efforts of the Mexicans so we will know whether there 
is still significant room for improvement?
    Secretary Albright. I guess I would grade myself as 
somewhat satisfied. I do believe it was important to certify 
Mexico because of the efforts that are being made and also 
because our relationship with Mexico is probably one of the 
most complicated that we have. Congressman Miller was talking 
about the border, and there are more issues to do with the 
border, not just the criminal problems you are talking about. I 
do think that if you look at bilateral relationships, there is 
none that is as complicated as we have with Mexico because of 
the size of the populations and the length of the border and 
the intimacy that exists between our two countries.
    I think that we have to continue to work with them and 
press them, and we are doing that, General McCaffrey and I, and 
the Attorney General Mr. Freeh. We need to let them know that 
they are moving in the right direction, but that there needs to 
be more done.
    But the reason I supported the certification on this is I 
think it would be counterproductive to put them in the position 
where we do not recognize what has been done. I do not know the 
exact amount that comes in, but I will get you that.
    Mr. Wamp. Thank you.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    It is very difficult to determine the amount of illegal drugs 
coming into the U.S. through Mexico; however, the law enforcement 
community regularly prepares estimates on drug flows. The following was 
compiled from information provided by law enforcement agencies and is 
based on currently available data. Further questions should be directed 
toward those agencies.
    Marijuana: Most marijuana used in the U.S. domestically grown. 
Nevertheless, up to 80 percent of the foreign grown marijuana used in 
the United States comes from Mexico. Seizures of Mexican marijuana in 
the U.S. have increased from 102 metric tons in 1991 to 742 metric tons 
in 1998.
    Methamphetamine: Due to the nature of methamphetamine production, 
estimates for drug flows are based on seizure rates at the U.S.-Mexico 
ports of entry. Simply put, in 1992, there were 6.5 kilograms of 
methamphetamine and amphetamine seized. In 1998 that figure grew to 781 
kilograms seized. This is an almost 12,000 percent increase in the 
amount seized at the border. Also, law enforcement agencies have found 
that most of the large volume methamphetamine/amphetamine production 
laboratories in the U.S. are controlled by Mexican cartels.
    Cocaine: Current estimates of cocaine movement indicate that 
approximately 59 percent (321 metric tons) of the cocaine destined for 
the United States transits Mexico. The amount of cocaine seized at the 
U.S.-Mexico border in 1998 was 31.1 metric tons. This is an increase 
over 1997 seizures of almost 73 percent.
    Heroin: Current estimates indicate that approximately 29 percent of 
the heroin used in the U.S. transits Mexico.

    Mr. Rogers. Thank you.

                 personnel shortages in the department

    Madam Secretary, I know that you are traveling out of 
country this afternoon, so we are going to try to get you out 
of here very soon. Let me ask you a couple of questions. In 
your written statement you say the Department is, quote, 
desperately short of people, end quote, and, quote, short more 
than 300 people. And you ask for our support to address those 
personnel needs, yet when I look at your fiscal 2000 budget, 
you are only requesting funding for an additional 14 positions, 
12 in foreign buildings, maintenance two, and exchanges. Help 
me out here. What am I not seeing?
    Secretary Albright. Well, I think that our problems are 
that it is not so much an issue of funding, but trying to 
recruit the right people and make sure that they have the 
proper training and make it enticing for them to come in. And I 
think I have to get you better numbers myself, but I think 
that----
    Mr. Rogers. Well, you say you are short 300 people, yet you 
only ask for 14. Is that because OMB cut your request back? Did 
you request of OMB a lot more people than you are requesting 
us?
    Secretary Albright. I think we did.
    Mr. Rogers. How many did you request?
    Secretary Albright. We requested 125.
    Mr. Rogers. And you got 14.
    Secretary Albright. Yes.
    I very much appreciate your support for what we are trying 
to do, and I think you know how the process works in terms of 
different priorities and budget caps. I am trying to have the 
best possible State Department within the budget priorities 
that have been set.
    Mr. Rogers. Well, you know, I am puzzled again. I just 
don't understand the OMB. I suspect you don't either. If you 
do, you probably belong in the circus, because you would be a 
rarity.
    Secretary Albright. I like that. I knew we would get 
something good here.
    Mr. Rogers. I just don't understand how they come by their 
priorities at times. And since we are dealing with the lives of 
people out there in these missions abroad, I don't understand 
how they can put a higher priority on some other things, and 
here is another one of them.

                     technology transfers to china

    Now, let me ask you about China briefly. We have suffered 
what appears to be a very serious national security breach by 
China stealing our nuclear secrets. Not talking about who is to 
blame, who is at fault, who didn't report to whom, where do we 
go from here? How will this situation impact our policy or even 
our thinking toward China?
    Secretary Albright. Well, as I stated, I believe that it is 
important for us to continue to engage with China. And clearly 
the law enforcement people are now dealing with this most 
recent case. We have established very strong measures to 
protect classified information and prevent acquisition of 
sensitive technology, and we prosecute those who violate our 
laws.
    In the case of China, we have extremely strict policies. We 
don't authorize any arms sales to China or export of dual-use 
technology for military use. We also limit the export of dual-
use technology to China for civilian uses to minimize the risk 
of diversion to military activities.
    As problems arise, we have tried to deal with them. For 
instance, in 1995, we ordered the relocation of McDonnell 
Douglas machine tools that were improperly moved to a Chinese-
related aviation facility. In 1996, we strengthened the 
licensing and monitoring requirements for foreign launches of 
U.S. satellites, including China. In 1997, we arranged for the 
return to the U.S. of a high-performance computer which was 
improperly exported. So I believe we are systematically dealing 
with the issue.
    I also think that we need to understand the difficulties of 
certain technology just being available in stores--laptop 
computers are available in various places.
    Mr. Rogers. We are talking about miniaturization of atomic 
weapons. You are not going to buy that at the Circuit City.
    Secretary Albright. No. I believe that this is a very 
serious issue. The CIA is now doing an assessment of the 
damage, and this is an issue that I believe needs to be taken 
very seriously, and I can assure you that from the perspective 
of the State Department, it will be.
    On the other hand, I think that it is essential for us to 
engage with China, even during the Cold War, we did. We have 
had espionage difficulties, too, Mr. Ames, Nicholson, et 
cetera, that doesn't mean one should not engage.

                               east timor

    Mr. Rogers. Now, you are recently back from Indonesia. The 
situation with East Timor brewing for more than 20 years. 
Indonesia has made a commitment to honor East Timor's desire 
for independence. I understand that while you were there, you 
expressed support for an international presence in East Timor. 
Does that mean that we are in the process of establishing 
perhaps a U.N. peacekeeping mission in East Timor?
    Secretary Albright. Well, first of all, this is all still 
down the road. What is supposed to happen is that the East 
Timorese will in some way reflect their will as to whether they 
want to be separated from Indonesia or not. Second, the United 
Nations has been the body that has tried to resolve the 
problems between Portugal, Indonesia and the East Timorese, and 
there is some discussion about the possibility of an 
international presence if they chose independence.
    What is of concern, Mr. Chairman, and I did have these 
discussions with the authorities in Jakarta, is that if the 
East Timorese choose independence, that not everything be 
withdrawn immediately in terms of structure and civil servants 
because we are concerned about instability created there. I 
have a sense it will be important to have a very orderly 
transition. If indeed we do move to some kind of a U.N. 
operation, we will consult as soon as it is feasible.
    Mr. Rogers. Well, you know that we like to talk to you 
about those types of things before they take place so that we 
can plan our budgets accordingly and to try to discipline the 
system so that we have the minimum of those peacekeeping 
missions, given our experience in proliferation of those 
missions in 1993 and 1994.

                     foreign affairs reorganization

    In your testimony you spoke about Foreign Affairs 
Reorganization Act and your implementation plan. Under the act 
you are integrating the arms control and disarmament and public 
diplomacy functions into the State Department. How will these 
functions be strengthened once they are inside State?
    Secretary Albright. First of all, the reason that we felt 
that this reorganization was so important is that I believe 
that arms control and nonproliferation needs to be central to 
our foreign policy and is something that belongs within the 
State Department.
    In carrying out the reorganization, we are making as sure 
as possible that various parts of the ACDA program are well 
preserved. This is one of the issues as to how verification and 
compliance is carried out. Public diplomacy, we think, is 
something also that should be integral to how the State 
Department operates. In an information age, our ability to meld 
what our policy is with our public message abroad is very 
important. I think that we have done the right thing by 
combining this, and we also are having a much closer 
relationship with AID to basically try not to have duplication 
and also to have a very clear relationship between the policies 
that are carried out.
    Mr. Rogers. Some of these agencies, some would say, have 
incompatible mandates. There is going to be a juggling act that 
you have got to perform as you integrate all of these agencies 
into one. So we wish you well, and we will be helpful if we can 
do so along the way.
    Now, quickly, because we have a vote on the floor, and we 
are holding you a bit overtime here, you ask $3 million for a 
market development pilot program to create business centers in 
15 countries where there is no permanent foreign commercial 
service presence, and would also expand market development at 
other small posts. But are you aware that the Department of 
Commerce is requesting an increase of $10.8 million and 60 
positions to expand to many of the same places where your 
increase assumes they will not be? We are told that Commerce 
expressed opposition to your requested increase, but obviously 
it is still there. Can we switch some of that money to embassy 
security?
    Secretary Albright. Let me take a look at that. We 
obviously don't want to have duplication here. We usually work 
together.

                        u.n. arrears and reforms

    Mr. Rogers. And finally, on U.N. arrearages and reform, I 
think you know that this committee has been standing able and 
willing to solve the U.N. arrearage payment problem, and yet we 
see the other body as being in concrete on the matter. Now, you 
are asking for an additional $446 million for arrears for 
international organizations on top of the $575 million that 
this committee has appropriated subject to authorization. How 
much of that additional $446 million would be for the U.N. and 
how much for other organizations?
    Secretary Albright. I will have to get that for you.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

    Of the $446 million requested in FY 2000 for arrears, we plan to 
pay $137 million to the United Nations.
    The remaining $309 million would be used to make payments to over 
40 international organizations to which we owe arrears, ranging in size 
from $105 million for the Food and Agriculture Organization to $2 
thousand for the International Seed Testing Association.

    Mr. Rogers. Now, you don't say that the payment of the 
monies would be subject to any conditions or requirements or 
reform or anything else, correct?
    Secretary Albright. Well, we are continuing to insist on 
reform. Part of what has happened is that some of the 
conditions that were laid out in the Helms-Biden legislation 
are, as we say, OBE, overtaken by events, because it was not 
passed, so we are trying to work with the authorizing 
committees in order to bring it up to date.
    I mean, it is one of the problems that Congressman Serrano 
asked about--was what effect? It is very hard to get down to 
the 20 percent assessment rate because we missed the window on 
that, so those are the kinds of benchmarks and conditions. We 
expect that there will be some conditions. The problem is that 
as currently drafted, that piece of legislation is out of sync.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Very briefly, Mr. Chairman.
    I just have one more question, and maybe you can touch on 
it now and send me some information later on. Let me first 
preface I am sorry the gentleman from Iowa left, because I just 
happen to have here the listing of what the Cuban Government 
would buy in corn from his State if they could buy food from 
us. It is 160 million tons, thousands of tons.

                      minority recruitment efforts

    Anyway, Madam Secretary, we were talking before about 
staffing. Could you tell me what efforts the Department is 
making to bring in more minorities and women into the 
Department? This is an area of growth, if you will. We are 
playing such a major role in the world. I want folks that I 
know to participate, and sometimes they are frustrated at the 
inability to reach these kind of positions.
    Secretary Albright. This, Congressman, has been one of my 
priorities, and I have been working on it, but it is difficult. 
There is no question. We spend $2 million annually to try to 
enhance and increase the recruitment of qualified minorities, 
including Hispanics and African Americans and others that are 
underrepresented at State. We are requesting an increase of a 
million to build on this recruitment program.
    I have to also tell you that when I was a professor of 
international relations, one of the issues in the graduate 
school, was how to do this kind of recruitment. We are working 
with a lot of colleges to try to reach down and get people 
interested in what we are doing. We have student employment 
programs. We are also organizing an interactive teleconference 
with historically black colleges and universities and Hispanic-
serving institutions. We are assigning diplomats in residence 
to various schools to try to entice people.
    Part of the problem that we have is that sometimes we 
cannot compete with private industry for the best people, but I 
can assure you that this is something that I care deeply about, 
and we are doing our best.
    Mr. Serrano. I commend you on your efforts.
    Mr. Rogers. Madam Secretary, we appreciate your being here 
today. We are sorry to keep you overtime here. We do have a 
vote on the floor as well. Congratulations on your work so far. 
We are proud of what you are doing. We don't agree with you on 
everything, but that is the way the world is. But we agree on 
one thing, that we do have a very able Secretary of State----
    Secretary Albright. Thank you.
    Mr. Rogers [continuing]. That truly represents this 
country's best. So good luck out there.
    Mr. Serrano. Ditto.
    Mr. Rogers. And be careful out there.
    Secretary Albright. Mr. Chairman, I have to say you and I 
began our work together when I was at the U.N., and it has been 
a pleasure. Your understanding of our issues is just vital, and 
the support from your subcommittee is essential, and your 
availability. We have had phone calls at various weird times, 
and you have been very helpful.
    And, Congressman Serrano, I am very glad, too, that we are 
going to have a chance to work together and have our 2-hour 
plus discussions. Thank you so much.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            QUESTIONS SUBMITTED BY REPRESENTATIVE JIM KOLBE

                         Universal Postal Union

    QUESTION: In PL 105-277, primary responsibility for formulation, 
coordination, and oversight of U.S. participation in the Universal 
Postal Union (UPU) was vested in the Department of State. In this law, 
a Sense of Congress was expressed that, any treaty, convention or 
amendment entered into under the authority of section 407 of Title 39 
U.S.C. should not grant any undue or unreasonable preference to the 
Postal Service, a private provider of postal services, or any other 
person. Given this sense:
    <bullet> What procedures have been developed to ensure that a fair 
and transparent process takes place when considering positions to 
submit to the UPU? When were these procedures implemented?
    <bullet> The Secretary of State is required to consult with federal 
agencies, private providers of international postal services, users of 
international postal services, the general public and other such 
persons as the Secretary and U.S. Postal Service consider appropriate 
in carrying out their responsibilities to represent U.S. interests to 
the UPU. Has any such consultation taken place? Please provide a list 
of those entities that State has consulted with in preparation for the 
August, 1999 meeting of the UPU in Beijing.
    <bullet> How is an entity's position considered for submission as 
part of the U.S. position? What procedures have been established by the 
State Department to submit positions, disseminate information on 
positions, inform parties of meetings and allow review and comment on 
these submissions by all involved parties?
    <bullet> Have other bodies, i.e., the United States Trade 
Representative, the Department of Commerce or the Postal Rate 
Commission, had an opportunity to provide input into the upcoming 
meeting of the UPU in Beijing? Has a process for seeking input been 
established within the State Department?
    <bullet> Has the State Department established policies or 
guidelines to consider submissions of Joint Proposals with other 
countries to the UPU? If not, when do you expect to announce your 
guidelines, given the April 23, 1999 deadline for joint proposals?
    <bullet> Given the sense of Congress that no unreasonable or undue 
preference shall be granted to either public or private carriers, is 
there a mechanism in place to ensure that no undue or unreasonable 
preference is given? Describe that mechanism.
    ANSWER:
    <bullet> In the five months since State was given responsibility 
for formulation, coordination and oversight of policy with respect to 
United States participation in the Universal Postal Union (UPU), we 
have made commendable progress in establishing a system and procedures 
to ensure maximum transparency and a process aimed at taking all views 
into account as we formulate US policy for the UPU.
    <bullet> In order ``not to grant any undue or unreasonable 
preference to the Postal Service, a private provider of postal 
services, or any other person'' as has been indicated by Congress, we 
have set in place procedures for meeting with the private sector, 
hearing from other US government agencies, and providing access for all 
interested participants to Universal Postal Union documents and to US 
positions.
    <bullet> State has hosted two public meetings (one in September 
1998 and the second in January 1999) which have been announced in the 
Federal Register and which have been open to any party with an interest 
in UPU activities. At these meetings we have briefed on the status of 
UPU initiatives, such as reform of the terminal dues system, heard 
presentations by the private sector on areas of concern to them, and 
opened the discussion for any input by participants. The next public 
meeting will be held on April 15, 1999. It will be to update on UPU 
activities and hear further comments from the private sector on 
proposals for the Beijing UPU Congress, or any other relevant matters. 
All interested federal agencies participate in these public meetings, 
as well. We have welcomed and circulated written comments by any party 
on any part of our UPU activities to those indicating an interest.
    <bullet> We have met extensively with private company 
representatives, including those from the express courier industry, 
direct marketers and publishers, and have extended an open invitation 
to meet with individual companies or associations on UPU issues as they 
desire. Access to information on proposals and public meetings, and 
public comments are available to industry twenty-four hours a day on 
our UPU information homepage on State Department's website.
    <bullet> Similarly, we have held--and will continue to hold--
extensive consultations with other government agencies, such as USTR, 
the Departments of Commerce and Justice, and the Postal Rate Commission 
as the process of policy formulation proceeds. We have met collectively 
with US government agencies in January, February and April of this 
year. As with the private sector, consultations with other agencies, 
both collectively and individually, will increase over the next several 
months as we prepare US positions for the Beijing Congress. We have, 
and will continue to receive both written and oral comments from other 
agencies, and are making every effort to include these views in the 
decision process.
    <bullet> One set of US proposals for the Beijing Congress was 
submitted by the Department at the end of February. These were arrived 
at using the public and intergovernmental consultation process 
described above. (These were distributed to all interested parties and 
are listed on State Department's website--www.state.gov--under the 
International Organizations Bureau homepage.) The Department of State 
has also consulted bilaterally with a number of countries to determine 
areas of common interest in UPU matters. If subsequent proposals are 
deemed necessary through the US consultation process, we will use 
Sate's established contacts and the resources of our embassies to 
gather multiple-country support as needed.

                               Laser Visa

    QUESTION: Last year, Congress included language in the Making 
Omnibus Consolidated and Emergency Supplemental Appropriations for 
Fiscal Year 1999, which modified Section 104 of the Illegal Immigration 
Reform and Responsibility Act of 1996 by extending the date for final 
implementation of the laser visa program until October 1, 2001. It was 
believed that this would provide a reasonable period of time for the 
Department of State and the Immigration and Naturalization Service to 
complete the transition from Border Crossing Cards to the Laser Visa. 
However, in written testimony before the House Appropriations 
Subcommittee on Commerce, Justice, State, and the Judiciary, Secretary 
Albright stated: ``the statutory deadline of October 1, 2001, for 
completing this project is unlikely to be met without substantial 
further increases in the ability of the INS to produce the cards. * * * 
The job is simply too large to finish by the deadline given us last 
year.''
    Can you please provide an exact date for the completion of this 
program?
    ANSWER: In our briefings of Committee staff the Department of State 
has long maintained that it would require at least five years to issue 
and produce the 5.5 million replacement Border Crossing Cards in Laser 
Visa format and keep pace with new applications from Mexicans for this 
document. Our best estimate for completion at projected rates of 
adjudication and production remains sometime before the end of calendar 
year 2003.
    QUESTION: Can you please detail current and projected card 
production schedules for 1999, 2000, and 2001? Please provide a 
comparison of projected production schedules to anticipated demand for 
each year.
    ANSWER: The Department now accepts laser visa applications at our 
consulates in: Ciudad Juarez, Matamoros, Nuevo Laredo, Nogales, 
Tijuana, Merida, and Hermosillo. We will bring the Embassy in Mexico 
City on line for the laser visa program in May of this year, to be 
followed in June by the Consulate General in Monterrey.
    INS has authorized the Department to send 25,000 laser visa card 
production orders per week to the Integrated Card Production System 
(ICPS) beginning in early March of 1999. This would result in 1.3 
million laser visas produced per year, or 108 thousand per month. Since 
INS was unable to commit to this rate of production (about three and 
one half times our earlier production allocation) until early March, we 
did not expand the construction of temporary processing facilities, nor 
hire the personnel to staff them, in anticipation of this level of 
work. We are now moving to increase our adjudications to the levels 
authorized by INS and we anticipate being able to reach these levels by 
August of 1999.
    Once we reach a level of card orders as indicated, INS has promised 
to assess the ability of the ICPS to handle the even greater volumes 
that will be required to finish the replacement program in a reasonable 
time frame. Completing the program prior to the current deadline of 
October 1, 2001, would require a monthly card production of 237,000 
laser visas (183,000 replacement cases and 53,000 new applications on 
average), given that we estimate 5.5 million BBCs to be replaced and 
approximately 650,000 new cards issued per year in Mexico. Monthly 
production of laser visas authorized by INS on the ICPS is not 
projected to exceed 147,000 card orders at the absolute maximum, and 
this level cannot be reached without funding increases to improve 
system capacity. Such increases have yet to be authorized.
    QUESTION: Can you please describe anticipated funding needs for 
completion of the program?
    ANSWER: The Department budgeted $20 million for the program this 
year and has budgeted $18 million for FY2000. This does not include 
reimbursements to INS for card production. We would expect annual costs 
to be in this range in the outyears.
    QUESTION: Can you please describe what measures are being taken to 
ensure the integrity of the laser visa?
    ANSWER: The integrity of any visa is a complex interaction among 
the issuance procedures, physical document characteristics, security of 
custody during the production process, and the inspection procedures 
used in examining the issued document. The Department of State is 
responsible for issuance procedures and custody of the finished 
document once it is received from the INS production centers in the 
U.S. and prior to delivery to the approved applicant, but not for the 
physical characteristics, production, or inspection procedures of the 
laser visa. We can therefore provide only a partial answer to this 
question.
    All laser visa applicants must present themselves in person to a US 
consular facility in Mexico to have fingerprints and biographic data 
collected by US Department of State employees. Every applicant is 
personally interviewed by a consular officer, who alone decides whether 
or not to issue that person a laser visa. Levels of scrutiny vary 
according to the applicant, but are essentially identical to those 
accorded new applicants and applicants for replacement of our Machine 
Readable Visas (MRVs). In addition, we subject every applicant to a 
name check against a comprehensive database (CLASS, the Consular 
Lookout and Support System), which includes names of persons known to 
be ineligible for a US visa or against whom there is other adverse 
information relevant to the issuance or denial of a non-immigrant visa. 
Since, unlike other types of visa, the laser visa uses encoded 
fingerprint technology, we also are able to check each laser visa 
applicant against INS' IDENT database. IDENT contains three separate 
sub-systems; a database of deported aliens, of aliens who have had 
``encounters'' of one kind of another with the US Border Patrol, and of 
those aliens already enrolled for issuance of a laser visa (this guards 
against multiple issuance of the laser visa to the same person in 
different identities). A chain of custody of the physical document is 
maintained in the same comprehensive manner used for other visa 
products worldwide.
    The laser visa is a very advanced document in terms of its physical 
security features. Its data is encoded onto an optical stripe on the 
reverse, and the card itself utilizes advanced security resident cards 
(the so-called ``Green Cards'') now being issued by INS. (NOTE: INS--
the producers of the laser visa card--may be able to provide a more 
comprehensive response.)
    QUESTION: Is the Department of State considering any plans to 
expand the laser visa program to other countries where forged documents 
are a significant problem (Haiti, for example) at any time in the 
future? Does the Department of State believe the laser visa program can 
be expanded to other nationals beyond Mexico?
    ANSWER: The laser visa program has furnished us with extremely 
valuable lessons and raw data on the utility of biometric technology in 
large-scale visa applications. Its anti-fraud potential is great and of 
strong interest to the department as we plan for the future of our visa 
work abroad. Our commitment to adjudicate laser visa cards produced on 
the INS' ICPS in the U.S. extends only to the INS-issued Boarder 
Crossing Cards specifically mandated for replacement by Section 104 of 
the IIRIRA of 1996. We do not think that our world-wide visa program 
could work effectively without local production of the documents at our 
consular sections abroad.
    Having said that, and looking well beyond the expiration of the 
replacement program for Border Crossing Cards, there are important 
procedural and technological questions that we must assess prior to 
designing a ``visa of the future'' that incorporates biometric 
technology. An approach very much under consideration would be the use 
of biometrics at precisely those locations where fraud, counterfeiting, 
and other criminal abuses of US documents are priority concerns.

                  World Trade Organization Ministerial

    QUESTION: I understand that the Department of State is requesting 
$2 million for increased expenses related to the WTO Ministerial. Could 
you please detail and explain your request and how you anticipate these 
funds being utilized? Can you please describe whether these funds will 
be used exclusively by the Department of State or shared with other 
federal agencies? If the funds are shared, please describe the 
interagency framework which will determine how these funds are 
allocated, including who will have the authority to determine funding 
allocation.
    ANSWER:
    <bullet> While attending the World Trade Organization (WTO) meeting 
in Geneva in May 1998, President Clinton invited the organization to 
host its third Ministerial Meeting in the United States.
    <bullet> To help fund the FY 2000 costs of this meeting, the 
Department of State is requesting $2.0 million in its FY 2000 budget 
request to provide for conference resources and administrative 
expenses.
    <bullet> The meeting, which will be held in Seattle from November 
30, 1999 through December 3, 1999, will be hosted through a cooperative 
effort involving both the Department of State and the United States 
Trade Representative. We also anticipate that the Departments of 
Commerce, Treasury, and Agriculture will actively participate in 
meeting preparations.
    <bullet> Total funding requirements for the conference will be 
worked out in an interagency framework that will be developed by the 
participating agencies and the Office of Management and Budget. Total 
funding requirements will also depend on the amount of the 
contributions by the host committee and in-kind support to be provided 
by the City of Seattle.

                QUESTIONS SUBMITTED BY CHARLES H. TAYLOR

                       U.S. Involvement in Kosovo

    QUESTION: On March 9, 1999, I received an email--which I have 
included for your reference--from a constituent of mine who is 
presently serving in the United States Army. His comments on the wisdom 
of U.S. involvement in Kosovo reflect, I believe, a growing trend among 
our nation's military servicemen and women: while wholeheartedly 
committed to fulfilling their duty and performing their missions, they 
question the absence of clearly-defined objectives in much of our 
nation's foreign policy. Our long-term troop commitments to conflicts 
in nations such as Bosnia place our men and women in harm's way without 
first clearly defining our national interest in doing so, or a 
timetable by which to bring them home. This ad hoc manner of conducting 
foreign policy has had, and will continue to have, a seriously negative 
effect on troop morale and retention. How should I answer this 
constituent? What assurance can I give him that his concerns about the 
strength of our nation's military, and the direction of our foreign 
policy, are being adequately addressed?
    ANSWER: While we have many tools in the foreign policy toolbox, the 
use of force is certainly one which we withhold until absolutely 
necessary. A decision to use force is only made when extraordinary 
diplomatic efforts, including the threat of force, is insufficient and 
all other effective alternatives to preserve and promote our national 
interests have been exhausted. Even under these circumstances, U.S. 
forces are not used unless there is a reasonable expectation that the 
use of force will be effective in securing our foreign policy and 
national security objectives. Our efforts to persuade other nations to 
support basic American values such as democracy, human rights, and the 
rule of law are effective because we are willing to use force, if and 
when required, when these values are threatened. We have learned 
important lessons and understand that the decision to use force rests 
on a clear-cut mission to support clear-cut goals--and an ``exit 
strategy'' to know when those goals have been met. Far from an ad hoc 
approach, our conduct of foreign policy is marked by serious reflection 
and consistent efforts to achieve maximum unity of purpose.
From: --
Sent: Tuesday, March 09, 1999 5:43 AM
To: Taylor, RepCharles
Subject: House vote on Kosovo
    Sir, I am a U.S. Army Infantry officer currently in training and 
soon to be bound for Germany. Though I am a new Lieutenant, I have been 
in the service for nearly eight years and have spent approximately a 
year and a half overseas. I am writing you regarding concerns I and 
many of my colleagues share. With the recent revelations of the 
readiness problems and the difficulty the various services are having 
with retention, we cannot help but marvel at the administrations 
seeming eagerness to become involve in the Kosovo conflict.
    The number of missions which the military has been tasked with has 
expanded at an incredible rate since I joined the Army in 1991. But we 
do not seem to be ending any of those missions and we are now doing 
them with fewer men and materials. We are at the point at which the 
National Guard and Army Reserve are being mobilized to take on missions 
which are traditionally active duty missions because the active 
component is so worn down from constant deployments.
    Further, it is unclear why we are becoming involved in this 
conflict. We have no clear national interest. Granted the loss of life 
in Kosovo is regrettable. But we are all educated individuals and we 
recognize that this conflict is not new and has in fact been going on 
for hundreds of years. They do not want us there. Nor do I feel that 
the potential loss of lives of our soldiers is worth what may be 
gained.
    We appear to be running headlong on a course which will place us in 
harms way with little upside. It has been projected that if we become 
involved in Kosovo we will be committed to a minimum of eight years in 
the region. That, on top of the Bosnia mission and Macedonia mission, 
neither of which have an apparent end date for fear of renewed 
violence, will have a devastating effect on our Army. We will have 
further commitment of the National Guard and Reserves and will face 
increased problems with retention. I and many of my classmates feel 
that the current manner in which we are committed to missions with 
seeming disregard to their effects on us as an Army are not worth our 
long term commitment. Many are married and have children. Most intend 
to serve our commitments and return to civilian life. Our families do 
not deserve to be placed low on our list of priorities and a soldier 
can hardly be expected to do his job if his home life is not in order.
    My wife is also an Army officer and I will be rejoining her in 
Germany in the near future. Before I returned to active duty I lived 
with her in Germany. She has been through three tactical evaluations, 
one emergency readiness deployment exercise which would have become an 
actual deployment, and a deployment to Israel during the bombing of 
Iraq. She has told me of the incidents which have occurred and there is 
an alarming number of incidents which point to stress resulting from 
operational tempo. There have been a great number of instances of 
driving under the influence, domestic violence, various marital 
difficulties, and sexual harassment. The chaplain at her battalion is 
booked solid with appointments, which is something I have never seen 
before. This has all occurred in a period of less than a year.
    Sir, I am concerned that information of this sort does not reach 
your level. I have heard no comment from either the House or the Senate 
regarding the efforts to involve us in Kosovo. Please do not 
misconstrue my comments. I and my fellow service members are committed 
to doing our duty and taking care of our troops. We will do what we 
have to. But once our time is done we will depart the service. The 
sacrifices we and our families are expected to make are just too great. 
I hope that I am not the first to try to bring this information to your 
attention and that you and your fellow Congressmen have plans in mind 
to protect us as individuals and as an institution as we have committed 
ourselves to protecting our country.
            Sincerely,
                                        [Name and address withheld]

           QUESTIONS SUBMITTED FROM REPRESENTATIVE TOM LATHAM

    QUESTION: Madame Secretary, as you know, last year we spoke about 
the relationship between a successful and credible foreign policy and 
having adequate military resources to support decisions made by the 
Administrations' diplomatic policy team. In fact, I'm sure you would 
agree that part of the uniqueness of our Republic is that our military 
largely follows the policy lead of our diplomats and not vice-versa. 
So, again, it is with great concern that I raise the issue of the 
Administration's foreign policy overextending the military resources 
available to it. While our national security leaders and even the 
President himself have admitted that our military has been stretched 
too thin, we find ourselves on the verge of making yet another costly 
and long-term commitment abroad. Would you care to comment on this?
    ANSWER: It may be true that Defense Department's resources have 
been stretched thin with recent deployments throughout the world--not 
only in terms of large scale conflicts such as Kosovo, but also the 
growing number of battalions and forces that are critical to nurturing 
and monitoring continued peace. As the world's leader, however, we 
simply must have the necessary diplomatic, economic and military means 
to protect our national interests. Of course the decision to use 
military force is never taken lightly, nor is it the foreign policy 
tool that is used most frequently. But the credible use of force is an 
important ``force multiplier'' for diplomacy.
    In addition, I must point out that our national interests dictate 
that we push back against tyranny and human rights atrocities, and show 
that our values run deep enough to risk American lives. It is clear 
these values are shared by many other countries, countries that have 
shown time and time again that they are willing to join us in putting 
their military men and women in harm's way with us in order to promote 
democracy and freedom throughout the world.
    QUESTION: Where does the Administration draw the line and say ``we 
simply don't have the personnel and resource capacity to make this 
commitment''?
    ANSWER: As the world leader in the post cold-war environment, it is 
our responsibility to meet the various challenges that threaten the 
growth of democracy and respect for human rights worldwide. However, we 
also have to temper our actions against the economic, military and 
political reality that the U.S. simply cannot solve all of the world's 
problems.
    So, we need strong and committed allies. A significant portion of 
the foreign affairs and defense budgets are devoted to developing 
coalition forces that can maintain regional stability and, in turn, 
lessen the burden on U.S. forces worldwide. To date, our actions have 
culminated in the formation of several coalition forces working 
collectively to achieve common security objectives in the Persian Gulf, 
Central Europe, Africa, and South America. At home, it is a similar 
picture. If we are to be resolute in our commitment to promote the 
values of democracy and respect for human rights without unduly taxing 
our military forces, then Congress must be equally resolute in 
providing us with the necessary resources to continue our diplomatic 
efforts. Our ability to forestall the need for the use of force will 
depend on the strength of our continued foreign policy leadership.

                        U.S. Interests in Kosovo

    QUESTION: Central to the argument for committing U.S. troops to 
Bosnia was the belief that it would halt the spread of hostilities in 
the Balkans. Oddly enough, more than three years later, this same 
argument is being used to defend the possibility of committing U.S. 
troops to Kosovo. On what other national security criteria does the 
Administration base its support for involving United States and NATO 
forces in Kosovo?
    ANSWER:
    <bullet> Stem humanitarian crisis.
    <bullet> Belgrade's offensive against ethnic Albanian population in 
Kosovo created humanitarian crisis of staggering dimensions.
    <bullet> Over one million persons are displaced internally or 
outside Kosovo. Desperate need for food, shelter, and medical care 
within Kosovo.
    <bullet> Promote stability in Balkans and Southeastern Europe.
    <bullet> Belgrade's offensive has proven spillover theory.
    <bullet> Flooding neighbors with refugees delivers powerful 
economic and political blow. Serbian action could:
    <bullet> Re-ignite chaos in Albania;
    <bullet> Destabilize Macedonia;
    <bullet> Spark civil war in Macedonia;
    <bullet> Undermine Dayton implementation in Bosnia;
    <bullet> Set back political and economic reform in other 
neighboring states;
    <bullet> Create lawlessness and misery that breeds international 
crime and terrorism.
    <bullet> Defend the values for which NATO has stood since its 
foundation: democracy, human rights, rule of law.
    <bullet> Belgrade negotiated in bad faith during February and 
March, used Paris talks as screen to prepare and launch its own ``final 
solution'' to the Kosovo question.
    <bullet> Offensive threatens fabric of European security, touches 
NATO's reason for existence, demands forceful response by NATO.

                           New Role for NATO

    QUESTION: NATO has traditionally been a defensive military 
alliance--its purpose to defend member nations from aggressors. Do you 
see the alliance's intervention in the Balkins as within this 
traditional mission, or do you envision a new role for NATO in the 
post-Cold War world?
    ANSWER:
    <bullet> The crisis in Kosovo represents a fundamental challenge to 
the values for which NATO has stood since its foundation: democracy, 
human rights and the rule of law.
    <bullet> NATO's action in the Balkans supports the political aims 
of the international community: a peaceful, multi-ethnic and democratic 
Kosovo where all its people can live in security and enjoy universal 
human rights and freedoms on an equal basis.
    <bullet> The revised Strategic Concept does not change the purpose 
of the Alliance, nor does it introduce any new obligations or 
commitments.
    <bullet> President Truman's remarks at the inaugural of the North 
Atlantic Treaty regarding Allies' common interests, common heritage, 
and common traditions remain valid today. What has changed is the 
strategic context.
    <bullet> The revised concept underscores the centrality of 
collective defense, and provides a framework for meeting new challenges 
and risks. We must be as successful in meeting these challenges as we 
have been in meeting those of the last 50 years.

               MEPP: Unilateral Declaration of Statehood

    QUESTION: Would you be able to share with me the action the 
Administration would take if Yasser Arafat were to unilaterally declare 
a Palestinian state and what impact that would have on the ongoing 
peace process?
    <bullet> ANSWER: This Administration is opposed to a unilateral 
declaration of a Palestinian state, just as we are opposed to all 
unilateral actions.
    <bullet> The President, I and others have made that position clear 
publicly and directly to the Palestinian leadership, including Chairman 
Arafat, and we will continue to do so.
    <bullet> We have said publicly and privately to the Palestinians 
that a unilateral declaration of statehood would be a disaster and that 
the United States would not recognize the state.
    <bullet> The only way to resolve the issue of permanent status 
between Israelis and Palestinians is through negotiations.

                     Exchanges Obligations in 1999

    QUESTION: What is the actual amount of funds obligated for 
Educational Cultural Exchange Programs in FY 1999? Does that include 
carryover from prior years?
    ANSWER:
    <bullet> In FY 1999, the estimated obligations for Educational and 
Cultural Exchange programs is $214.4 million.
    <bullet> This amount includes $200.5 million from the FY 1999 
Educational and Cultural Exchange Programs Appropriation (ECE) and 
$13.9 million in balances. The $13.9 million includes funds carried 
forward from FY 1998, as well as prior year recoveries.

                     Exchanges Carryover in FY 2000

    QUESTION: Does your budget submission assume prior year carryover 
in the $210.3 million request for FY 2000?
    ANSWER:
    <bullet> Although the Educational and Cultural Exchange Programs 
(ECE) Appropriation is a ``no-year'' account, which allows for the 
carryover of balances and recoveries, the FY 2000 budget request for 
this account does not assume that balances will be available.
    <bullet> However, since we are now in the third quarter of FY 1999, 
the Educational and Cultural Affairs Bureau has identified 
approximately $1.0 million in recoveries that will likely be carried 
forward into FY 2000. While some programs now planned to be obligated 
late in FY 1999 may slip, we cannot provide a specific estimate of 
additional unobligated balances at this time. Any amount that may 
ultimately be carried forward will be significantly less than the 
amount carried into FY 1999, which resulted largely from USIA's efforts 
to review and deobligate prior year accounts in preparation for the 
conversion of its accounting system to the Department's financial 
management system.

      QUESTIONS SUBMITTED BY REPRESENTATIVE LUCILLE ROYBAL-ALLARD

                         Procurement Diversity

    QUESTION: What percentage of the Department's prime and 
subcontracting dollars go to socially disadvantaged businesses (SDBs)? 
Please provide figures for the past five years if available. In 
addition, please provide a regional and ethnic breakdown if possible.
    ANSWER: The Department's prime contract SDB goals achievements for 
the last five years, including both 8(a) and non-8(a) SDBs, are as 
follows:

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal year--
-----------------------------------------------------------------------------------------------------------------
              1994                       1995                1996                1997                1998
----------------------------------------------------------------------------------------------------------------
$107,219--17.3% of total          $140,745--22% of    $100,932--14.7% of  $116,197--22% of    $91,158--16.7% of
 domestic contract $$$.            total domestic      total domestic      total domestic      total domestic
                                   contract $$$.       contract $$$.       contract $$$.       contract $$$.
----------------------------------------------------------------------------------------------------------------

    The Department's SDB subcontracting achievements for the same time 
period are as follows:

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal year--
-----------------------------------------------------------------------------------------------------------------
              1994                       1995                1996                1997                1998
----------------------------------------------------------------------------------------------------------------
$3,308--6.8% of total domestic    $3,417--9% of       $3,990--4.7% of     $8,389--11% of      $8,265--7% of
 subcontract $$$.                  total domestic      total domestic      total domestic      total domestic
                                   subcontract $$$.    subcontract $$$.    subcontract $$$.    subcontract $$$.
----------------------------------------------------------------------------------------------------------------

    The Small Business Administration does not require us to maintain 
statistics on regional and ethnic breakdown of the Department's 
contract awards. I can tell you that our SDB awards represent each 
ethnic group that is presumed to be socially disadvantaged. For 
example, a five year/$50 million contract to provide telecommunications 
support to our Diplomatic Telecommunications Service is held by an 
African-American owned firm. For the past five years, a privately held, 
Native American, woman-owned firm headquartered in Montana has provided 
worldwide maintenance to our Foreign Buildings Office on the contract 
known as WASHMAC. This too is valued in the multimillions. Firms owned 
by Hispanic Americans, Asian Pacific Americans and Subcontinent Asian 
Americans also perform individual contracts valued at the multimillion-
dollar level. Such firms perform mission critical support services at 
the Department. The Department also has an aggressive women's business 
contracting program. On March 15 of this year, I signed a Memorandum of 
Understanding with SBA Administrator Aida Alvarez, committing the 
Department to award not less than 5% of our domestic contracts to 
women-owned small businesses.
    QUESTION: Describe the Department's outreach efforts to SDB's to 
increase their participation in procurement opportunities.
    ANSWER: Outreach is an integral part of the Department's Small and 
Disadvantaged Business Program. During FY-98, our Office of Small and 
Disadvantaged Business Utilization (OSDBU) participated in 60 
procurement conferences and trade fairs, including twelve that were 
Congressionally sponsored. The OSDBU staff spoke with more than 3600 
small business representatives during the course of those events. We 
considered it important to reach out beyond the Beltway to ensure that 
all geographic areas of the U.S. with industries groups representing 
the goods and services that we buy are included in our outreach 
efforts. So far this fiscal year, our OSDBU has participated in 22 
procurement conferences and trade fairs, in all regions of the U.S. The 
office also provides one-on-one, in-office counseling on an on-demand 
basis.
    The Department also uses the Internet as a tool to reach the small 
business community. Publications about doing business with the State 
Department and other useful information are posted and updated on the 
``acquisition home page'' on a regular basis.
    QUESTION: What kind of guidance, if any, is given to prime 
contractors to increase their use of SDBs? Describe how the Department 
monitors prime contractors with regard to SDBs.
    ANSWER: All State Department solicitations that require subcontract 
plans include the Department's fiscal year subcontracting goals as 
negotiated with the SBA. There are usually clauses that provide either 
price or evaluation incentives to encourage large prime contractors to 
subcontract with SDBs. Our small business office reviews all 
competitive solicitations to assure that such provisions are included. 
It reviews the subcontract plans of large prime competitors prior to 
contract award, to assure SDB subcontract participation. We collect 
reports on prime contractor's SDB goal achievements on a semiannual 
basis, and work with primes to improve performance if there are 
shortfalls.
    We collaborate with SDA once a year to provide training to 
incumbent large prime contractors about subcontract compliance. In 
cases where primes have met or exceeded their goals, we recognize their 
achievements in writing. A contractor's past subcontracting performance 
is also taken into account when evaluating proposals for impending 
contract awards.

                          Employment Diversity

    QUESTION: What kind of recruitment strategies is the Department 
implementing in order to diversify the Department's workforce?
    ANSWER: The Department currently employs several strategies for 
recruiting a diverse workforce, including college outreach, partnership 
with minority and professional organizations' and other established 
programs.
    The Department's college outreach initiative focuses on 53 targeted 
universities nationwide with high minority enrollment. Our recruitment 
objectives at these sites include: (a) increasing the number of 
minority students applying for and receiving internships, (b) 
increasing the number of minorities taking and passing the Foreign 
Service examination, and (c) continuing to educate university faculty 
and administrators about our student employment programs and career 
opportunities.
    We continue to develop cooperative and educational partnerships 
with professional organization such as the Hispanic Association of 
Colleges and Universities (HACU) and the National Association for Equal 
Opportunity in Higher Education (NAFEO). We participate as presenters 
in HACU's annual conference, and exhibit at NAFEO's annual conference 
as well as several regional career fairs sponsored by NAFEO. In 
addition, the Department hosts both a recruitment fair during Hispanic 
Heritage month and a career fair sponsored by the Asian Pacific 
American Foreign Affairs Agencies Recruitment Council.
    The Department also has several established recruitment programs. 
Diplomats in Residence, or DIRs, are senior Foreign Service Officers 
who are assigned to diverse college campuses with an emphasis on 
creating awareness of Foreign Service careers. The selection of schools 
for this program is directly linked to the attainment of the 
Department's outreach objectives, and focuses on regional diversity, 
academic curriculum, size and composition of student population, and 
level of institutional commitment to preparation of students for 
careers in international relations and public service. During the 1998-
1999 academic year, four out of nine DIR assignments are at Hispanic 
Serving Institutes and Historically Black Colleges and Universities; 
the University of Arizona, the University of California-Los Angeles, 
Howard University, and Spelman College.
    In addition, our Foreign Affairs Fellowship program is a 
scholarship program that prepares college students for foreign affairs 
careers. This scholarship is designed to increase diversity in the 
Foreign Service by encouraging both graduate and undergraduate students 
to pursue careers in international affairs.
    The Department plans to increase its emphasis on encouraging and 
preparing minority students to participate in the Foreign Service 
examination process by utilizing a staff of recruiters. All recruiters 
will target minority populations in their assigned geographic region 
and serve as another vehicle for marketing the career opportunities 
that exist within the Department of State.
    QUESTION: Describe the Department's efforts in complying with the 
Office of Personnel Management's (OPM) recommendation to open up 
vacancies to individuals outside your Department and the federal 
workforce. For example, has the Department allocated funds for 
recruitment literature, travel to conferences, or other recruitment 
strategies to diversify your workforce?
    ANSWER: The Department's efforts to open up vacancies to 
individuals outside the Department and the Federal workforce come at a 
unique time. For most of FY 1999, due to the impending merger of the 
Department of State with the Arms Control and Disarmament Agency and 
the U.S. Information Agency, the Department of State has sought to fill 
vacant positions initially from within the foreign affairs community 
when well-qualified candidates were available. For those occupations 
for which an adequate number of well-qualified candidates were not 
available, the Department has recruited government-wide and outside the 
federal workforce.
    All of the Department of State's civil service recruitment 
procedures comply with OPM's requirements to open vacancies to 
displaced federal employees, who are eligible for the Interagency 
Career Transition Assistance Program, and to eligible veterans. 
Vacancies are announced through the OPM Career America system, which 
includes an Internet website, a 24-hour accessible telephone 
information system, and a nationwide network of job information kiosks. 
Additional recruitment is done through professional associations and 
publications when appropriate.
    One of the Department of State's most recent recruitment efforts 
involved hosting an all-day job fair for information technology 
positions in both the civil service and foreign service. The job fair 
was publicized in newspapers from Philadelphia to Richmond, in national 
professional publications, and on the Internet. Over 1200 individuals 
from all over the East Coast attended the job fair. Immediate job 
offers were made for 22 civil service positions and 100 foreign service 
positions. An additional 500 applications were collected to be 
processed through OPM procedures for up to 100 additional civil service 
offers.
    Regarding allocated funds, the Department plans to spend 
approximately $1,500,000 in FY99 on initiatives to increase workforce 
diversity, including the foreign Affairs Fellowship program. Our 
outreach efforts will include the development of new recruitment 
literature and advertising campaigns targeted to minorities. To achieve 
our goals, recruiters will travel to campuses nationwide and attend 
conferences and career fair, sponsored by professional organizations, 
to inform diverse individuals about career opportunities with the 
Department.
    QUESTION: Describe the Department's efforts to comply with OPM's 
recommendation that agencies sponsor federal employment information 
``touch screens'' at university campuses. Provide a list of the site 
and that have been selected and note those that are located in colleges 
and universities with high minority populations. How does the 
Department select sites for touch screens?
    ANSWER: The Department of State only recently learned of OPM's 
recommendation that agencies sponsor ``touch screens'' at university 
campuses as a means of sharing federal employment information. Due to 
our current budgetary constraints, we feel inhibited in providing 
``touch screen'' accessibility at this time, due to related 
implementation and maintenance costs. However, we do plan to include 
``touch screen'' initiatives in both our budgetary and program plans 
for FY 2000. We anticipate that we will draw on our existing 
cooperative and educational partnerships with college campuses and 
existing professional organizations when we begin to select appropriate 
sites.
    The Department enlists other means of outreach on university 
campuses, including the Diplomats in Residence and the Foreign Affairs 
Fellowship programs. In addition the Department's web page at 
www.state.gov was recently praised by the Dow Jones Business Directory, 
being ranked Number 1 out of the fourteen cabinet-level agencies and 
the White House. Our web site is easily accessible to students as well 
as the general public and displays a wealth of information regarding 
career opportunities within the Department of State.
                                      Wednesday, February 24, 1999.

                            EMBASSY SECURITY

                               WITNESSES

BONNIE R. COHEN, UNDER SECRETARY FOR MANAGEMENT
DAVID CARPENTER, ASSISTANT SECRETARY FOR DIPLOMATIC SECURITY
PATSY L. THOMASSON, DEPUTY ASSISTANT SECRETARY, FOREIGN BUILDING 
    OPERATIONS

                  Opening Statement of Chairman Rogers

    Mr. Rogers. The committee will come to order.
    Today we open the hearing series of this subcommittee. We 
will conduct a total, of 23 hearings covering a broad range of 
our government. But we open today with the activities of the 
Department of State to ensure the security of U.S. embassies. 
With us today is Bonnie Cohen, Under Secretary for Management 
of the Department; and David Carpenter, Assistant Secretary for 
Diplomatic Security.
    On August 7 of last year, terrorist bombings at our 
embassies in Nairobi and Dar es Salaam resulted in the deaths 
of 220 people, including 12 Americans, and injuries to 
thousands more. It was a very, very sad day. This is our first 
opportunity to talk with the Under Secretary about those 
bombings and the steps being taken to respond to the new level 
of threat to our personnel overseas.
    In response to those incidents, we worked closely with the 
Department and the Office of Management and Budget to formulate 
a request of $1.4 billion as a 1999 supplemental to return 
those two embassies to operation and to enact security upgrades 
worldwide. The Department's fiscal year 2000 budget request 
that we take up today includes an additional $268 million to 
provide the continuation costs of efforts to upgrade security 
worldwide, and $36 million for site acquisition and design for 
priority relocation projects. The request also includes $3 
billion in advance appropriations for the fiscal years 2001 
through 2005 for construction of secure replacement embassies 
and consulates, with the bulk of those funds requested in years 
2004 and 2005.
    We will want to hear today about your plans and 
achievements using the 1999 supplemental funding, which you 
already have, and a full explanation of your request for the 
year 2000. The Accountability Review Board, led by Admiral 
Crowe, has produced a report that includes important 
recommendations for preventing and mitigating such terrorist 
attacks as we have seen in the past that may occur in the 
future. We will want to hear your reactions to his 
recommendations and descriptions of your plans to enact any 
recommended measures.
    Of course we are operating today in an open hearing format. 
If any questions or answers delve into matters that for 
security purposes are not appropriate to discuss in this open 
format, I know you will indicate, and we will respect that. We, 
of course, can vote to go into closed session at any time we 
may want, but we will take that up if the need arises.
    We are very pleased to have you with us today. It is good 
to see you again. Ms. Cohen, we will begin with your opening 
statement and then hear from Mr. Carpenter. Your written 
statements will be made a part of the record, and if you would 
like to summarize them verbally, that would be acceptable.

                    Welcome to New Committee Members

    Before we proceed, though, I want to welcome to the 
subcommittee some new members. This is the first chance we have 
had to publicly welcome Jose Serrano, a new member of the 
subcommittee and the new Ranking Member of the subcommittee, 
and, Jose, you will bring a lot of talent to this subcommittee 
which we sorely need, and we are fortunate to have him here 
because he is such a smart guy, and he is easygoing and nice to 
work with. So welcome to the subcommittee.
    Mr. Serrano. Thank you.
    Mr. Rogers. We are joined as well by another new member on 
my left, Lucille Roybal-Allard of California, whose father 
served as a member of the full committee here for many years. 
In fact, when I first came, I was on the end of the table at 
his subcommittee, Treasury-Postal, when he was Chairman, so we 
are delighted to have Lucille with us.
    Ms. Roybal-Allard. Thank you.
    Mr. Rogers. And the new Vice Chairman of the subcommittee 
is Tom Latham from Iowa, who has served on the subcommittee 
many years now with great esteem, and we are delighted to have 
Tom back and especially as Vice Chairman.
    Mr. Latham. Thank you.
    Mr. Rogers. We are joined by another new member on my far 
right, Zach Wamp from Tennessee, one of the brightest new 
Members of this Congress, and his talents and energy we welcome 
here. So, Zach, thanks for joining us.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Rogers. Now, Ms. Cohen, if you would like to proceed.

               Opening Statement of Under Secretary Cohen

    Ms. Cohen. Thank you, Mr. Chairman.
    I am also joined by Patsy Thomasson, who runs the Office of 
Foreign Buildings Operations for us, since some of your 
questions may focus on that. I will summarize the testimony, 
but not be as short as I might have been in the past or people 
might prefer, because this is such an important subject to you 
and to us.

                    overview of the state department

    In the last 7 years, the real dollar budget of the 
Department of State has declined 22 percent while we have 
opened 20 new posts overseas in response to the creation of new 
states in the former Soviet Union and Eastern and Central 
Europe. Simultaneously, our workload in some areas like the 
passport agency has increased 20 percent. This geographic 
expansion with no reduction in responsibilities has clearly 
stretched State resources to the breaking point, and the impact 
of this severe erosion is felt not just in the State 
Department.
    State, as you know better than I, is the overseas platform 
on which America conducts its trade policy, encourages 
agricultural exports and combats international terrorism and 
drugs, among many activities. The last 2 years, with your help 
and leadership, we have begun to reverse this erosion.

                         emergency supplemental

    In particular, I would like to thank you for the bipartisan 
speedy support of our $1.4 billion emergency supplemental. In 
the aftermath of the horrible terrorist bombings of our 
embassies in Nairobi and Dar es Salaam, your help made it 
possible to respond quickly to provide medical and other 
assistance to the bombing victims, to begin restoration of our 
operations, and to implement critical security measures 
worldwide. Dave Carpenter, the Assistant Secretary for 
Diplomatic Security, and I have briefed your staffs in detail 
on the implementation.
    I am here today to discuss primarily the Department's need 
for sustained funding for the security of our missions and 
personnel over time. But first, let me give some operational 
context to our discussion.

                 services rendered to american citizens

    When we talk about the operations of State, we are talking 
about helping the more than 6 million Americans who are issued 
passports annually in the U.S., and the almost quarter of a 
million Americans who need passports while overseas, often to 
replace the ones they have lost. Our embassies assist with over 
2,000 child custody cases, over 6,000 missing person searches, 
more than 400 emergency medical evacuations a year, and more 
than 15,000 adoptions a year. They also handle the deaths of 
thousands of Americans abroad each year, about 6,000 cases in 
1997, helping families and other loved ones as they deal with 
foreign regulations. Last year, there were about 5,700 prison 
visits by consular officers to arrested Americans abroad.
    Our missions issue visas to the almost 6 million foreigners 
who visit the U.S. as tourists each year, important to the U.S. 
balance of trade, and screen each visa applicant to prevent 
illegal immigration, protecting us against terrorism and 
felons. Over 1.5 million nonimmigrant visas were refused last 
year.

                      support of american business

    We support American business overseas, reducing trade 
barriers, assuring a level playing field and increasing 
opportunities for U.S. businesses in foreign markets. In 1970, 
trade with other countries contributed only 11 percent to the 
GDP. In 1997, it accounted for 25 percent. Through law 
enforcement training, technical assistance, extradition 
treaties, mutual legal assistance agreements, and information 
exchanges, we combat firearms trafficking, alien smuggling, 
money laundering and much more. We are also fighting illegal 
drugs.

                     support to other u.s. agencies

    As you can see, today more than ever before, U.S. diplomacy 
is a direct reflection of our domestic priorities. Today, 
agencies from EPA to Defense to Transportation to HHS to the 
Centers for Disease Control are resident in the embassies. The 
Department of State provides the platform for about 30 U.S. 
agencies. In fact, we are only 30 percent of the American 
personnel overseas in our embassies. Our obligation is to 
improve security benefits for not just the State Department 
employees, but all employees of the U.S. Government stationed 
abroad, as well as American citizens and foreign nationals 
seeking services at our embassies, as well as people simply in 
the neighborhood. It is important to remember the horrible 
bombings in Nairobi, where 5,000 Kenyans that were simply on 
the street were wounded.

                       current threat environment

    I would like to turn to Assistant Secretary for Diplomatic 
Security, Dave Carpenter, who will speak to you about the 
current threat environment, and I think it is very important to 
put our requests and our needs in the context of the challenges 
we face.
    Dave.
    Mr. Carpenter. Thank you, Under Secretary Cohen.
    As CIA Director George Tenet has briefed Congress, the 
current terrorist threat to U.S. diplomatic facilities and 
personnel overseas is global, lethal, multidimensional and 
growing. The threat is generated by indigenous and 
transnational anti-American terrorist groups and by state 
sponsors of terrorism. The last significant public 
manifestation of this threat was the August 1998 suicide 
attacks by Islamic extremists against the U.S. Embassies in 
Nairobi and Dar es Salaam that killed 12 Americans. The daily 
by-products of this threat are the countless walk-ins, threat 
letters, anonymous phone calls, intelligence reports and 
surveillance incidents directed at U.S. diplomatic facilities.
    For example, from August 1998 to the end of January of this 
year, U.S. diplomatic facilities received over 650 threats 
related to the Usama bin-Ladin organization and the East 
African bombings, and these threats were received on every 
continent. We emphasize that this figure does not include 
threats from indigenous terrorist groups, state sponsors of 
terrorism or threats generated from U.S. foreign policy or 
military actions. To understand the level and scope of our 
current security threat that confronts U.S. diplomatic 
facilities and personnel overseas, it is necessary to examine 
each of the four major components of the threat.

                threat from indigenous terrorist groups

    First, the threat from indigenous terrorist groups. 
Indigenous or domestic terrorist groups are those that operate 
only within their country of origin. Such groups have a low-
profile projection in that their operational reach is 
restricted to a single country. They have been a constant 
threat to our facilities since the 1970s when many of the 
Marxist terrorist groups surfaced. In general, these groups use 
tactics such as firing antitank rockets, throwing Molotov 
cocktails, planting car bombs, or close-order assassinations. 
Specific, credible threats from these indigenous terrorist 
groups are rare. From August 1998 to the end of January, we 
recorded less than two dozen specific threats from these 
groups. However, the absence of a large number of threats from 
the indigenous groups should not be misinterpreted as a decline 
in this threat.
    For example, for the period 1987 to 1997, there were 232 
indigenous terrorist acts on U.S. diplomatic facilities. Very 
few of these attacks were preceded by threats or intelligence 
reports suggesting a threat. The threat from these groups is a 
general one and is based on anti-American rhetoric and past 
attacks on U.S. targets.
    It should also be emphasized that the indigenous terrorist 
groups have the tendency to carry out anti-American attacks in 
response to U.S. foreign policy decisions or military actions. 
For example, during the Operation Desert Storm in 1991, U.S. 
targets were frequently attacked by indigenous terrorist groups 
in Europe and Latin America to protest U.S. air operations over 
Iraq.

               threat from transnational terrorist groups

    Component number 2, the threat from transnational terrorist 
groups. A transnational terrorist group is one that has or can 
operate in multiple countries. This type of group poses a more 
complicated threat since its threat projection is much wider 
than the indigenous terrorist groups and consequently requires 
a wider dispersal of security resources. Historically, these 
groups are few in number, fewer in number than indigenous 
groups. In the 1980s, there were three anti-American 
transnational groups. Today there are at least three: Egyptian 
Islamic elements, Lebanese Hezbollah, and the Usama bin-Ladin 
organization. These groups generally employ indiscriminate, 
mass-casualty tactics such as vehicle-borne improvised 
explosive devices. While all three of these groups are 
doctrinally anti-American, only the Usama bin-Ladin 
organization has carried out an attack on a U.S. target within 
the past 5 years.
    The Usama bin-Ladin organization has been the primary 
generator of threat information against U.S. diplomatic 
facilities overseas. As I mentioned, over 650 threats have been 
linked to this organization or to the East African bombings 
since August of 1998. Our analysts believe that 33 percent of 
these threats are viable threats; that is, they are either 
logical, consistent with previous reporting on Usama bin-Ladin 
tendencies, or based on credible intelligence reports or walk-
ins.
    Currently, the Usama bin-Ladin organization appears to be 
the most dangerous terrorist threat to U.S. diplomatic 
facilities and personnel overseas. This organization reportedly 
has a presence in over 25 countries, and its tentacles may 
extend to many more. It is dangerous because it has a 
potentially global reach. It appears well financed. It has the 
protection of one, and possibly two, states. It has a dedicated 
cadre. It engages in suicide attacks, and it has an avowedly 
anti-American ideology, and it appears to have been plugged 
into or provided support to over half a dozen indigenous 
terrorist groups around the world.
    As Director Tenet has testified, there is not the slightest 
doubt that Usama bin-Ladin, his worldwide allies and his 
sympathizers are planning further attacks against us. Despite 
progress against his networks, Usama bin-Ladin's organization 
has contacts virtually worldwide, including the United States, 
and has stated unequivocally that all Americans are targets.

                 threat from state sponsored terrorism

    The third component is the threat from state-sponsored 
terrorism. The U.S. Government currently lists seven States as 
sponsors of terrorism. Some of these states currently cause us 
more concern than others. The threat to our diplomatic 
interests from these state sponsors has not been realized, but 
given their relationship with the United States, we cannot 
dismiss this threat.

               threats triggered by u.s. actions overseas

    The last component, threats triggered by U.S. actions 
overseas. There are a number of U.S. foreign policy or military 
actions that might engender reactions which would increase 
security concerns for our diplomatic facilities and personnel. 
This could be, for example, developments in Kosovo, the 
bombings of facilities in the Sudan and Afghanistan, or our 
responses to Iraqi behavior. In some cases, such actions 
trigger an outburst of anti-American activity that ranges from 
telephonic threats to demonstrations to bombings or 
assassinations.
    For example, anti-American fallout occurred during our 
military buildup in the Persian Gulf in February of last year, 
and again, from our joint action with Britain against Iraq in 
December of 1998. From February 1st to March 1st last year, 
during a period of heightened tensions with Iraq, over 130 
anti-American threats and incidents were recorded worldwide. In 
early December, after the U.S. and U.K. air strikes in Iraq, we 
recorded, during a 10-day period, 18 threats and 15 anti-U.S. 
incidents directed at U.S. diplomatic facilities in 19 
countries. Unfortunately, U.S. diplomatic facilities serve as a 
very visible target for anti-American militants or hostile 
governments who may want to send a more violent message to the 
U.S. Government.
    In conclusion, U.S. diplomatic facilities and personnel 
overseas have been, are, and will continue to be threatened by 
anti-American terrorist groups, which see our presence as 
prominent overseas symbols of the United States Government. 
They are perceived by terrorists as more accessible than U.S. 
military facilities. The emergence of the Usama bin-Ladin 
organization as a transnational terrorist group, willing to 
engage in suicide attacks against U.S. diplomatic facilities 
has dramatically increased the security threat, a threat that 
unfortunately has all the attributes of a long-term security 
problem.
    Ms. Cohen. I think that gives you a picture of the 
challenges that our people are facing everyday in this 
environment. Dave has 25 years of experience and we are working 
now very closely with the Intelligence Community. No one sees 
this letting up in the near term.

                      response to security threat

    Let me now look at the steps the Department is taking to 
develop a comprehensive and long-term strategy to deal with 
this challenging environment, and in particular, with the 
implementation of the important emergency supplemental 
appropriation.
    No amount of effort on our part can guarantee the safety of 
our people and our buildings against a determined opponent. 
With these security measures, however, our plan is to 
discourage, deter, and diminish those actions.
    To effectively implement the measures funded in the 
supplemental, the Department of State has consulted with GSA, 
the IG, the Army Corps of Engineers, and multinational 
corporations to benefit from their expertise, and to learn from 
their approaches to large-scale, cost-effective construction. 
We have also met with those who implemented the earlier Inman 
program to learn from their successes and, quite frankly, from 
their failures. We have detailed month-by-month plans for 
obligating funds and implementing programs, and we are 
providing careful oversight through weekly meetings and 
quarterly offsites. In Nairobi and Dar es Salaam, we are moving 
ahead with the construction of our new chanceries. Dar es 
Salaam is in a new temporary facility, and in Nairobi they will 
be in in the summer.

                         Model Embassy Project

    We also have a model embassy project. You will remember 
that the supplemental appropriation gives us funds for new 
embassies in Nairobi and Dar es Salaam. We are taking that 
opportunity to step back and think about the United States 
representation in East Africa, and not simply rebuild the 
embassies that we had there before. We expect to have 
recommendations from that effort in late May.

                   Results of Emergency Supplemental

    With your support for the emergency supplemental, the 
Department of State has sent multiagency emergency security 
assessment teams to 32 posts to assess in detail their security 
needs; deployed 120 security special agents overseas on 
temporary duty; increased local guards by over 1,000; worked 
with local governments to close or change traffic patterns in 
many cities; enhanced physical security with bollards, delta 
barriers, video cameras and other measures; and acquired or 
placed under contract land to increase setback at five existing 
posts.
    The seven interagency teams that visited the 32 posts have 
recommended that 19 of those require moving. The key reason for 
this recommendation is the lack of setback. We continue to 
dispatch DS security augmentation teams and mobile training 
teams around the globe to provide training to our personnel.

                        Host Government Support

    Host governments have been very responsive to our requests 
for the assignment of additional security personnel to protect 
our buildings and streets. They have allowed us to close 
streets, install jersey barriers and employ embassy vehicles at 
key checkpoints. Overall, host government support has been 
excellent. However, many countries are limited in what they can 
provide. The supplemental has therefore been invaluable in 
addressing our immediate short-term needs.

                     GLOBAL SURVEILLANCE DETECTION

    We are implementing a global surveillance detection 
program. This initiative is ongoing, and to date 90 posts now 
have up and running surveillance programs. Fifty-three new bomb 
detection units have been shipped to posts, and we will be 
shipping 200 more. Three hundred new metal detectors have been 
shipped to posts, with 300 more on the way. We have deployed 16 
back-scatter X-ray units, with 82 more ordered.
    Additional technical and physical security upgrades are 
ongoing, such as blast walls and closed circuit event recording 
cameras with VCR-controlled security radios. To date, over 200 
additional time-lapse VCRs have been deployed.

                           SECURITY PERSONNEL

    The key to the success of this program, however, is trained 
and experienced professionals. We are in the process of hiring 
200 new DS agents, as well as 17 security engineers, 34 
technicians and 20 couriers.
    DS has established 140 new special agent positions 
overseas, and the Department's 2000 request includes $41 
million to provide ongoing salary, training and support costs 
for these direct hire, U.S. Government employees.

                       CRISIS MANAGEMENT TRAINING

    We are expanding our crisis management training, both 
domestically and overseas. One hundred crisis management 
training exercises will take place at posts this year, and at 
100 more additional posts next year. This was a very strong 
recommendation from Admiral Crowe's report.

                           RESOURCE REQUESTS

    In our fiscal year 2000 budget, we are requesting a total 
of $268 million to fund the recurring costs of these programs 
begun under the emergency supplemental. Our goal must be to 
improve security over the long term, not just to provide a 
temporary fix. The 1999 supplemental also provides $150 million 
in funding for post relocation, site acquisition design and 
construction for some of our highest risk posts. With these 
funds we are working on several posts. We have acquired land at 
one and will be under construction, and we have made 
substantial progress towards acquiring land at others.
    Unfortunately, the needs go far beyond these few highly 
vulnerable posts. Today over 80 percent of our posts do not 
have adequate setback, and many are in need of security 
improvements beyond what these fixes can do. The Accountability 
Review Board investigation chaired by Admiral Crowe concluded 
that the Department, ``must undertake a comprehensive and long-
term strategy for protecting American officials overseas, 
including sustained funding for enhanced security measures for 
long-term costs for increased personnel, and for a capital 
building program based on an assessment of requirements to meet 
the new range of global terrorist threats.'' The Secretary of 
State agrees with virtually all of the Board's recommendations, 
and we are taking a careful look at how they will be 
implemented.
    Our response to Admiral Crowe will be given in the next 7 
weeks, but we worked very closely with Admiral Crowe as the 
report was developed and have begun the immediate 
implementation of many of the recommendations.
    To fund the construction costs for these projects and 
pursue the long-term sustained security-driven capital building 
program recommended by the ARB, the Department is seeking an 
appropriation totaling $3 billion between now and 2005.
    If we cannot protect our people, we will be unable to 
attract and retain them. Without people, we cannot represent 
America and our Nation's interests around the world, and 
without your help, we cannot achieve our security objectives. 
With your assistance, we will develop the type of budget for 
the future that can sustain a security program that we need and 
provide assurance to our employees and to all Americans abroad, 
and to everyone who uses our services.
    Thank you very much.
    Mr. Rogers. Well, thank you, Secretary, and Mr. Carpenter, 
thank you for your testimony as well.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         HISTORICAL PERSPECTIVE

    Mr. Rogers. I would like to focus at first in a very broad 
stroke, in a broad sense. Those who ignore history are destined 
to repeat it, and I am sitting here thinking that in the 17th 
century and the 18th century when the British were here trying 
to occupy a colony, their colonies, the method of warfare in 
those days was to stand your troops up in a solid square in the 
open and take the first volley from whomever and shoot back, 
and the last person standing won. The Americans, hid in trees 
and behind fences and bushes and individually took their 
potshots and changed the nature of warfare.
    I am wondering if today we have not learned that lesson. We 
may need to learn that lesson again. The world has so changed 
in the last few years. We are standing up in 180 countries, 
these embassies, and they open, practically all of them, within 
a few feet of the street, exposed with the American flag and 
the American seal like a bull's-eye painted on the front of the 
building. There is no way physically that we can protect those 
embassies against a determined attack, short of building a 
fortress behind which our people cower, and the very reason for 
their being there is lost in that case, to be available and 
open to the local country.

                            EMBASSY DESIGNS

    In some instances, in establishing new consulates here and 
there, we have put a small cadre of people in an office in a 
given city in that country, and an office building mixed up 
with lots of other people where there is some anonymity, and it 
is not such a bold target for a bold attack. I am wondering if 
there is not a lesson to be learned from both our history and 
from your recent experience in putting some consulates in a 
not-so-obvious location in a given city. Have you got any 
thoughts about those questions?
    Ms. Cohen. Yes, thank you. I am just back 2 weeks ago from 
Amman where we have an Inman embassy, that is, an embassy with 
a large setback; as well as Damascus where we are on the 
street, and we were overrun in December by mobs; Beirut, where 
we operate in a very fortified facility as a result of bombings 
some years ago; and also Nairobi, where we were bombed. And it 
is clear that at the place where our employees are most 
comfortable and most able to do their work, and people from 
that country feel very comfortable in coming to the embassy, is 
the embassy in Jordan. I think when it was originally built, 
people thought it was too far outside the city, but the city 
has moved towards it, and people have developed ways to get 
there, and it functions very effectively.
    But I think we don't disagree with you that as we go 
forward, we have to make individual determinations of the kind 
of facility and representation we want in individual countries 
that takes into account the threat level in that country and 
America's interests.
    Mr. Rogers. Well, we just approved, as a matter of 
reprogramming, the subcommittee just approved a new office in 
France, in one of the cities of France, we won't name it at 
this point, and the new consulate in that city is not a 
separate building standing alone with the American seal like a 
bull's-eye on it for any assassin. That office is a small group 
of Americans, working in a very large high-rise office 
building, among hundreds of other agencies and private 
enterprise. Hardly anyone, frankly, knows where it is. It is 
not being kept secret, it is just that it is not advertised, 
and yet the personnel there can go about doing our business the 
same as if they were on a street corner in the open somewhere. 
Would that not be a good model for us to follow in opening 
other establishments, both consulates and even embassies, in 
many countries?
    Ms. Cohen. The Secretary actually was in France for the 
opening of that facility and is very enthusiastic about its 
effectiveness. It is right in a major business center, and 
Ambassador Rohatyn, who had been in France for a year, was very 
persuasive on how much an office like that could accomplish. 
Again, thanks to the funding of the emergency supplemental, we 
have a task force, a largely outside task force that is going 
to be looking at American presence overseas and how best to 
configure it, and Ambassador Rohatyn will be on that panel, as 
will Admiral Crowe. So, I anticipate that they will be 
incorporating the ideas that you are talking about.
    Mr. Rogers. Well, none of those can be done without this 
subcommittee's approval, and the Secretary and the Department 
are hereby alerted, as far as I am concerned. The other Members 
may have different ideas, but I want to see the plans for the 
new consulates and embassies in a place where they are not 
quite as obvious and where we need not spend $10 zillion 
dollars building a fortification behind which we cower and lose 
the purpose of our being there.

                       REGIONALIZATION OF EMBASSY

    Second, it is time we did regionalization. It is time. I 
know within the Department there are people who think it is the 
greatest thing since apple butter to regionalize, but yet they 
are kept from saying so publicly because no administration 
wants to say to country X, we don't think you are important 
enough for us to have an embassy there, and yet they can't 
afford its protection. I know Admiral Crowe believes this as 
well, and I know others within the Department have the same 
feeling, and it is time we did that. It is time we acted. The 
time is right.
    We can regionalize. We can have a regional embassy for many 
countries, and occupy in each of the countries in that region a 
small operation which we service from the larger regionalized 
offices. We can save money, we can enhance security, we can 
probably be more effective in each of the countries, because 
then we will force the Department to utilize 19th century 
technology. I mean, I am not rushing you, because, you know, 
you are happy in the 17th century, but there are such things as 
telephones now. You don't have to have these written courier 
bags. There is even a thing called the Internet, and there is 
two-way television that we can communicate without being there. 
So it is time that the Department came into the 18th century 
and regionalized in many parts of the world.
    We are going to insist upon that. If you want to use us as 
the whipping people, great. I would love that title. But we are 
going to follow Admiral Crowe's recommendation, Admiral Inman's 
recommendation a decade ago, and any other number of experts 
who have looked at the operation of the State Department and 
say, regionalize; don't build fortifications and lose the 
purpose of being there, and enhance security, number one.
    So I will be talking to you about those things as we go 
along.
    Ms. Cohen. Thank you.
    I think Assistant Secretary Carpenter wants to say 
something.
    Mr. Carpenter. I just wanted to make a couple of comments. 
One, in your opening statement, you said that things have 
changed. I couldn't agree with you more. I think it is 
imperative that the committee understand that the security 
enhancements that we have undertaken have not been cookie-
cutter, that we are looking at employing and have employed 
different philosophies, techniques, in different locations. We 
do, in fact, have facilities, consulates primarily, that are in 
buildings such as you described. It is our collective wisdom 
that it probably is safer than identifying them, putting them 
behind some wall in an out-of-town location.
    The regionalization issue is clearly something that we need 
to look at and that we are looking at. I only throw one thing 
in that goes on the heels of your statement that things have 
changed. One of the things that I feel has changed dramatically 
is the American presence, other than that of the State 
Department, overseas: businessmen, travelers, et cetera, et 
cetera. The fact that has changed, and I presume is going to be 
on the increase, complicates in some ways regionalization in 
some locations.
    Other locations speak very, very well to regionalization. 
From a security standpoint, from an operational standpoint and 
from strictly a fiscal standpoint, it makes a lot of sense. In 
other places, and I see those other places in my mind, probably 
the majority of places, it is not as easily accomplished given 
the American presence in that particular country. But we are 
examining that, we are not trying to paint this with the same 
brush. Every time we look at an embassy to upgrade its 
security, make decisions about where to move, how to move, and 
the necessity of that embassy being in that country, quite 
frankly, we apply our own standards.
    Mr. Rogers. Well, just for the record, we have discussed 
certain parts of the world where most everyone agrees 
regionalization is possible, I think necessary, and most 
importantly, it would enhance security.
    Now, when you apply for funds to build a facility in any of 
the countries in the regions we have discussed, my first 
question is, is this part of a regional operation, and then if 
it is not, we have other urgencies elsewhere.
    Mr. Carpenter. I understand.
    Mr. Rogers. So just let's talk. Can we talk?

                              Crowe Report

    I am going to yield the floor here in just a second to my 
Ranking friend, but let me just say this in conclusion of this 
round. Admiral Crowe recommends a large commitment, $1.4 
billion a year for the next 10 years as a minimum of monies for 
construction of facilities and other security upgrades. The 
fiscal 1999 supplemental that we passed included $180 million 
for site acquisition, design and construction at priority 
posts, based on security.

                   Worldwide Security Upgrade Funding

    Your request this year implies that you would rely on just 
that funding alone to address priority security construction 
needs through the year 2000. And with that money you can only 
relocate four vulnerable posts in the 1999-2000 year period. 
Your fiscal request for 2000 does not include a single penny 
for additional security construction, which absolutely 
flabbergasts me. You request in advance $3 billion for the year 
2001 through 2005, most of it in the years 4 and 5, so you are 
doing a minimum until the year 2003. I would look forward to 
your revisiting your request, because this is--I am 
flabbergasted. Surely you requested more of OMB than you got 
from OMB; is that right?
    Ms. Cohen. Well, let me say this, because some of this has, 
I think, been talked about in the papers. Secretary Albright 
feels as strongly about her people overseas as the military 
feels about their people overseas. She has been very vigorous 
in pursuing a long-term funding plan and pursuing year-by-year 
the resources that we feel the Department needs.
    Mr. Rogers. Well, all I want to know is how much did you 
ask OMB for?
    Ms. Cohen. It is my understanding that yesterday the 
President, with the Congressional leadership, indicated that he 
looked forward to revisiting our needs with you and them over 
this spring.
    Mr. Rogers. I understand that, but how much did you ask OMB 
for?
    Ms. Cohen. $1.4 billion.
    Mr. Rogers. For fiscal year 2000.
    Ms. Cohen. Yes.
    Mr. Rogers. And that is pursuant to Admiral Crowe's 
recommendation?
    Ms. Cohen. No. That was before we knew his recommendation.
    Mr. Rogers. And he agrees with you?
    Ms. Cohen. Yes. He didn't know our request either.
    Mr. Rogers. You all came to the same conclusion.
    Ms. Cohen. Yes.
    Mr. Rogers. Two great minds.
    Ms. Cohen. At least one great mind.
    Mr. Rogers. But OMB turned you down, obviously, and the 
request filtered through OMB that we got for 2000 is zip for 
embassy security, and I am absolutely astounded that after the 
President made the big to-do about this, of course, as we all 
did after the bombings, that we were going to fix this, we were 
going to pour money into it, when it comes time for the rubber 
to meet the road right here, they don't ask for a penny for 
embassy security enhancement for the fiscal year 2000.
    How can you justify that?
    Ms. Cohen. I think that we all look forward to revisiting 
it. There are competing priorities in the administration. When 
our budget came forward, we just received the emergency 
supplemental in October, and I think there was some question in 
people's minds as to how efficiently and effectively the State 
Department would spend it. It turns out that we have really 
pushed forward. People didn't have Admiral Crowe's report, and 
I think that, in combination with competing priorities, put us 
at this point.
    Mr. Rogers. Well, I just have to tell you, we can't 
entertain that kind of a budget. That is just unacceptable. It 
is outrageous, it is disappointing. So we are looking for you 
to change that budget request in terms of the dollars, and we 
are going to insist upon regionalization. Let's face it. It is 
going to happen, it needs to happen. You know that, Mr. 
Carpenter, and let's just go ahead and do it.
    So revise your request, and we will give it due 
consideration.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.

                         Dealing with Terrorism

    Ms. Cohen and Mr. Carpenter, what I want to do is make a 
couple of comments, throw in some concerns or questions, and 
have you in a little package answer them rather than a back and 
forth over each item.
    Let me first say, Mr. Chairman, that I was pleasantly 
shocked, pleasantly, that the first statement you made in this 
subcommittee hearing is one that I have been thinking about for 
quite a while now, and that is the whole issue of terrorism 
perhaps being a new form of warfare, and we have to get used to 
that and deal with it; not get used to it, but deal with it.
    It seems to me, and this is something that I would like to 
know from you folks, it seems to me that for a while now we 
have spent a lot of time in this country being outraged at 
terrorism rather than saying that is what it is, and it might 
be people who have a gripe with us, who have decided that they 
are not going to meet us in a conventional war. In the same way 
we don't want to meet them in a terrorist act, they don't want 
to meet us in a conventional war. And we are going to have to 
just develop strategies to deal with that, rather than do what 
we do in my home State, which is every other week there is a 
newspaper headline that never gets into the issue as to why 
this might have happened and what we can do to prevent it, be 
it negotiating or changing some policies, or confronting it, 
but rather, the outrage that this act could have taken place.
    Well, I am sure there are people overseas who are outraged 
when we in the past have involved ourselves in our form of 
warfare, and I would like to know if the Department has reached 
that point where we are thinking as to what we are dealing 
with, rather than being outraged at what we are dealing with.

                    Implications of Regionalization

    Another thing is this whole thing about regions. Does that 
mean eventually that some countries will not be, if you will, 
inhabited by our diplomatic people; and if so, what message are 
we sending? I suspect that there will be decisions made not 
only with the kinds of things you have in mind, but with some 
political pressures from other places, and why do I get the 
feeling that the smaller country will have the non-American 
presence and the larger will. I can't picture that France will 
never have an American Embassy; I can't picture that England 
will never have an American Embassy, but I can picture some 
countries in Africa not having an American Embassy, and what 
message are we sending?

                      Listing of Terrorist Nations

    One last point. I have always been fascinated by how we 
come up with our list of terrorist nations, and how you get on 
that list and how you get off that list. Are there any present 
countries that appear on that list with an asterisk that might 
say, they are still on this list, but they are not really a 
threat to us anymore; and if that is the case, why are they 
still on the list?
    Lastly, Mr. Chairman, I join you in trying to do what is 
right, but I am reminded of the fact that we ourselves--and it 
serves no purpose--it doesn't give me any joy to say I didn't 
vote for it, but we ourselves set up some priorities and some 
walls that have come back to haunt us every so often. We have 
to try to figure out how to do what we have to do here within 
those walls that exist. And I wonder if the administration 
knows that and knows that somehow we will respond to this 
issue, and they are going to try to get from us whatever they 
can on the issues that we may not respond to, and that is the 
strategy. I am sorry I presented it to you that way, but I 
think this way you can use your time.
    Ms. Cohen. Thank you.
    They are very important and interrelated questions, and I 
will now answer them. But let me say first that the Secretary, 
after the bombing, declared that we were involved in a long-
term war on terrorism. I think that when Mr. Tenet, the head of 
the CIA, came up here in public testimony, he indicated, I 
think, that there is recognition that this problem is here to 
stay with us for years, and that does mean to us that we are 
going to have to protect our people.

                     Need for An American Presence

    When I went through the list of activities that occurred at 
American embassies, I think it is very revealing to people that 
it is such a wide range of activities, and it involves 
everything we are engaged in overseas. Some are the obvious 
ones: passports, helping Americans overseas, business things, 
but others are our interests like antiterrorism and protecting 
the United States from drugs coming in.
    So we need to be there, and our people have often been 
called the tip of the javelin, and if we are going to be there 
and have our people there, we have to have them secure.
    So that is a funding plea, but we do think that terrorism 
is here to stay, and I think as we have talked about 
regionalization in the Department, and as the Chairman and I 
have talked about it, I don't think that we are talking about--
although I am sure I could be wrong and he will tell me--but 
we, at least, are thinking not of withdrawing from countries, 
but of making careful decisions about the size of our presence 
in different countries, and seeing if by using modern 
communications we can reduce our exposure someplace but still 
be there. We have to be there for the business people, but we 
also have to be there for the Americans that want to visit 
there. So there isn't any intent, and the Secretary has no 
intent of pulling back from a country.
    I will let Dave talk to the other terrorism issues.

                  Defensive Weapons Against Terrorism

    Mr. Carpenter. Congressman, you used the word ``outrage,'' 
and let me assure you no one in this room was more outraged 
than I after these bombings, and no one has been more focused 
on trying to ensure that they do not happen again.
    But one of the realities of the State Department's security 
capabilities is that we are defense. Our offensive capabilities 
are very, very limited. We have the ability to provide that 
wall, those security enhancements through budgetary 
supplementals and things like that that give us in the moment 
reasonable security, but within the State Department, we do not 
have real good offensive weapons to use against terrorism.
    My diplomatic security officers are very well equipped to 
deal with walk-ins to our embassies, analyzing with the 
intelligence resources of this government the threats against 
our facilities. However, our abilities to go out and resolve 
those threats are somewhat limited. In most instances, we have 
to rely on host government responses, investigative responses. 
In some instances, that is very good. Some countries are very, 
very well equipped to deal with this. In the majority of 
instances, they are not as well equipped. And that is the 
challenge. That is what has made this a very difficult position 
to be in for Department of State and the U.S. Government in 
that our capabilities to respond in an offensive way are 
extremely, extremely limited.

                 Determining List of Terrorist Nations

    Mr. Serrano. How do you get on the list and off the list?
    Mr. Carpenter. Well, getting on certainly may be easier 
than getting off. The list is a combined list generated by the 
entire Intelligence Community. The FBI, CIA, and the State 
Department actively participate in that. This list is not in 
any way classified. When you questioned there are any asterisks 
by any countries, well, there certainly are, Iraq and Iran. 
They have been on the list for quite some time; others on that 
list are North Korea, the Sudan, Cuba, and Syria, as well as 
Libya. I don't know that there is anyone here that could or 
would argue that those countries are sponsors of state 
terrorism. The list is evaluated or reevaluated every year, but 
those countries still remain, and most have been there for 
quite some time.
    Ms. Cohen. But we would be glad to offer a briefing to you 
and your staff on how that list is put together.
    Mr. Serrano. So the only two asterisks are Iraq and Iran?
    Mr. Carpenter. I mentioned those as asterisks because I put 
asterisks on them. They are the ones that I clearly see as 
those who the majority of the reports, the majority of the 
elements seem to have some ties to.
    Mr. Serrano. Thank you.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman.

                Security Funding and Budget Constraints

    Welcome to both of you here. I was--I don't know whether to 
say fascinated or appalled by the answer about no funding in 
the request for security. You said, Secretary Cohen, that OMB 
said they had competing priorities. I would like to know what 
the competing priorities were that won out over the security 
and safety of American lives overseas.
    Ms. Cohen. We submit our budget request and, like all of 
the agencies, push as hard as we can for that request, and then 
the decisions are made among the competing requests, and we 
really aren't part of that.
    While the number for next year is not a good number, there 
is a $3 billion request of forward funding. This is, I assume, 
for people--and we welcome this opportunity. We welcome the 
opportunity to really talk to you about this, and we welcome 
Admiral Crowe speaking out in the paper, even though it is the 
sides of our heads that are sometimes getting slammed, because 
we think the more people know and understand this issue, the 
more receptivity there will be for the kinds of resources we 
need, and I think that there has been a lot more information 
available in the last few months perhaps than when the budget 
was originally put to bed.
    Mr. Latham. You don't know what the priorities were that 
the administration decided were more important than the 
security of American lives overseas?
    Ms. Cohen. Well, I know the budget priorities, you know, of 
the administration's budget.

                             Berlin Embassy

    Mr. Latham. Okay. Last year we had the opportunity with the 
Chairman's leadership to get involved a little bit in the 
Berlin Embassy situation there. I just wondered, with the great 
work of the Chairman, how is that moving forward? Are we 
getting cooperation from Berlin?
    Ms. Cohen. Well, I think that that is a great example of a 
really good partnership between the Chairman's committee, you, 
and us. Because you were there, they have passed the 
regulations required to close the streets that will give us the 
adequate setback, and we have not asked for the additional 
funding because the streets haven't been closed, and it is 
important for us--and we know it is important for you--that 
before we go forward, we see that the streets are, in fact, 
closed to give us the setbacks. So we are in a pause.

                         Security Video Cameras

    Mr. Latham. One thing on that trip to different embassies, 
there was a tremendous frustration in the fact that even though 
probably the best device they could have for finding out who is 
responsible for attacks were video cameras, and the ability to 
tape, and to the cost of just a few hundred dollars, that they 
were not able to purchase these items or these security 
devices. Where are we on that? It is simply outrageous. You can 
go to Radio Shack and get this stuff, and it would be the 
number one way of tracing the terrorist, and because of the 
bureaucratic red tape, nothing was happening. Where are we?
    Mr. Carpenter. They are there. They are out there as we 
speak. We have sent 200 out to our facilities, and we are 
currently in the business of recording.

                     risks From Shattering Windows

    Mr. Latham. In the supplemental, there was a considerable 
amount of money for--and going back again to security for 
individuals, as we well know, most of the injuries and many of 
the deaths that occur in these incidents are from glass. Where 
are we on upgrading? If there are some of these questions that 
maybe we don't need to talk about in open session, let me know. 
But I am very curious where we are. The number one way people 
were injured and killed was from breaking glass. What is 
happening with the $22 million we provided?

                       Crisis Management Program

    Ms. Cohen. Well, the head of FSI is here, Ruth Davis. 
Really in the fall they started to design a very aggressive 
training program, crisis management program, which we are 
rolling out to 100 embassies this year and 100 next year, and 
it will be an ongoing program of the Department of State. It 
was a program some years ago and had been disbanded.
    In addition, DS had sent out instructions in October on 
what to do in case of a bomb blast, and you are absolutely 
right about its importance. There were five or six bomb blasts 
in Tashkent about a week ago. None of them were direct at all. 
It was an internal political thing, but our people who are 
quite close to the Parliament, on hearing the first shots 
connected with this, got away from the windows, and one of the 
blasts blew out every window in our embassy. So we have a 
growing awareness, we have an education program, and it is 
vital. It will save lives.

                   Safety Upgrades of Embassy Windows

    Mr. Latham. Well, I mean, if a blast goes off, I don't care 
how well you are educated, if you are sitting by a window and 
you don't have forewarning, you are in big trouble. I just 
wondered where we were with the supplemental funding of $22 
million specifically for this.
    Ms. Cohen. We are also in the process of ``remylaring'' and 
``mylaring'' all of the windows overseas.
    Mr. Carpenter. Well, the mylar here has been our response. 
Mylar is the substance that you coat the windows with to keep 
them from shattering. We are installing Mylar at facilities, 
where appropriate, worldwide. The ARB questioned the 
effectiveness of mylar, and suggested that there were laminated 
windows that provided better protection to glass breakage. It 
is physically and fiscally impossible to replace all of our 
windows worldwide in our facilities with this laminate. 
However, when we are starting to build new embassies, replace 
old embassies where possible, we will be replacing them with 
the laminated windows, not the mylar substance. But the mylar 
is out there now.
    As Ms. Cohen alluded to, it was very effective in 
Uzbekistan a week ago. We know it works. We know it worked, 
quite frankly, in Dar es Salaam and Nairobi, to a lesser degree 
on one side of the building than the other, I might add, but it 
is the best known method to date, short of the other laminated 
windows.
    Ms. Cohen. I think even that is a pretty good example of 
why this Department needs sustained security funding. When we 
go to put up mylar or new windows, we are going to countries 
where we have to send American workers. They don't have people 
trained to put this up. And over time, we have to replace, and 
we just need a steady stream of funding for security overseas.

                        icass and security costs

    Mr. Latham. One last question. On the ICASS system, are all 
of the other departments and agencies, do you think, are they 
being billed enough for their share of the security costs? What 
would be your comments on that?
    Ms. Cohen. ICASS has really worked. It has finished its 
first full year, and it has worked very well. The emergency 
supplemental obviously is a jump start to everybody, and that 
is really good. They will share in the ongoing security costs, 
and part of what will be studied in this special task force is 
the clustering or not clustering of U.S. agencies overseas, and 
whether we need to share more broadly the construction costs.

                            model embassies

    Mr. Latham. Okay. Just, if I may, Mr. Chairman, just one 
last thing.
    Your comment, Secretary Carpenter, about a cookie-cutter 
approach. And I see in Under Secretary Cohen's testimony that 
there is, in fact, a model embassy in Africa, and all of the 
other agencies, or embassies, are going to be the same, on page 
9, and then I think on----
    Ms. Cohen. That is something we are studying. We haven't 
done it yet.
    Mr. Latham. It says, we have begun a model embassy project, 
however, I am getting a mixed message here whether we are 
actually taking a cookie-cutter approach or we are not. Your 
statement here says one thing, and your testimony here says 
another.
    Ms. Cohen. As to security, we aren't, and what we are doing 
in East Africa is looking to see if there is a way to cluster 
services, use new communication techniques that may, in fact, 
be examples we could use other places. But we are just in the 
midst of that, and so we don't know whether it will apply to 
other places.
    Mr. Latham. Okay. Well, again, maybe you can understand why 
it is confusing in your testimony. You say, we will employ best 
practices to reduce time and money, including using a single 
design for new office buildings in multiple locations. Not real 
consistent, I guess, here.
    Ms. Cohen. I might have been anticipating where we are 
going, but we aren't there yet.
    Mr. Latham. Okay.
    Thank you, Mr. Chairman.

                        relocation of embassies

    Mr. Rogers. To start the process of addressing the 88 
percent of overseas facilities that do not meet the Inman 
setback requirements, 88 percent, the emergency supplemental we 
passed last year gave you $150 million for embassy relocations, 
but that only supports the complete construction of three new 
buildings, plus one funded from the proceeds of the sale of 
other properties. And it only covers some site acquisition and 
design costs at another four posts, and yet, as has been said, 
you requested no new funding for the year 2000.
    Admiral Crowe is quoted as saying, your request is, to use 
his word, timid, and he says that the failure to request more 
money could cost lives. And under your request by the end of 
fiscal year 2000, more than 2 years after the explosions in 
Africa, in addition to replacing the embassies at Nairobi and 
Dar es Salaam, the Department will have completed relocation of 
exactly 4 of the highest risk, most vulnerable embassies and 
consulates worldwide. And I just say that is unacceptable, and 
we will not, we will not go along.
    Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    I am sorry I wasn't here ahead of time. I was in an 
intelligence briefing this morning, and I have to be at another 
hearing as well. But I am not here so much to ask a question as 
simply make a comment.
    I welcome you here. I think you are discussing a very 
important and very tough question. I understand, in light of 
the Chairman's comments just now, that he believes that your 
request for funds for embassy security is inadequate. I would 
say that I probably share that view, but I would want to put in 
context that assessment.

                           budget constraints

    I just came from a meeting where we were told that our 
intelligence budget is woefully inadequate and needs to be 
increased. I will be going to a Labor, Health and Education 
Subcommittee meeting where the Chair of that subcommittee has 
already told the Administration that their request for the 
National Institutes of Health is woefully inadequate, because 
they only have a 5 percent increase. There are two other 
subcommittees meeting today, and in those subcommittees the 
Administration will be told in each instance by Members of 
Congress that the Administration requests in those areas are 
too low.
    So whether it is on this subject or four other subjects, we 
will hear that the Administration should have asked for more 
money for individual items. Yet, at the same time, some of the 
same people asking those questions are the same people who 2 
years ago voted for a budget which imposed on you and the 
Congress a requirement to cut the science budget by 18 percent 
over 5 years, to cut the education budget by 6 percent over 5 
years, to freeze health spending over 5 years, to cut the 
agriculture budget by 23 percent over 5 years, and at the time 
that budget was passed, I called it a public fib, because I 
said in my view, neither party would in the end live up to 
those promises for budget reductions, and neither party indeed 
would be able to find the votes to support those long-term 
reductions.
    So I would simply say, I share the Chair's view that we 
ought to be having more money in the budget for embassy 
security, but we ought to be having more money in the budget 
for a number of items. The Majority party, for instance, and 
some in my party will be insisting that we have an increase 
above the Administration's budget request for defense as well.
    So I would simply say, if we want you to be asking for more 
money for embassy security, if we want the Administration to be 
asking for more money for NIH to attack cancer and heart 
disease and all the rest, if we want the Administration to be 
asking for more money for intelligence, if we want the 
Administration to be asking for more money for defense, if we 
want them to be asking for more money for NASA and for science, 
as lots of Members appear to do, then I would suggest that we 
can't be asking that at the same time we are also telling the 
public that we can give them a nice big fat tax cut.
    Now, that is the root of the problem. If the Congress wants 
you to meet your responsibilities, then we have to meet ours as 
an institution, and that means that we have to get away from 
these false promises that we are hanging out there, given the 
other competing needs, or else our request for the 
administration to raise funding for embassy security, for 
defense, for CIA, for DEA, for NIH and all the other alphabet 
soup agencies will simply be so much ``blow-viating.'' So I 
just wanted to put that in context.
    You are dealing with a very serious problem, and I, having 
lost a couple of friends who died in embassy incidents in the 
past, I take a back seat to no one in my concern for embassy 
security. But if we want to see more room in the budget for the 
subject we are talking about today, then we need to get out 
from under this baloney budget that we have been operating 
under for the past 2 years, which promised reductions that are 
simply not consistent with our own national security and with 
our own national health. That is all I wanted to get off my 
chest.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Obey.
    I would point out that the budget includes hundreds of 
increases in other areas. I mean, the budget is chocked full of 
increases for everything imaginable, and yet in the face of 
Admiral Crowe and everyone else saying that this is absolutely 
ridiculous that no money was requested for embassy security 
upgrades in the year 2000 is something that Admiral Crowe says 
could cost lives, the budget is chock full of increases in 
other areas, and yet this one fell by the wayside.
    Mr. Obey. Mr. Chairman, I would simply observe on that 
score that Admiral Crowe was evenhanded in his criticism. He 
criticized the Administration's request, he also criticized the 
Congress for its failure to respond, and I am simply pointing 
out that I agree with Admiral Crowe on both ends and that the 
way to deal with the problem is not to simply beat up on 
somebody, but to simply recognize that none of these problems 
are going to be dealt with unless the core problem is dealt 
with.
    I have not been in a single Appropriations Committee 
hearing yet this year where members of the Majority party have 
not criticized the Administration for asking for too little 
money, regardless of the subcommittee. And when I have heard 
three separate appropriations subcommittee Chairs all say that 
the budget that we are operating under is a phoney one, not the 
budget the Administration sent down, but the budget that 
Congress signed onto with the Administration 2 years ago, which 
I do believe is a phoney budget. And so if you want to fix the 
problem, you need to first create the room to fix this problem 
and the others.
    Mr. Rogers. Well, we did push through----
    Mr. Obey. Our intelligence problem and our defense problem 
and our health research problems are just as serious as this 
one, because they all threaten lives.
    Mr. Rogers. We did push through last year, and this 
subcommittee was a big part of that, in increasing the monies 
for embassy security by $1.4 billion.
    Mr. Obey. That is right.
    Mr. Rogers. And of that money, $785 million is yet 
available for embassy security construction. As I have said 
before, that will only help us fix four embassies. There are 
over 200 posts that do not meet Inman standards and that is 
absolutely unacceptable.
    Mr. Miller. Welcome to the subcommittee, another new 
member. Thanks for your service.
    Mr. Miller. Thank you, Mr. Chairman. It is a pleasure to be 
part of this subcommittee, and it is something I am going to 
look forward to having an opportunity to learn a great deal 
more about. This is my first actual hearing to attend.
    I just came from the HHS hearing with the Director of the 
NIH, and we have had several hearings with HHS, and in going 
through the budget submitted by the administration, it happens 
to be the most unrealistic budget I have seen in my 7 years in 
Congress, because every program, like HCFA with all of these 
fees, are totally unrealistic, and as John Kasich used the 
phrase, gives smoke and mirrors a bad name. So every part of 
the budget has that problem.
    Yesterday we had health resources, and they propose to zero 
out primary medical education. It is totally unrealistic. So I 
think we have to take responsibility, too, for our share 
because the budget caps are history, and I am as fiscally 
conservative as anybody in Congress, according to my rating. 
But the reality is, especially after last year's omnibus bill, 
the caps are history and, we need to--Democrats, Republicans, 
the administration need to say, okay, let's get realistic caps, 
because there are issues like this that we totally agree on, 
whether it is NIH, primary education, or whatever the program 
is, where we should reach an agreement that is right for this 
country. So hopefully soon we can do that.
    Let me move on to talk about some issues, and again, some 
of this may have been covered, and some of my colleagues 
obviously, having served for years on this committee, are a 
little more up to date on this.

                    collocation of agencies overseas

    I see you have a graph there that shows 63 percent of the 
staffing in the diplomatic posts are non-State Department 
people. How does the leased space and office buildings fit in? 
I mean, I don't want to say one person is more important than 
another person, but some personnel, are less controversial. Do 
you design in your long range planning that you will put some 
parts of the government that are not part of the State 
Department, say, in a less secure area? Is that part of the 
overall plan?
    Ms. Thomasson. Mr. Miller, I am Patsy Thomasson, and I am 
Director of the Office of Foreign Building Operations.
    As we have moved forward and under the Crowe report, 
Admiral Crowe recommended that we do collocation of all 
Americans overseas and all American agencies overseas. So as we 
do our planning, we are planning to put all Americans, 
regardless of their agency, in the buildings that we would 
build with funds that would be provided by the committee, we 
hope.
    Mr. Miller. I understand that Admiral Crowe is more 
knowledgeable on this issue, but isn't it possible that you 
could locate issues--I mean, I don't want to give an example 
and single out Agriculture or Commerce. You say you have over 
two-thirds of your people who are non-State Department. Why 
couldn't some of those be based somewhere that they would be 
less costly? The costs of these new embassies are astronomical.
    Ms. Cohen. We have a panel that is going to be starting now 
to look at American presence overseas, and Admiral Crowe is 
going to be on that panel, as well as Ambassador Rohatyn and 
other people. We have some presidents and chairmen of 
international corporations, so we anticipate those kinds of 
issues will be looked at. I think the Crowe report was focusing 
primarily on agencies that have large numbers of Americans, 
like USAID where they may be a large group located off-site. We 
will be taking a look at that.

                               china 2000

    Mr. Miller. I have visited a few embassies. I visited one 
in Amman which doesn't meet the standards, which was 
interesting, but I visited one I remember in Beijing, I think 
it was a former Pakistani Embassy or such, and not for 
security. When I was there a couple of years ago it was grossly 
inadequate. I think the number that was tossed out is $1 
billion as the answer to solve their problem.
    How do you go about addressing the issue, for example, in 
Beijing? You would need almost a high-rise office building to 
start with for future plans for that country in order to have 
enough presence there in Beijing. Where do you find land that 
is suitable? Using Beijing as an illustration, how do you 
proceed on that?
    Ms. Cohen. That was a particularly complicated 
illustration, but there was China's 2000 group in the State 
Department that worked with China experts and other agencies as 
to what the need would be over time, not just in Beijing, but 
in other cities, and they have developed a long-term plan for 
our presence in China. We aren't in the process of implementing 
it, but we have the plan. We are in the process of obtaining 
land. We have obtained some new apartment spaces for people, 
but they still are in very adverse circumstances.
    Mr. Miller. Are we talking about $1 billion in Beijing 
alone?
    Ms. Thomasson. No, sir. I think that is the price tag maybe 
for all of China.
    I would like to volunteer, Mr. Miller, to come up and give 
you a briefing or give your staff a briefing on the China 
situation and what all we have going on in China. But all the 
needs in China, I think, might be $1 billion. The number for 
Beijing, for a new chancery in Beijing, would be more closely 
attuned to a $200 million number.
    Mr. Miller. Can you find land sufficient to meet the 
standards in Beijing?
    Ms. Thomasson. Yes, sir. We have been trying to do that, 
and we are aggressively negotiating with the Chinese and with 
another group of foreign diplomats there to find a location, 
and we are very close to that. I hesitate to say we are there. 
I kind of want to knock on wood as I say that, but we are 
working aggressively to find a site that would meet all of our 
setback standards.
    Mr. Miller. Designed to handle everybody for the Federal 
Government in one building, all the trade people and 
agriculture people and Commerce Department, and not just 
intelligence or military or State?
    Ms. Thomasson. Our position is at this point that we would 
design to accommodate everyone. It might not necessarily be in 
one building; it might be necessary to do classified operations 
in one building and unclassified operations in another 
building. We might find that a more successful way to deal with 
our problem.
    Mr. Miller. I look forward to having that meeting, because 
I want to find out more about teleconferencing and all that, 
how that fits into your planning.
    Thank you very much, Mr. Chairman.
    Mr. Rogers. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                  gao report on security construction

    As a new member of the committee, my staff and I have been 
doing a lot of research to catch up on the issues, and 
something that caught my eye was a General Accounting Office 
report, dated January 1999, and it cited a number of management 
problems having to do with the State's diplomatic security 
construction program during the years of 1986 to 1995, and 
among the management problems that were cited were inadequate 
staffing, poor program planning, difficulties in site 
acquisition, changes in security requirements, and inadequate 
contractor performance. And the GAO contends, and this is a 
quote, ``The scope of the problems encountered indicated that 
State had a systemic weakness in its program management.''
    My question is what steps have been taken since that time 
to address these problems and to ensure that the construction 
funds that are being requested under this budget will be well 
spent?
    Ms. Cohen. Patsy runs FBO and can talk in some detail, but 
let me talk generally about the issue.
    One, we agree that in many areas, including these areas of 
the State Department, they have been understaffed, and that has 
been a real problem, so that people have been doing multiple 
jobs. In connection with the emergency supplemental, which 
involves not as much construction per se, but huge logistics of 
buying, and getting it out overseas, we have a new CFO, we have 
segregated the accounting system for those things, and we are 
tracking the ordering, the obligations, the expenditure and the 
delivery.
    In addition, we have met with the IG, GSA, and other people 
both inside and outside the government to learn from them how 
we can do this better, and we think we have made great strides. 
We would welcome their coming back to look at us. In connection 
with this money, the emergency supplemental, and any additional 
money we obtained, we really have no objective other than to 
spend it efficiently and well. We are working very hard to 
improve the systems and the ability of the people to do that.
    I don't know if Dave or Patsy want to answer.
    Ms. Thomasson. Yes, I would like to.
    One, let me say that the GAO has taken us off of their 
action list, their high-risk list, since the 1995 study, which 
I think speaks well for FBO, and let me say that I think that 
FBO understands that this is a big undertaking to take on a big 
construction program like this. We are doing a lot of things to 
make sure that we are in a position to take advantage not only 
of getting the money spent effectively, efficiently and 
quickly, we are also talking with our contractor friends and 
the people who are in the industry that will have to build 
these buildings for us. We are setting up a dialogue with them 
to make sure that the kinds of things and the kinds of 
buildings that we want to build, they understand what we are 
looking for.
    That was certainly a problem during the Inman period. There 
just weren't enough American contractors out there who 
understood the kinds of buildings that we wanted to build. So 
now we are going to have a dialogue with them that is going to 
be ongoing so that when we send out an RFP and we ask for bid 
proposals to come in, that we have already gone over it with 
representatives of industry so that they say, yeah, we 
understand what you are trying to tell us, and we understand 
what you are trying to ask us to do, so that we don't come to 
some sort of a fork in the road where we are at some sort of 
impasse because we didn't communicate well enough.
    Our program management team in-house is much stronger than 
it was during the Inman program, so I think we are ready to 
respond. If we are blessed with a large capital program, then 
we will be working with a program management contract to 
supplement the efforts that we have internally, while at the 
same time not increasing the number of employees on the State 
Department payroll.
    Ms. Roybal-Allard. Thank you. I have to go vote now.
    The subcommittee will recess temporarily for a vote.
    [Recess.]
    Mr. Latham [presiding]. The subcommittee will come to 
order.

                  preventive action against terrorism

    I think Secretary Carpenter can probably address this 
question, but for the most part today we have been talking 
about defensive security measures, hardened facility barriers, 
guards. What we really don't hear much about is our capacity 
for preempting or preventing incidents from happening at all.
    What resources are available to you for preventive action 
against terrorism, and are those resources sufficient?
    Mr. Carpenter. We look at our program as a program that 
incorporates not only physical security measures, but also as 
one that incorporates within those security measures the 
Intelligence Community and their assessments as to knowledge of 
threats against our facilities worldwide. We work with all of 
the Intelligence Community, including the FBI and the CIA, to 
monitor to the best of our abilities information floating 
around the world.
    It is my opinion that the coordination between those 
agencies that I just mentioned, the State Department and the 
other Intelligence Community members, is probably the best it 
has ever been. And I say that, from my short time at State, 
only 7 months, that is what I have heard from my colleagues and 
from actual doing. We deal on a regular basis with the agency, 
discussing information that they have. We interrelate with the 
FBI on a regular basis regarding concerns that we have about 
certain locations. They have responded with us to certain parts 
of the world to further investigate cases. So with respect to 
the vetting that needs to be done, I am at this point very 
comfortable that it is being done in the most professional 
manner, in the best manner that can be expected.
    One of the weaknesses, if I can, comes from the standpoint 
of the host government's abilities to respond on an equal basis 
with us to investigate threats. Clearly, it has been the 
example set in the last 7 months that all of these countries, 
or the vast majority of these countries, want to help us. 
However, their training techniques and abilities, quite 
frankly, don't, in some instances, don't match their desires, 
and we are working very aggressively through our antiterrorism 
assistance program and other programs to better educate them. 
We work with them so that they fully understand what our needs 
are for security overseas, help train them better, and help 
them to make them more aware as to professional ways of 
operating.

                       security resource requests

    Mr. Latham. Part of the question was are the resources 
sufficient. Beyond your request for additional personnel, are 
you seeking any other additional resources to really strengthen 
this capacity?
    Mr. Carpenter. I personally think that the Diplomatic 
Security Service needs more agents, a sustained intake of 
agents over the next few years. Although we are very, very 
grateful for the 200 we are hiring through the emergency 
supplemental, that still does not allow us to have security 
officers, professional security officers, at all of our 
facilities overseas.
    I think that is a goal; I think that is the right goal. In 
order to have an effective program, you have to have an 
effective professional running that program, a warden, if you 
will, to make sure that the security that has been set up is, 
in effect, working; that the technology that has been applied 
there is the appropriate technology, and to feed back 
information to us on a regular basis, working in coordination 
with headquarters at the Department of State.

                         marine security guards

    Mr. Latham. One thing that we have heard is the lack of 
availability of Marine guards because of the Marines are 
stretched so thin around the world, and I just wonder if maybe 
you could give us an idea of where we are. Is that still a 
problem? How severe is it, the availability of the U.S. 
Marines?
    Mr. Carpenter. Well, Congressman, as you know, the Marines 
are at our facilities overseas to protect classified 
information first and foremost. Secondarily, they are a 
tremendous asset to us, as was displayed most recently in 
Damascus when our embassy got overrun. The quick and swift 
action of our Marine security guards quite frankly saved that 
facility, potentially saved some lives there. I don't think 
there is any question that they may have saved some lives. So 
they are a tremendous asset to our overall program.
    We are working very aggressively with the military to try 
to increase the presence of Marines at our facilities overseas. 
We are looking now to establish 37 new posts where Marines 
heretofore had not been stationed, and we will accomplish at 
least 11 activations by the end of new year.
    Mr. Latham. Well, just to follow up, what--are they 
available? Are you having trouble getting from the Marine 
Corps----
    Mr. Carpenter. There is not a big pool of them out there. 
This is a first class program. It is a selective program. They 
are working very hard to recruit more people into it. It is a 
very desirable program. However, there is lack of available 
personnel to staff it at this point.
    Ms. Cohen. There is a great willingness for cooperation 
with the military, but they are very limited, I think.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    I am delighted to see a former colleague of ours in the 
audience today, Bob Garcia. Thank you for being here. Good to 
see you.

                      diplomatic security staffing

    Now, Secretary Carpenter, the supplemental provided $54 
million for an additional 337 positions in diplomatic security, 
including 200 special agents. Your request for fiscal year 2000 
continues the funding for those positions, but doesn't provide 
for any increases beyond that.
    It appears that your staff has been operating at a 
heightened state of alert since the African bombings. I think 
it is important to determine if that is simply an emergency 
requirement, or if, indeed, that represents a new base level of 
operations for you and your folks overseas, and if it is a base 
requirement, is it one that is adequately supported by your 
current staffing and the funding requested by the 
administration for 2000? Can you help us there?
    Mr. Carpenter. Certainly. If I may say one thing first, I 
have been in Federal law enforcement for over 27 years now. I 
don't believe I have ever been as proud of a group of people as 
I have the agents, men and women, of the Diplomatic Security 
Service. They have truly performed at a level above and beyond 
what I think the general public is aware of, and I, again, have 
spent a good deal of time in Federal law enforcement. I think 
these people rank up there with the best.
    However, they are tired. We have functioned at the highest 
state of alert imaginable for the last 7 months. We do not have 
a great bench, as I have said in the past, people to go 
overseas TDY. We have a great number of our resources committed 
already overseas. We continue to staff overseas, because that 
is where the problem is. This is causing some family hardships, 
personal hardships, on those who have to leave their families 
here, as well as when they return from these TDYs. We have a 
number of other obligations here domestically, such as the 
protection of foreign diplomats visiting this country. So it 
has been a very, very tough year for diplomatic security.
    Do we need more people? Clearly, we need more people. I 
think we started with a base number of about 780 agents. The 
200 new diplomatic security agents we have will bring us to 
approximately 1,000. We have right now 278 diplomatic security 
agents in 146 countries. We are hoping in the next 2 years to 
raise that number to 420 in 157 countries.
    In doing so, that is just a beginning, as I see. As we 
increase the number of diplomatic security agents overseas, the 
need to have an increased number back here domestically to 
replace them becomes very, very apparent. And it is my goal to 
work through the budget process to ensure that we have 
sustained intake of DS agents as we go to not only 2000, but to 
2001 and beyond.
    Mr. Rogers. Well, let me say here on behalf of all of us 
and the American people how much we appreciate the dedicated 
work of your personnel. It is a thankless job. They get 
criticized because they are up against almost an impossible 
task, and I want you to convey to them how much we deeply 
appreciate the dedication, the hours they work, the risks and 
dangers they take on without blinking, and we deeply appreciate 
their work.
    Mr. Carpenter. Thank you, sir. That means a lot. I 
appreciate that.
    Mr. Rogers. This is a big chore that you have taken on, and 
we appreciate you.
    Mr. Carpenter. I will pass that on.

                       regional security officers

    Mr. Rogers. Now, you are in the process of deploying 140 
agents out to the field as what you call regional security 
officers, correct?
    Mr. Carpenter. Yes.
    Mr. Rogers. And when that is complete, we will have a 
security officer at every post where there is a Marine 
detachment. But, will there still be 23 embassies and 45 
consulates, constituent posts where there is not a security 
officer? Have you a comment about that?
    Mr. Carpenter. Yes, I do have a comment. Those constituent 
offices are obviously covered by RSOs outside of the particular 
country who have an obligation to visit those posts on a 
regular basis to ensure that security is treated appropriately. 
In the absence of an RSO at a post, there is a designated post 
security officer whose responsibilities are to ensure that the 
directions of the RSO are basically fulfilled. However, in a 
lot of instances those are not trained professionals. Those are 
people that are, quite frankly, doing their very best, and some 
of those people have done a tremendous job over the past 6 or 8 
months. However, they are no trained substitute for a trained 
RSO, and that is our goal, to get our people at posts where it 
makes sense to have them.
    So to go back to the Congressman's earlier question about 
the Marine security guards, we probably would not have Marine 
security guards at all of these posts, but at a minimum we 
would want to have an RSO at these posts.
    Mr. Rogers. I will come back for another round. I think Ms. 
Roybal-Allard was cut short a while ago.
    Ms. Roybal-Allard. Thank you, Mr. Chairman, I appreciate 
that.

           overseas presence of non-foreign-affairs agencies

    My question is a followup to one that I previously asked 
with regard to the 1999 GAO report which cites that there is a 
trend of an increase of U.S. overseas direct hires by the non-
foreign-affairs agencies. The suggestion in the report is that 
State take the lead in working with these agencies working 
overseas to examine their staffing requirements, and my 
question is really threefold. First of all, what consultation 
is State doing with these other agencies; and what special 
problems do these agency offices present; and thirdly, is the 
mission of the State Department and these other agencies being 
affected adversely by security considerations?
    Ms. Cohen. The Ambassador overseas has the final ability to 
say yes or no to another agency stationing a person overseas. 
In addition, FBO meets with all of the agencies who want to 
station people overseas. There has been growing news of 
Americans overseas by other agencies because America has 
increased foreign policy interests overseas. The fastest 
growing group of people are law enforcement-related, and that 
has to do with fraud, narcotics and terrorism.
    So these people are representing really important interests 
for America, and it obviously is an issue in terms of the 
embassies and our ability to incorporate everyone and how they 
work together, but I think on the whole it is positive. People 
are accomplishing what they are supposed to overseas. We do 
engage in a very active dialogue, but these people have 
different roles from the State Department and need to be there.
    Ms. Roybal-Allard. Are you disagreeing with the GAO report 
in terms of the need for State to take a more active role?
    Ms. Cohen. No, State needs to take an active role. It may 
need to take a more active role. We are trying to do that. In 
the same panel that I have talked about, we have 
representatives of these agencies, particularly the law 
enforcement ones that are growing so fast, to be sure that we 
coordinate and understand what each other is doing there. But 
if their point is that people are going over who do not need to 
be there, I don't think that is correct.

                maintenance and repair of u.s. missions

    Ms. Roybal-Allard. The Department has identified 3,600 
facility maintenance and repair and improvement projects which 
would require more than $700 million to implement. Is the 
maintenance and the repair distinct from the security 
improvements, or is it all one? Let me just finish the three 
parts of the question.
    Also, how much of that projected $700 million is contained 
in this budget, and how much is assumed in the $3 billion in 
forward funding requested?
    Ms. Thomasson. The maintenance and repair account that you 
identified with the 3,000-plus projects is simply the roofs 
that give out each year or the elevators that give out. It is 
the different kinds of things that we have to do to continually 
maintain our buildings. As these embassies that are old are 
replaced, some of that is going to go away, but I don't think 
that we can stop doing any rehab until we get these new 
buildings built.
    There are some things that we are going to have to continue 
to do, electrical and life safety issues. How does it fit with 
security? We always look at security when we do any rehab to 
any building to see anything that we should do in order to 
enhance or increase the security if we can with regard to a 
building, but it is not the only reason for doing the 
maintenance projects. As we build new buildings, we are working 
with our facility maintenance specialists, the special category 
that you helped us create, and we are having those people help 
in the planning and the design of new buildings so once we have 
new buildings constructed, they have a good sense of how to 
maintain those buildings over time so we won't have as many 
problems.
    Ms. Roybal-Allard. If you were to receive all of the funds 
that you needed for maintenance, repair and the security that 
is necessary, do you know how long that would take to complete 
all of the work that is required?
    Ms. Thomasson. I guess the bottom line is if you gave us 
$700 million this year to do maintenance and repairs, and let's 
assume just for the record that we spent that over a 2-year 
time frame, by the end of that 2 years, we would have another 
laundry list. So it is an ongoing, cyclical kind of thing.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    First of all, let me tell you how much on a bipartisan 
basis we support the work that the folks do overseas. It really 
doesn't matter where you fall on our policies. I see the folks 
that work under you the same way as we do the military. Once we 
squabble and disagree and agree on a mission, and they carry 
that mission out, we support them wholeheartedly. Please convey 
that it is a joint effort from this committee and joint 
respect.
    Second, let me revisit briefly two issues, because one I am 
still confused on, and one I want to clear up more.

                            regionalization

    This whole question that I brought up about some presence 
of ours being diminished in some countries. Take me through the 
steps why we are doing that and how we avoid in emerging 
countries, who will someday become very serious allies on the 
list, sending these negative messages. And you made it clear 
that you were not just going to pull out, but does one country 
become a satellite office of a larger presence of ours? How 
will that work?
    Ms. Cohen. We actually have not made those decisions, and 
this panel will be looking at it. Even now as we operate, we 
have three embassy tiers. We have large embassies, medium and 
small embassies. We have posts that are called SEP posts, 
special embassy programs. They are smaller embassies, and they 
have an Ambassador and a DCM and the official American 
presence, a consular officer, the ability to give visas and 
service Americans that are overseas. So an example of that 
would be a place like Azerbaijan, which has about 13 Americans 
and does a full range of services. While they stay that size, 
we try to reduce the burden that we place on them, reduce the 
amount of cables that they get from us, the kind of ordinary 
work that they have to do, but maintain that embassy. And I am 
also reminded in the Caribbean that we have an Ambassador that 
services a number of locations in the Caribbean. But the 
Secretary is committed to universal representation, so there is 
no intention of pulling out, and it is just the idea of looking 
at the size of really every place.
    But also, as I think Congressman Latham and Mr. Rogers 
pointed out, there are different ways of communicating. We, 
with the support of this committee, have been able to upgrade 
the computer support at all of our posts to a modern system. So 
there are kinds of things that people did before, some of the 
administrative functions, that could perhaps be done in 
Washington or a regional location. It is that kind of thing.
    Mr. Serrano. Good.

                  budget request for security upgrades

    My last point, it is more of a question to you, Mr. 
Chairman, just to reach an understanding or some sense of where 
we are going. You had a unique situation here. You had a 
chairman of a subcommittee basically saying, ask for more. You 
should have recorded that because that may never happen again 
anywhere in this outfit.
    I don't know if I heard clearly that there will be a 
revisiting of those numbers, and since we want to be helpful, 
where are we leaving it? Will this issue be revisited, and are 
we talking here about the fact that we must come back with some 
new numbers, or we will impose some numbers on them, Mr. 
Chairman? I just want to be clear on this.
    Mr. Rogers. I think the Secretary will have to answer that 
question.
    Ms. Cohen. It is my understanding that the President does 
propose to have a discussion of our needs, that this is a 
priority for the administration, and to join in that discussion 
with the leadership up here.
    Mr. Serrano. Okay. Thank you.
    Mr. Rogers. Thank you.

                      plans for security upgrades

    About half of the supplemental funding did not go for 
diplomatic security staffing or construction, but for other 
worldwide security requirements. It included $740 million for 
security upgrades; $213 million for FBO, for structural 
measures, fences, doors, window treatments, bollards, barriers 
and so on; $527 million for diplomatic security, local guards, 
vehicles, equipment, technical support, expanding the perimeter 
of the facilities, vehicle inspections, barriers, surveillance, 
shatterproof window treatments, bomb detection gear, armored 
vehicles for a number of posts, secure radio systems for all 
posts.
    Mr. Carpenter, you told us that you plan to obligate 90 
percent of that $527 million this year. That would be a very 
aggressive schedule. In fiscal 1997 you got $24.8 million for 
similar upgrades and a counterterrorism supplemental that we 
passed, and by the end of 1998 you had only obligated half of 
that. So can we talk?
    Mr. Carpenter. Absolutely. My comment to that is there is a 
focus on this like I don't think that I have ever seen a focus 
before. We are talking about life safety issues here, and it is 
paramount that we not only obligate to get that equipment to 
the field, but it is our intention to do so.
    Mr. Rogers. Do you have a plan to get those upgrades in 
place?
    Mr. Carpenter. Yes.
    Mr. Rogers. Tell us about it.
    Mr. Carpenter. Again, I will go back to the program that I 
am, quite frankly, very proud of. We have RSOs at an increasing 
number of posts out there. These individuals are feeding us 
through the system information relative to what their needs are 
at each and every post, and our headquarters-based people here 
are pulling those all together to ensure that we have a 
schedule to get this equipment out to the field, a schedule to 
install this equipment out in the field, and they are due to 
report back to us on a monthly basis as to the status, problems 
that they have, et cetera.
    Mr. Rogers. Would you furnish to the subcommittee the 
latest report that you have about how it is proceeding 
consistent with security?
    Mr. Carpenter. Yes.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Will you obligate those funds this year?
    Mr. Carpenter. The remaining 9 percent? The 91 percent that 
we talked about, yes, sir, those will be obligated this year.
    Mr. Rogers. Because last year when we passed the 
supplemental, we talked about what can we do quickly----
    Mr. Carpenter. Right.
    Mr. Rogers [continuing]. And fairly inexpensively to get an 
immediate result out there in the field, and these are the 
things that we came up with, all of us together, and we said, 
okay, we will get you the money for that so we can quickly go 
out there and get these minimally necessary things in place at 
most of the posts.
    Are you satisfied that we are moving quickly enough to get 
these quick upgrades in place?
    Mr. Carpenter. Yes, sir, I am.
    Mr. Rogers. Keep us posted. We would like to have the 
monthly report that you get so we know that it is going well. 
Is that agreeable?
    Mr. Carpenter. Yes, sir.

                          surveillance cameras

    Mr. Rogers. Well, like others, I was particularly upset 
when we learned that neither Nairobi nor Dar es Salaam had a 
videotaping capability, which obviously would be very 
instrumental in investigating an incident. We provided about a 
million dollars in the supplemental to put that video recording 
capability to 90 posts. Where are we?
    Mr. Carpenter. We have shipped over 200 video recorders 
overseas. Now, this is our first tranche. What we have provided 
to posts are recorders that, quite frankly, the tape has to be 
changed on a regular basis. It is older technology. We are in 
the process of evaluating newer technology to replace that with 
so we don't have such a cataloging problem. It is more user-
friendly, and it is more up-to-date.

                   Renovation of overseas residences

    Mr. Rogers. Finally in the prioritizing in the spending of 
your dollars, every penny that you can get your hands on needs 
to be spent, obviously, on the high priority of defending lives 
and protecting personnel. I think we can all agree on that. And 
yet while many of these security-hungry projects or security-
important projects go unfunded and undone, other projects of 
some questionable value get funded. For example, the renovation 
of the Ambassador's residence in Buenos Aires, which we took a 
tour of last year, $6 million to renovate an Ambassador's 
residence in Buenos Aires, I question the necessity of doing 
that at that expense while we let security go unfunded.
    The Ambassador's residence in London initially projected to 
cost $3.4 million has now ballooned to $13 million just to fix 
up the Ambassador's residence in London. We want them to be 
adequately taken care of, our ambassadors, but at the expense 
of the security of the personnel down the line, no. How can we 
be assured that these types of things won't happen again?

          prioritization of revovations and security upgrades

    Ms. Cohen. We have put in place a new process for 
prioritizing the projects. The first step is under DS working 
with the Intelligence Community to identify embassies that are 
under particularly severe threat or have real vulnerabilities.
    FBO is the second cut where they look at the physical 
security and also at the health and safety, age of building, 
things like that. The list is then developed in groups. We then 
meet with the Assistant Secretaries and Tom Pickering, the 
Under Secretary for Political Affairs, and go over the 
priorities with each of the regional Assistant Secretaries and 
ask them if they have some reason to think that an embassy 
should be higher or lower on that list.
    So everyone is having an input.
    Mr. Rogers. Well, you just got a new partner. We are 
willing to trust you to make judgments about these things, but 
we just stumbled upon it. Just because our subcommittee 
traveled to Buenos Aires, and we just happened to ask for a 
tour of the renovations of the Ambassador's residence did we 
discover this massive, expensive, elaborate, I will say 
sumptuous renovation of the Ambassador's residence of Buenos 
Aires. We just stumbled onto the fact of the $3.4 million in 
London of the residence, not the Embassy, had grown, had 
quadrupled to $13 million. We tried to put a stop to it, but by 
the time we caught on, you had already signed contracts, and 
you could not get out of them.
    So we are going to be a partner with you on these, and that 
is just not going to happen again as long as we have got these 
terribly dangerous security projects that we have to do around 
the world. We can't blow money like that on an ambassador's 
residence. We will fix it up as best we can, but we are not 
going to do that kind of elaborate spending while our people 
are going unprotected down the ranks. Can we agree?
    Ms. Cohen. I think there is agreement on that. There isn't 
a problem.

                     assessment of security threats

    Mr. Rogers. Now, the Crowe report pointed out shortcomings 
in the method that you had been using to assess security 
threats. In fact, the report recommended that the process be 
radically reformulated. What steps have you taken to improve 
the assessment of threat?
    Mr. Carpenter. I think the process that is referred to in 
the Crowe report or the ARB is one that classified posts as 
critical, high, medium or low threat based on a number of 
factors.
    Following the bombings, we took the approach that because 
of the transnational nature of the threat from Usama bin-Ladin, 
with respect to terrorism, we could no longer look at any of 
our posts as low or medium threat, that the target could be any 
one of our 260-odd posts throughout the world.
    Given that, we have upgraded the security at posts that 
were previously classified as low or medium threat to security 
standards which would formerly have applied to high or critical 
threat posts. That is for certain security upgrades. That 
includes vehicle barriers, et cetera, et cetera.
    What we were faced with before, when you have limited 
funds, we were using our threat rating as a means of risk 
management. Then at some point you had to determine where was 
the best bang for the buck; at what embassies would we consider 
through the Intelligence Community to be the embassies that 
were most likely to have problems and devote our resources 
there.
    August 7th changed the entire Community's thinking about 
that. We no longer call any post low or medium threat for 
terrorism, and are dealing with this threat that is real and 
long-term, and we have an obligation to make sure that our 
people are safe by providing them the appropriate security 
enhancements.

                           u.s. u.n. mission

    Mr. Rogers. How does that assessment square with the need 
plan to construct a new U.S. U.N. facility in New York on the 
existing site? How does that fit the new criteria?
    Mr. Carpenter. The threat criteria?
    Mr. Rogers. Yes.
    Mr. Carpenter. If I may just deviate a little bit from your 
question, the security standards set up by the Overseas 
Security Policy Board were set up as security standards for our 
facilities overseas because we felt, we collectively felt, that 
overseas we are a target. So the standards that were developed 
by OSPB were for overseas facilities. The facility in New York 
for the U.S. U.N. that is being considered for construction is 
not being constructed by FBO, but rather GSA.
    We have been working with GSA on the standards to bring 
that building to the appropriate level for a U.S. facility. I 
believe GSA, and I am a little bit out of my knowledge base 
here, classifies buildings A, B, C and D as far as their 
security standards, D being the highest. This building will be 
built to a D standard.
    Mr. Rogers. But you will have adequate input into----
    Mr. Carpenter. We have had adequate input all along. We are 
working with them very closely, and we are very satisfied with 
the decisions made regarding security.
    Mr. Rogers. Will you have a 100-foot setback?
    Mr. Carpenter. No. A 100-foot setback in New York is very 
difficult.
    Mr. Rogers. So you are not meeting the Inman criteria?
    Mr. Carpenter. The Inman criteria, again, were for overseas 
facilities where the facilities and the personnel housed 
therein were perceived to be the targets.
    Mr. Rogers. Some people think New York is overseas. Others 
of us don't.
    Mr. Serrano. I am trying to be nice today. As long as you 
don't attack the Bronx.
    Mr. Rogers. Madam Secretary and Mr. Secretary and ma'am, 
thank you for appearing today. Thank you for your testimony and 
your hard work. You have a terribly hard and difficult job 
fraught with all sorts of dangers and snares, and we want to be 
helpful to you in any way that we can, and that is the purpose 
of today's hearing.
    We hope that the OMB can revisit the subject that we have 
talked about here this morning, and we think that they must and 
can come back with a more realistic request of this 
subcommittee for what you and I agree is one of the most 
important things that we do, and that is try to protect our 
folks overseas.
    Again, thank you for your work, and thank you for your 
testimony.
    Mr. Carpenter. Thank you.
    Ms. Cohen. Thank you.
    I would like to thank the whole committee for their 
support. We wouldn't be where we are with the emergency 
supplemental without the bipartisan support of this committee. 
It means an awful lot to the people overseas to have that kind 
of support.
    We agree with you, Congressman, that they are very much 
like the military, if not even more vulnerable, but they are 
serving America overseas, and we think that it is very 
important that we give them the kinds of support that you have 
talked about.
    We do need support for the buildings, but we also need 
support, as Dave has talked about, for our people and for 
training, and we need sustained support. One of the problems 
with the Inman program is that it came and it went, and this 
time I think we would all like to see sustained support. Thank 
you very much.
    Mr. Rogers. Thank you. The hearing is adjourned.

                QUESTIONS SUBMITTED BY CHARLES H. TAYLOR

    QUESTION: In its FY2000 budget request, the State Department seeks 
$254 million for worldwide security upgrades. Following the August 7, 
1998, bombings of the U.S. Embassies in Nairobi, Kenya and Dar es 
Salaam, Tanzania, the State Department received $1.4 billion in 
emergency supplemental funding for FY99 to bring these embassies back 
into operation, as well as to perform worldwide security upgrades. The 
$254 million sought for FY2000 would allow recurring costs from the 
FY99 supplemental activities to be met.
    A separate Accountability Review Board (ARB) investigation of the 
Kenyan and Tanzanian bombings concluded that the State Department 
``must undertake a comprehensive and long-term strategy for protecting 
American officials overseas, including sustained funding for enhanced 
security measures, for long-term costs for increased personnel, and for 
a capital building program on an assessment of requirements to meet the 
new range of global terrorist threats.'' The $254 million request for 
FY2000 does not address the long-term resource issues identified by the 
ARB report.
    1. Does the State Department have plans to implement the findings 
of the Accountability Review Board's report, which found that a long-
term strategy for protecting American officials overseas must be 
undertaken? If so, have any cost estimates for implementing these 
findings been performed?
    ANSWER: Yes, the Department of State plans to implement virtually 
all of the recommendations made by the Accountability Review Boards 
(ARBs) for Nairobi and Dar es Salaam. We are preparing the Secretary's 
report to the Congress on actions taken in response to the ARB's 
program recommendations, which will be submitted to Congress within the 
ninety days required by law.
    We estimate that between ten to fourteen billion dollars would be 
required to make the facility improvements needed at posts which do not 
now meet security construction standards. Implementation of the 
recommendation was initiated immediately under the 1999 Emergency 
Security Appropriation, such as improving the physical security of 
embassies worldwide and deploying 120 Security Officers on temporary 
duty to our most vulnerable posts. Sustaining this initial effort 
beyond fiscal year 1999 is the key to providing a security program that 
is an effective deterrent to acts of terrorism against our embassies 
and consulates worldwide.
    Prior to developing a long-term plan to upgrade our facilities 
worldwide, the Department has embarked on an in-depth review of the USG 
presence abroad and the factors that determine the size of our presence 
in any one country.
    The Secretary of State has convened an Overseas Presence Advisory 
Panel to assess this issue and to examine a range of issues related to 
the US Government presence, security, and policy implications. The 
Panel's mandate is to review the level and type of representation 
required abroad to carry out America's foreign policy interests, given 
resource constraints, advances in technology, and the worldwide 
security situation. We expect the Overseas Presence Panel to report its 
recommendations this summer.
    QUESTION: After the bombings in Kenya and Tanzania, the State 
Department immediately revalidated security assessments at its 
embassies abroad, including the establishment of local guards to 
protect U.S. embassies.
    2. Are the ``local guards'' hired to protect U.S. embassies abroad 
American military personnel, foreign nationals or a combination of 
both? Please describe the security check procedures undertaken for 
those local guards hired.
    ANSWER: Local guards employed to protect U.S. embassies abroad are 
generally comprised of local foreign nationals. The employees are 
cleared in accordance with Department guidelines and/or contract 
provisions.
    The Department's investigative requirements for foreign service 
national employees, to include guards, parallels to the extent 
practical the full-field investigation of U.S. citizen direct-hire 
employees.
    In those instances where the Department has contracted for local 
guard services, each contract includes a provision entitled Government 
Approval and Acceptance of Contractor Employees. The provision requires 
the contractor to subject its personnel to the Government's approval 
based on the following:
    <bullet> A suitability investigation conducted by the contractor, 
including proof of successful employment during the past three years as 
well as recommendation from their previous supervisors.
    <bullet> A police check covering criminal and/or subversive 
activities.
    <bullet> A check of their personal residence and a credit 
investigation.
    All such investigations are provided in summary form to the 
Regional Security Officer for review and approval or disapproval. The 
investigation record becomes a part of the administrative file.
    In both direct hiring and contracting situations, the Department 
believes these procedures are appropriate and adequate.
    QUESTION: The Department states in its budget request that the 
local guard program will produce ``recurring costs,'' presumably 
requiring annual appropriations. Have out-year estimates been performed 
to calculate these costs?
    ANSWER: Yes, out-year estimates have been calculated. The local 
guard program positions that are being established using the emergency 
security supplemental funding in FY 1999 must be maintained on a 
permanent basis. The FY 2000 cost of these positions is estimated at 
$180.6 million. The Department plans to fund this cost from the FY 2000 
budget request for local guard recurring costs of $170.6 million and 
nearly $10 million of local guard funding to be carried forward for the 
FY 1999 emergency security supplemental.
    QUESTION: How timely is the information provided to the private 
sector and the American public about changing security situations 
abroad; for example, how soon after being made available to the 
Department is information about potential security threats posted for 
public viewing on the Department's website?
    ANSWER: When the Department determines that a specific threat 
warrants the issuance of a Public Announcement or Travel Warning, the 
Announcement or Warning is disseminated to the public as quickly as 
possible. Generally Public Announcements are issued on the same 
workday. Announcements and Warnings are initially sent out as a cable 
to all of our posts abroad. Within hours, they are provided to the 
media and put on all our public information system, including Bureau of 
Consular Affairs website (Internet), the automated fax and the 
automated recording systems.
    There are two parts to the process of issuing a Public Announcement 
or Travel Warning once the threat is received. First, the Department 
acts expeditiously to determine the threat's credibility, specificity, 
and counterability. Several bureaus work together to determine if the 
threat is credible when the Department learns of a threat (either from 
a post abroad or from other sources).
    If the threat is credible and specific enough so that the release 
of information about it to the public will contain meaningful 
information that can be used by Americans residing or traveling abroad 
to enhance their own security, a determination is made as to whether it 
can be countered. If it is being countered, then there is usually no 
need for public dissemination of the information. If it cannot be 
countered but is targeted to a specific group or individual, then that 
group or individual would be made aware of the threat so that they can 
take appropriate measures to safeguard their security. If the threat 
cannot be countered and is aimed at a broader group, then a Public 
Announcement or Travel Warning would be drafted and our post(s) abroad 
would be instructed to initiate a Warden Message to the local American 
community (official and private).
    After the Department makes these determinations, the process passes 
into the second stage: the Office of Overseas Citizen Services drafts 
the appropriate Public Announcement or Travel Warning and disseminates 
it throughout the Department for clearance. Clearances are required 
from the following Bureaus: Diplomatic Security, the Coordinator for 
Counter Terrorism, the geographic bureau(s), the under Secretaries for 
Management and Political Affairs, and with Intelligence and Research. 
Often additional clearances need to be obtained from other government 
agencies as well. Once all clearances are received, the Announcement or 
Warning is issued and disseminated to the public.
    QUESTION: What needs to be done in order to improve the quality and 
timeliness of the Department's access to intelligence about changing 
security situations?
    ANSWER: The Department continues to be engaged at various levels 
with both the CIA and FBI to ensure that we receive any such 
information on a timely basis.
    For example, Department of State and CIA officials have recently 
been meeting to develop practical plans to encourage even closer 
cooperation and improve an already strong relationship. The Bureau of 
Diplomatic Security (DS) already has two special agents assigned to the 
CIA Counter-Terrorist Center (CTC).
    In addition, State plans to propose that two additional officers be 
assigned to the CTC, one from the Office of the Coordinator for 
Counterterrorism (S/CT) and one from the Bureau of Intelligence and 
Research (INR).
    DS likewise has a special agent assigned to the FBI's International 
Terrorism Section, and currently there are DS agents assigned to 10 of 
the 18 FBI Joint Terrorism Task Forces (JTTFs) across the United 
States. DS plans to extend this support to an additional 5 JTTFs. The 
Department also has a Memorandum of Understanding with the FBI 
concerning mutual responsibilities for investigations for terrorist 
attacks against U.S. diplomatic facilities and personnel abroad.

           QUESTIONS SUBMITTED BY REPRESENTATIVE JOSE SERRANO

    QUESTION: US Embassy security programs must be designed to 
accommodate regular high-volume access by the local population, and as 
such have requirements that are different from other high threat 
facilities. Reliable performance in multiple remote locations worldwide 
is an important criterion for any explosives trace detection equipment 
selected for deployment. In order to be certain that any explosives 
trace detectors procured will meet the unique requirements of 
embassies, have you conducted long-term field tests (one year or more) 
in actual embassy locations before considering equipment for widespread 
deployment? Will all explosives trace detectors considered for 
deployment be required to undergo long-term trials?
    ANSWER: The procurement and deployment of explosive detectors have 
followed FAA evaluation, Department certification of the equipment, and 
field testing at several overseas posts. The period of field-testing 
has been over a year.
    Lessons learned from Department field tests and other agency 
experiences should allow the Department to reduce the trial period for 
any new explosive detection technology.
    QUESTION: Most explosives trace detection devices are mechanically 
complex and have many moving parts, and are best suited for laboratory 
use. The original State Department program for evaluation of trace 
detection equipment in the 1980's did not result in widespread 
deployments because of the difficulty in keeping complex devices 
functioning. How does the equipment you are procuring compare in 
mechanical complexity with other available trace detection devices.
    ANSWER: In general terms, the equipment is not as mechanically 
complex as other available trace detection devices. The explosive trace 
detection equipment which the Department has currently deployed has 
also been evaluated by the FAA for airport passenger screening and is 
characterized by reliability of detection, simplicity of operation, 
size (similar to a personal computer) and maintainability.
    QUESTION: Have you evaluated the total cost of ownership of the 
different models of trace detectors including initial purchase price of 
equipment and accessories, travel and installation costs, and yearly 
consumables purchases? Have these costs influenced your purchase 
decision?
    ANSWER: Yes, to both questions. A critical consideration in the 
Department's acquisition decisions for explosive detection equipment 
has been the life cycle costs of the system.
    QUESTION: Some recent terrorist events have involved use of 
explosives that were manufactured by the terrorist such as TATP and 
Nitroglycerin. Because of their high volatility, these explosives are 
more likely to be detected if the detection system has vapor detection 
capability as well as trace particle detection. Has the sampling system 
of the trace detector been shown in government tests to have the 
capability to collect vapors as well as particles for detection?
    ANSWER: As you are aware, the FAA has the lead on research and 
testing in this subject area. They have advised the Department that, 
according to their tests, the trace detection equipment that we have 
purchased and deployed overseas has the capability to collect vapors 
(including TATP and nitroglycerin) as well as particles for detection.
    QUESTION: In some locations, hand portability of the trace detector 
and ultra-high sensitivity vapor detection may be the most important 
criteria for choosing which detector to deploy. Has Diplomatic Security 
evaluated various battery operated vapor trace detectors to determine 
if any of these meet their requirements? Is it important to choose 
vapor detectors that use the same detection principles, software, and 
consumables as trace particle detectors used at the same location?
    ANSWER: Department field tests have shown that all the explosive 
detection equipment currently deployed can be configured to be battery-
operated. It is important to understand that the Department's selection 
of explosive detection equipment is not limited to trace or vapor 
detection but includes other technologies such as fluoroscope and X-ray 
inspection as well as physical searches. As to choosing a system that 
utilizes the same detection principles, there is no one technology or 
tactic that provides a universal defense against explosive attacks. 
Concerns about uniformity of equipment are considered, but we believe 
they should not be an overall limiting factor. Each of the detectors 
chosen by the Department for evaluation and deployment should allow for 
appropriate protection of our facilities.
    QUESTION: The trace detectors at embassies are often used to sample 
vehicles. Some trace detection equipment employs tiny sample traps 
(<0.8 square inch) designed for sampling small surfaces such as luggage 
handles in airport. Does the sample trap used with the systems have a 
large area to allow rapid and efficient collection of samples from 
large surfaces? Sometimes it is necessary to rapidly collect samples at 
multiple locations away from the trace detector. Does the sampling 
system of the trace detector allow remote collection of samples at 
multiple sites without any special holders or accessory devices?
    ANSWER: Yes, to both questions. The equipment that the Department 
purchased allows for rapid and efficient collection of samples from 
large surfaces as well as remote collection of samples at multiple 
sites.
    QUESTION: Have any of the trace detection devices in use by the 
State Department or by other government agencies actually detected real 
explosive devices in the last year? Has the trace detector deployed in 
the pilot program passed all of the FAA's formal laboratory and field 
sensitivity tests? Is it in use by other government agencies who have 
conducted their own evaluation of trace detectors?
    ANSWER: The Department is not aware of any instances where the 
explosive detection equipment fielded has detected a real explosive 
device. However, we do not view this necessarily as a negative, 
particularly since we are not aware of any instances where the 
equipment failed to detect an explosive device.
    The Department's certification effort involves close collaboration 
with the FAA to include review of their final laboratory and field test 
results. Further, the Department co-sponsors and receives explosive 
detection equipment evaluations from the interagency Technical Support 
Working Group.
    QUESTION: Will the trace detector chosen by the State Department 
for deployment in US Embassies be manufactured entirely in the USA?
    ANSWER: To date, all the trace detection equipment deployed by the 
Department of State overseas was manufactured entirely in the United 
States. The Department has recently purchased three trace detection 
units that were manufactured in Canada and partially assembled in the 
United States. In all instances, the equipment has been purchased in 
accordance with the Buy American Act, the Balances of Payments Program, 
the Trade Agreement Act, and other laws and regulations that pertain to 
acquiring foreign supplies, services and construction materials.
                                          Thursday, March 18, 1999.

 U.S. DEPARTMENT OF STATE INTERNATIONAL ORGANIZATIONS AND PEACEKEEPING

                               WITNESSES

PETER BURLEIGH, ACTING U.S. PERMANENT REPRESENTATIVE TO THE UNITED 
    NATIONS
C. DAVID WELCH, ASSISTANT SECRETARY FOR INTERNATIONAL ORGANIZATIONS, 
    U.S. DEPARTMENT OF STATE

                  Opening Statement of Chairman Rogers

    Mr. Rogers. The committee will come to order.
    We are pleased to welcome Ambassador Peter Burleigh and 
Assistant Secretary David Welch to the subcommittee, Mr. Welch 
for the first time, I think.
    We will be discussing today the State Department's Fiscal 
2000 budget request to pay assessments for international 
organizations and peacekeeping activities, including 
assessments for U.S. participation in the United Nations. This 
subcommittee has consistently recognized the importance of a 
strong United Nations and the leadership role that the United 
States must take there. We have also been insistent on 
addressing the widely recognized problems of a cumbersome UN 
bureaucracy, with overlapping functions and agencies badly in 
need of reform.
    We have worked with you to advance an agenda of reform and 
have succeeded in some respects, including staff reductions, 
the creation of an Inspector General function, and the concept 
of zero nominal growth budgets. We also have worked with you to 
limit UN peacekeeping operations to those that the UN is most 
capable of conducting effectively.
    We want to make sure that reform remains at the top of your 
agenda and at the top of the UN's agenda, and we look forward 
to the achievement of further meaningful results along those 
lines.

          Opening Statement of Ranking Minority Member Serrano

    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    I want to welcome both of you today. I recognize the 
tremendous responsibilities that you both have in representing 
the United States in the world community, and I am most 
appreciative of your efforts. I am also aware that our 
subcommittee has to provide sufficient funding in fiscal year 
2000 so that, as a Nation, we can meet our obligations to 
international organizations and to peacekeeping activities.
    As I mentioned when Secretary Albright was before the 
subcommittee last week, I am concerned about our country's 
failure to meet its legal obligations to the UN, and I am 
committed to working with the chairman and members of the 
subcommittee to resolve this funding crisis.
    The United Nations plays an important role in preserving 
world peace, and the United States has a legal responsibility 
to pay its dues, especially if we wish to preserve our 
leadership position. The United States' participation in 
international organizations helps us to advance our foreign 
policy interests and to influence and shape events throughout 
the world. The types of world problems that we face today can 
only be handled in concert with our allies.
    It is also necessary to have a forum where we can discuss 
problems with those countries that we do not count as our 
allies. In addition, I am aware of the many successes that UN 
peacekeeping activities have had in containing and helping to 
resolve conflicts throughout the world.
    I am looking forward to working with you, Ambassador 
Burleigh, and you, Assistant Secretary Welch, to ensure that 
you have the funding that you need to conduct these foreign 
policy activities that are so important to the interests of the 
United States. I thank you and look forward to your testimony.

                Opening Statement of Ambassador Burleigh

    Mr. Rogers. We will make your written statements a part of 
the record. If you would summarize them briefly, we would love 
to hear from you, Ambassador Burleigh.
    Ambassador Burleigh. Thank you very much, Mr. Chairman, and 
thank you for having us here today, you and the subcommittee 
members.
    Thank you, Congressman Serrano, for those words. We do look 
forward to working with the subcommittee, needless to say, on 
this range of issues. And greetings to the other subcommittee 
members. Thank you for coming today. It's a pleasure for us to 
be here.

      importance of international organizations to u.s. interests

    Before addressing the details of the President's funding 
requests, I would like to outline briefly for the committee how 
our active engagement in the international organizations 
directly serves important U.S. national interests and provides 
real, tangible benefits to the American people.
    Threats to U.S. security are increasingly transnational, 
from increased drug trafficking and privately financed 
terrorism, to the spread of weapons of mass destruction and 
deadly infectious diseases. Protecting America's interests in 
this environment requires a multi-national approach that takes 
advantage of burdensharing opportunities and enlists others in 
the pursuit of our goals.
    Secretary Albright highlighted the importance of 
international bodies to U.S. interests in her March 10 
testimony before this subcommittee. Specifically as examples, 
the International Atomic Energy Agency helps protect us from 
the dangers of nuclear proliferation, the World Health 
Organization assists in the global prevention and containment 
of disease, the International Labor Organization helps us 
promote respect for human rights in the workplace, and the Food 
and Agriculture Organization helps us enhance international 
trade in agricultural and fisheries products.
    Our membership and participation in these organizations 
benefit the United States by promoting growth, quelling 
regional conflicts, and encouraging nuclear nonproliferation, 
arms control and disarmament.
    At the United Nations, where I now represent the U.S., our 
participation extends America's influence and allows us to work 
with others to address global challenges. By operating in 
regions where the U.S. has compelling foreign policy interests, 
the UN enables us to avoid the greater costs--financial and 
otherwise--associated with protecting those interests 
unilaterally.
    One example is Kosovo, where the UN High Commissioner for 
Refugees provided immediate assistance to protect thousands of 
displaced persons as winter approached during this past fall. 
Another is Afghanistan and Burma, where the UN has served U.S. 
antidrug efforts by reducing the acreage devoted to poppy 
cultivation. And in Africa and other epicenters of the HIV 
crisis, the Joint United Nations program on HIV/AIDS works to 
provide treatment and sponsor prevention programs.
    Still another example is Gaza, where the UN Development 
Program's Programme of Assistance to the Palestinian people is 
supporting the peace process by targeting the high level of 
unemployment and underemployment there.
    By promoting peace, providing humanitarian relief, and 
fighting global health crises and drug trafficking, the UN 
system has proved to be an effective forum for pursuing U.S. 
interests around the globe.
    Mr. Chairman, for these and other functions, the 
administration is requesting $963.3 million for fiscal year 
2000. In my view, this represents a modest investment toward 
promoting U.S. interests. Full funding for this account will 
allow us to meet our international obligations to a host of 
organizations that serve our interests and to bolster our 
influence within those bodies.

                       un peacekeeping operations

    Mr. Chairman, the administration is also requesting $235 
million for contributions to international peacekeeping 
activities. We have requested the full amount due to the 
inherent unpredictability of peacekeeping requirements.
    While peacekeeping costs have recently dipped with the 
collapse of the Angolan peace process, and the premature 
termination of the very successful UNPREDEP force in Macedonia, 
new costs may arise from developing crises on the African 
continent and in regions like East Timor where positive 
political evolutions are underway. Peacekeeping requirements 
may be difficult to predict, but the importance of these 
missions to securing our national interests is not.
    One of the best examples of this I can offer is the 
preventive deployment in the former Yugoslav Republic of 
Macedonia. For several years, UNPREDEP has served America's 
interests in the region by showing international resolve to 
prevent the spread of conflict. And in Bosnia and Herzegovina, 
UNMIBH, as we call it, has played an important role in 
promoting peace and stability.
    Peacekeeping operations are evolving and have begun to 
enlist regional organizations to assist in maintaining 
international order. The West African force, ECOMOG, is a good 
example of this. Its efforts in Sierra Leone, Guinea-Bissau and 
elsewhere in West Africa have prevented an unfortunate 
situation from growing even worse.
    UN peacekeeping operations continue to be a useful method 
for the international community and the U.S. to manage crises 
more efficiently, and more cheaply, than any other readily 
available method.
    And with the concerns of Congress in mind, we have pressed 
for improved management and oversight of these operations. As a 
result, the UN Department of Peacekeeping Operations has 
developed a valuable mission planning capacity, and the UN 
Office of Internal Oversight Services has improved its efforts 
at investigating waste, fraud and abuse, conducting audits of 
all 17 peacekeeping missions in the field during the last 
year's reporting period. We will continue to work with the UN 
to make the greatest use of this critical burdensharing 
mechanism.

                               un arrears

    Finally, Mr. Chairman, the administration has requested 
$446 million for arrears payments. As you know, we have long 
been in arrears to the United Nations. This situation has 
eroded our international standing, hurt our relations with our 
closest allies, and provided fodder for our adversaries' 
international public relations campaigns against us.
    In New York, our failure to pay our arrears has also hurt 
us in several concrete ways. We have been unable to lower our 
regular budget and peacekeeping assessments, resulting in 
unnecessary costs of approximately $118 million per year.
    We have lost two critical elections to what is called the 
ACABQ, and could begin to lose other elections as well. In 
addition, increased resentment over arrears has isolated us on 
budget discipline and other much-needed reforms at the UN.
    While we have made significant progress in reforming the UN 
bureaucracy, as you have pointed out, Mr. Chairman, in your 
introductory comments, our ability to hold the budget cap and 
effectively press for additional reform will depend on our 
progress on arrears.

                           un reform efforts

    Mr. Chairman, over the last several years, over 900 UN 
posts have been cut, overhead is being reduced from 38 percent 
to 25 percent of the regular budget, and three large 
departments have been merged and streamlined. The Office of 
Internal Oversight Services was created and is functioning 
efficiently, and the UN has maintained no-growth budgets for 
the last two cycles.
    As I said, we have taken great strides on reform, but the 
administration believes that there is much more work to be 
done. We are determined to hold the budget line on the next 
biennial budget. We will fight to ensure that the Secretary 
General and the General Assembly break with past practice and 
adhere closely to the rules of results-oriented budgets, 
program evaluation, and elimination of obsolete programs. And 
we will continue our efforts to strengthen internal and 
external oversight at the UN. But these goals will be difficult 
to meet so long as the arrears issue continues to undermine our 
credibility.
    We appreciate, Mr. Chairman, the need to work closely with 
the Congress on reform and on a comprehensive plan to pay our 
arrears. We greatly appreciate this subcommittee's support of 
the President's fiscal year 1998 and 1999 arrears requests, and 
ask for your support this year to ensure maximum U.S. influence 
within international organizations.
    I would like to close by noting once again that 
international organizations are essential vehicles for debate 
and international action in pursuit of U.S. objectives. Through 
them, we can strengthen our security, protect our vital 
interests, ensure the safety and economic prosperity of our 
citizens, respond energetically to humanitarian crises, and 
maintain America's leadership role in the world well into the 
next century.
    I thank you, Mr. Chairman, and both Mr. Welch and I would 
be happy to reply to any questions that you or your colleagues 
may have.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Rogers. Thank you, Mr. Ambassador.
    Mr. Welch?
    Mr. Welch. In the interest of time, I have decided not to 
make an oral statement. I'm glad to be here today to meet with 
and work with you all.
    Mr. Rogers. The gentleman knows how to work this Congress. 
[Laughter.]
    Well, thank you very much, both of you, for your testimony.
    Now, you're asking for an additional $446 million for 
arrears for international organizations, on top of the $575 
million that we have already appropriated awaiting 
authorization. Correct me if I'm wrong. Of that amount, $712 
million would go to the UN and $309 million to the other 
organizations, is that correct?
    Ambassador Burleigh. Mr. Chairman, if I could just 
interrupt, on some of these figures I think Mr. Welch and I are 
both going to refer to our briefing books to get into the 
specifics, if you will excuse us for doing that.
    Mr. Rogers. We won't mind that at all. You'll find us 
referring to notes, as well.
    Now, to get those funds released, you need to work out a 
package of reforms that the UN must undertake as a condition 
for the release of the funds.
    Ambassador Burleigh. Yes.
    Mr. Rogers. My understanding is that you have begun to work 
with both the House and Senate authorization committees on the 
package of reforms, is that correct?
    Ambassador Burleigh. Yes.
    Mr. Rogers. What can you say about that?
    Ambassador Burleigh. Let me make several points.
    The challenge here for us all is to create a package, as 
you say, Mr. Chairman, that meets several needs, that enables 
us to pursue the kind of reforms and efficiency changes in the 
UN and the UN system that we all agree with. I think the 
Congress and the administration are at one on most of the core 
reform issues at this point in time, and we have succeeded, as 
I tried to outline in my statement, in establishing a lot of 
those reforms. They are working, including the equivalent of an 
inspector general system which is new to the UN system.

             promoting reform efforts to the un membership

    We have to have a package, however, that is not just 
acceptable to the Congress and the Administration, but 
something that I can sell in New York. And by ``sell,'' I mean 
most of the decisions that are outstanding now will be decided 
not by a single individual, not by the Secretary General of the 
UN, who has taken a lot of steps, using his own authority--and 
many of those I mentioned are a result of the decisions he has 
made; for example, reducing the number of employees. This is 
something within his jurisdiction.
    The remaining kinds of reforms we're looking for have to do 
with or require a vote of members of the UN. There are 185 of 
them. We're one vote out of 185. We have to convince a majority 
of those to go along with us, including on key questions like 
reducing our assessment rates, which is something the 
Administration is committed to do and which Congress has been 
interested in our pursuing for several years.
    So we have to have a package that meets both of those 
needs; that is, what the U.S. wants, both the Congress and the 
Administration, and what we can actually sell in New York to 
the membership.
    I would end my comment by saying it has been increasingly 
hard for us to push on reform issues this past year because of 
the disappointment, the widespread disappointment--and I would 
say disillusionment--in New York that the U.S. hasn't come 
through with an arrears package that everyone there had hoped 
would be forthcoming two years ago and then again last year. We 
all know there are various reasons for our not paying those 
bills, and whatever one thinks of those reasons, the reality in 
New York is that it has undercut our ability to vigorously and 
effectively push many of these still outstanding reform issues, 
and also push to make sure that those that have been instituted 
are implemented as effectively and as aggressively as possible.
    Mr. Rogers. Is it your view that any reform that would 
require a vote of the General Assembly would fail?
    Ambassador Burleigh. Not any, but I have flagged three that 
are very much on my mind. One is continuing budget discipline, 
given the good record of the past two years of the UN regular 
budget; next is the question of results-based budgeting in 
general, including sunset provisions for new UN programs; and 
the third is what I would call the broad area of oversight and 
accountability for UN institutions, departments and employees.
    All of those are controversial in the UN, starting with the 
budget discipline. There is a widespread feeling, I would say, 
amongst many of the members of the UN, that there has been kind 
of a retrenchment and downsizing going on now for the past 
several years, as reflected in the budget discipline that the 
UN administration has been able to manage, and they're tired of 
it. In their minds, there was an implicit, if not explicit, 
understanding that if they did that kind of discipline, 
including the downsizing, that the U.S. would be paying its 
arrears, so as to get the UN out of its very serious financial 
situation. The fact that we haven't been able to do that yet 
makes it more difficult for us to press these reforms 
effectively.
    I don't want to talk for too long, Mr. Chairman, but on 
this point I want to also emphasize that we are not alone at 
the United Nations in seeking reforms. There is a coalition of 
countries who normally associate themselves with our efforts, 
including the European Union countries, broadly speaking, 
Japan, Australia, and several others, who are, taken as a 
group, the major donors of the United Nations.
    But our problems on a lot of these reforms are with the 
vast membership of the UN, who when we talk reform they see 
less, and when we talk about efficiency, they talk about fewer 
functions and fewer programs that are in their national 
interests. So part of the politics of our efforts and the 
challenge to us in New York is to convince the majority of the 
membership that we're serious about having a healthy, vigorous, 
well-functioning UN, and that when we talk about reform, we are 
talking about that kind of UN, not as a code for undermining or 
reducing the UN's effectiveness or breadth of activities.
    Mr. Rogers. Well, I'm not going to, in this forum, attempt 
to negotiate a set of reforms that I gather the Senate 
authorization committee is going to dictate in exchange for the 
Holbrooke nomination--just to be blunt with you.
    But, it is something that I think we should talk about in 
the due course of time. I would welcome a discussion with you 
on how we can try to be helpful in resolving a stalemate. I 
think it needs to be resolved, and I would hope we could help 
in that process.
    Ambassador Burleigh. Mr. Chairman, may I just insert here 
that we welcome that, and we are extremely appreciative of this 
subcommittee's longstanding efforts in that regard. We intend 
to be in touch with you and other key members of the 
subcommittee as early as next week.
    Secretary Albright has designated David Welch, our 
Assistant Secretary, to be the point man on this issue with the 
Congress. I will be coming down as much as possible as well. 
I'm wearing two hats now. You know, we don't have a permanent 
representative at the UN since Bill Richardson left to become 
Secretary of Energy, and we are waiting, as you just noted, for 
Dick Holbrooke's confirmation to be approved by the Senate. It 
has been eight months now since we've had our senior most 
representative there. So I'm wearing both my old hat, which is 
number two in our mission, and my current hat as Charge 
d'Affaires.
    But this is something in my assessment, and especially now 
that I've spent 20 months representing the U.S. at the UN, we 
have to get it done this year. If we don't, this is a major 
problem in the pursuit of our very important national interest 
in the UN system.

                       un biennium budget request

    Mr. Rogers. The General Assembly accepted a budget outline 
in December for 2001 that does not continue the no-growth 
budget that we have insisted on, but instead would allow a net 
increase of $13 million before taking into account inflation.
    What is your position on the new UN biennium budget? Will 
the U.S. insist on a no-growth, negative growth budget?
    Ambassador Burleigh. Yes. We're going to continue our 
efforts to keep the cap on, no growth. The adoption, as you 
rightly pointed out, took place in December. It's the first 
step of several in a process before a budget is actually 
adopted.
    That budget for the biennium 2000-2001 won't actually be 
adopted until December of '99. But there will be a series of 
important steps in committee, where we will be able to continue 
to assert our views and actually get a better coalition 
together of like-minded countries who will support us on that.
    I would only say this is another example of, if we are 
perceived--my assessment now is that if the U.S. is perceived 
as moving this year to actually pay both the arrears as well as 
keeping up with our current payments, which we are doing, that 
we will have much greater ability to influence that question, 
Mr. Chairman, in the way we want.
    Mr. Rogers. Back in December Ambassador Sklar, our point 
man on budget reform, complained of a lack of interest within 
the UN Secretariat for curbing future spending and adopting 
more efficient management.
    Do you agree with his assessment?
    Ambassador Burleigh. Well, I'm a diplomat by training, and 
Ambassador Sklar is a private sector businessman, so let me 
start with that. [Laughter.]
    We have some problem with some of the attitudes amongst the 
UN Secretariat with regard to budget discipline, just as we do 
amongst some of our fellow member states of the UN.
    But, in general, I would actually like to make a very 
important point, which is that under the current administration 
at the UN, under the current Secretary General and his senior 
appointees, the record of the UN Secretariat has been much 
improved. Kofi Annan himself I think deserves a lot of credit 
for taking those steps, many of which are unpopular within the 
organization.
    But, having said that, he and his primary deputies, 
including a new Deputy Secretary General, Louise Fechette of 
Canada, who has been charged by the Secretary General to manage 
the ongoing reform process and implementation of already 
adopted reforms, they are working hard within the Secretariat 
to press their views on their own organization, as we are 
amongst the member states--let's put it that way. We would like 
the member states to be more responsive on these issues, and in 
some cases we would like the Secretariat officials to be more 
conscious of their responsibilities in this regard.
    Mr. Rogers. There was also criticism that Ambassador 
Sklar's absence from key committee meetings may have been a 
contributing factor to the acceptance of the budget outline 
that doesn't meet the U.S. standards. Is there any validity to 
that criticism?
    Ambassador Burleigh. No. These accusations that have been 
made against Ambassador Sklar I think were not well founded. We 
have actually sent--and I can provide you, Mr. Chairman, and 
other subcommittee members with a kind of review of where 
Ambassador Sklar has been over the past several months, because 
he does attend meetings outside of New York that are related to 
UN management questions that are very important for us to be 
represented in, too. And he has also been asked by the 
Administration to do some important mediation work in the 
Balkans region, Bosnia as well as in Croatia.
    But in particular, this accusation that because of some 
absence in December this budget outline got approved is not 
accurate. We were there in full force and we were represented 
throughout all deliberations well into a series of late night 
sessions.
    We just lost that--we couldn't bring a majority of the 
members along with us in this regard.
    [Clerk's note.--Subsequent to the hearing, the following 
additional information was provided:]
                    Ambassador Sklar/Official Travel
    In 1998 Ambassador Sklar was away from New York on official 
business for approximately seven weeks. Throughout his travel, 
Ambassador Sklar was in close contact with the Deputy U.S. 
Representative to the UN and with the Mission's Counselor for 
Management and Reform.
    Contrary to press reports, the Counselor for Management and Reform 
who represented the U.S. in meetings during Ambassador Sklar's absences 
was of rank equal or senior to virtually all of the negotiators from 
other UN member states participating in those meetings and 
negotiations.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          zero growth budgets

    Mr. Rogers. The new Director General of the World Health 
Organization is said to be proposing a zero real growth budget, 
which would set a precedent for all the budget negotiations 
coming up this year and, frankly, undo what this committee and 
the Department has been trying to do, which is to hold these 
organizations to zero nominal growth.
    Will you insist on zero nominal growth?
    Ambassador Burleigh. Let me ask David Welch if he would 
like to give that one a try.
    I want to say that we recognize that this is an extremely 
important issue, because the WHO is one of the major UN 
agencies. We certainly don't want to start a trend. We want to 
keep at zero growth.
    Mr. Rogers. Zero nominal growth?
    Ambassador Burleigh. Yes.
    Mr. Welch. Mr. Chairman, I think this issue, in the case of 
the WHO, is particularly poignant because, as Ambassador 
Burleigh mentioned, one aspect of the new leadership in the UN 
system is Gro Brundtland, who is the new head of the WHO. Her 
candidacy was strongly supported by the United States. She has 
undertaken a number of innovative steps within the organization 
that we think are laudable.
    With respect to our budget policy on the ILO, WHO, and FAO, 
in each of the budget negotiations for those specialized 
agencies we are trying to hold the line on any increases. At 
the ILO, their draft budget for the next biennium 2000-2001 is 
being debated. It has come in at zero nominal growth.
    The Director General of WHO, we expect to put forth a draft 
budget calling for zero real growth. Our preliminary 
indications are that this could result in perhaps a three 
percent increase, an amount in absolute value terms of around 
$30 million. Our response to this is that we expect to see a 
zero nominal growth budget and that cost increases of the kind 
that she is trying to address would be absorbed within the 
efficiencies brought by reform within her organization.
    With respect to the FAO budget, we don't have that until 
later in the spring. But again, our position on a budget 
proposal there would also be zero nominal growth.
    Mr. Rogers. My understanding is that Secretary Shalala is 
pushing for zero real growth, as opposed to what you say your 
position is, which is zero nominal growth. Do you know anything 
about that?
    Mr. Welch. Let me respond in the following way: All of 
these organizations have their audiences and their supporters 
in the United States for their work, including within the 
Administration. And WHO has a large following. But our policy, 
the policy of the administration, set by Secretary Albright in 
this regard, is to call for zero nominal growth in these 
agencies.
    Mr. Rogers. And can you be enthusiastic about that? 
[Laughter.]
    Mr. Welch. Well, not only are we enthusiastic, we are 
committed to trying to get that as a result. [Laughter.]
    Mr. Rogers. Mr. Serrano?
    Mr. Serrano. Thank you, Mr. Chairman. Mr. Chairman, with 
your permission, I would like to submit for the record a letter 
signed by former Secretaries of State Kissinger, Haig, Shultz, 
Vance, Baker, Eagleburger and Christopher, asking that we pay 
our dues to the UN and come up to date. I think it is a very 
good group of people that make an excellent point and one that 
I hope we can deal with as this session goes on.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Did you ask them where they would find the 
money?
    Mr. Serrano. No. In fact, when they were Secretaries of 
State, they never dealt with that issue. [Laughter.]
    And I think, keeping to their style, they just made the 
suggestion. [Laughter.]
    So I really think it is very well done on their part, and I 
accept it in that spirit, and I am sure you will accept the 
letter in that spirit, too.
    Mr. Rogers. This changes everything. [Laughter.]

                       the general assembly vote

    Mr. Serrano. What is the likelihood that the U.S. would 
lose its vote in the General Assembly this year and how would 
the loss of vote effect the U.S. leadership? And before you go 
on, by the way, I wanted to join the Chairman in thanking you, 
Mr. Welch, for knowing how to get to us by not reading your 
statement and you knowing how to get to me by referring to the 
UN as New York. [Laughter.]
    I like that. The General Assembly vote, please.
    Mr. Welch. Well, let us, if we might, divide that into two 
parts. I will try at the calculation, and Ambassador Burleigh 
can try at the effect.
    Article 19, just to recapitulate for members of the 
subcommittee on loss of vote is that it automatically occurs 
when a member state's arrears equal or exceed its assessments 
for the last two years. We are on the borderline, Mr. Serrano, 
with respect to this. We barely avoided loss of vote in 1999 by 
about $25 million. This year, we face this problem again by 
January 2000, unless we make arrears payments, and the problem, 
if we do not make arrears payments, only grows in the following 
year.
    When would we know? We would expect to be informed by the 
UN this fall on the amount we would need to pay in order to 
avoid loss of vote effective beginning of January 2000. We 
think that amount is somewhere in the neighborhood of $100 
million more this year as compared to last year in order to 
avoid Article 19 sanction. But I would have a more precise 
estimate of this by mid-year, I hope, when some of the 
assessments for, among other things, peacekeeping operations 
would begin to come in.
    Ambassador Burleigh. I can only tell you that the kind of 
environment I was describing earlier assumed that we still had 
our vote in the General Assembly; that is, we are in a tough 
environment with regard to the ongoing and new reforms and 
efficiencies that we are pressing, and I think that we could 
assume a further and possibly even dramatic reduction in our 
ability to influence the voting patterns of the General 
Assembly. The General Assembly is where those 185 members sit 
and have to vote on these key questions, like the assessment 
rates. It is that body that will ultimately either approve it 
or not, and it is that body that ultimately approves the 
overall budget issues.
    So if we are to successfully pursue our cap, our no-growth, 
no-nominal growth efforts, we will be badly damaged if that 
were to happen, and I am talking about just practical things. I 
think there would also be a major issue of prestige and our 
leadership at the United Nations and even more questions than 
there are now about how serious the U.S. is in its relationship 
with the United Nations. I say that, but I want to caveat it 
immediately. We still are the largest contributor to the UN 
system. We still contribute, both by assessed and voluntary 
contributions, almost $2 billion a year. But despite that, we 
have definitely suffered an erosion of our influence for the 
reasons we were talking about earlier, and I think it would be 
much worse.
    The other countries that have lost their vote are countries 
that are either bankrupt or in the midst of civil war----
    Mr. Serrano. Such as?
    Ambassador Burleigh. Well, there are several African 
states, a few of the former Soviet Union states, Iraq, former 
Yugoslavia. So the company is not the company the United States 
should be in.
    Mr. Rogers. Would the gentleman yield on that point? But 
they would not want to cut off one-fourth of their annual dues, 
would they, and a third of their peacekeeping monies?
    Ambassador Burleigh. No, they really----
    Mr. Rogers. By taking away our vote. That would not be a 
smart move on their part, would it?
    Ambassador Burleigh. My sense, though, Mr. Chairman, is 
that if we looked for an exception to be made for the U.S., if 
we were in a state where under the normal standards, which we 
usually insist on enforcing with other countries, if we were to 
ask for an exception, I doubt that we would get it, despite the 
really disastrous implications that would have for the 
organization if we were to follow that with, in effect, a 
financial withdrawal from the UN system.
    I, also, should note that even if we were to lose our vote 
in the General Assembly, which would have these very negative 
impacts on U.S. interests, we would continue in the Security 
Council to have our vote. That is not effected by this Article 
19 issue.

                u.s. role in international organization

    Mr. Serrano. But let me ask you a question, and I am trying 
to get a hold of this. The money we pay is it one lump sum to 
the UN or do we also pay dollars to different organizations in 
the UN? And as such, are we also risking any influence or any 
involvement we have in those organizations within the UN?
    Ambassador Burleigh. Yes, very much so. And in part of the 
proposal that is in front of the subcommittee now, it lists, is 
it 57 all together? I have forgotten. Anyway, it is a very 
large number of international organizations, including some of 
the big ones we were just discussing, the World Health 
Organization and the Food and Agricultural Organization, 
International Labor Organization. On all of these, the payments 
that we are requesting that are before you now are our 
contributions to their budgets as well, as well as the UN 
Secretariat.
    Mr. Welch. But if I understand your question, to the extent 
there are arrears in other organizations, those may have 
implications, including possible loss of vote, in some cases, 
in those organizations.
    Mr. Serrano. We have not lost our vote in any of those yet, 
right?
    Mr. Welch. No, not yet.
    Mr. Rogers. Would the gentleman yield?
    Mr. Serrano. Sure.
    Mr. Rogers. I am really concerned that we maybe might lose 
our vote on the International Office of Epizootics. Can you 
assure us that we are okay on that?
    Mr. Welch. You know, since I am new at my job, Mr. 
Chairman, I had to look that one up, too, as to what an 
epizootic was.
    Mr. Serrano. I am almost tempted to say, reclaiming my 
time, but----
    [Laughter.]
    Mr. Rogers. And the other group that we must be careful 
about is the International Order of the Wine and Vine.
    Mr. Welch. Yes, sir. Those are among the international 
organizations that we do support with our contributions. Wine 
and Vine at least you can figure out what that is. Epizootics I 
had to look up in the dictionary.
    Mr. Rogers. So did I.
    Mr. Welch. Parasites.
    Mr. Serrano. Parasites?
    Mr. Welch. Well, it has to do, the organization does, among 
other things, control animal parasites.
    Mr. Serrano. I am still trying to figure out some regular 
English words, so----
    [Laughter.]
    Mr. Serrano. Now, for the record, I am though concerned 
about those organizations that we do know and respect, such as 
the World Health Organization, the International Labor 
Organization, the Food and Agricultural Organization and our 
role there.

                         history of un arrears

    There is one question I would like you to answer because 
one of the things that I found out in the years I have been in 
this body is that a lot of times there is a debate on the floor 
and in committee and we are either, some of us, embarrassed or 
just not attuned to saying how did that problem get started? I 
am dealing with it now, and not everybody has the information. 
What was it? Was it that we were claiming that we were being 
assessed too much money and, therefore, that created this 
problem? Because this problem did not start last year. It has 
been around for a while. How long has it been building up?
    Ambassador Burleigh. Since the, roughly, 1993/1994 period, 
and it is compounded every year because there are two basic 
budgets in the UN organization in New York. One is called the 
regular budget, and on that we are roughly up with our current 
payments, but the other is peacekeeping budget. We split them 
in our presentation here to you all, and we are assessed at a 
31-percent rate for peacekeeping operations, and we pay at a 
25-percent rate because of legislation that was passed in 1995, 
I believe.
    So there is a gap of 6 percent each year between what we 
are assessed and what we pay, and that compounded and added to 
some of our other withholdings earlier for other reasons, 
matters of policy having to do with some particular issues like 
Palestinian issues, where we have been instructed, again, 
through legislation to withhold our contributions. Anyway, this 
has been compounding, and it has reached the volume we are at 
now.
    Mr. Serrano. Mr. Chairman, I certainly am going to yield my 
time now so if our colleagues have some questions. But I have 
to tell you that this is really more serious than I think some 
people would like to think. It is what we have been taught. We 
have been taught that if you do not pay your bills, you have no 
respect in the community, and I guess pretty soon we are not 
going to have respect in that community if we do not pay our 
bills. And I just would hope, on a bipartisan basis, we 
understand that there are some problems, and we should deal 
with them, but we should not just continue not to pay because 
eventually we are going to have to pay a price for not paying 
our bills.
    Thank you.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman. I concur. It is very 
unfortunate that the authorization was vetoed last year and 
that is the problem.

                       un efforts on tuberculosis

    Apparently, one global problem we are having is 
tuberculosis. Is the World Health Organization acting on this 
particularly in Russia? I mean, it is affecting us here, 
apparently. Are you familiar with the situation?
    Mr. Welch. Just in general, Congressman. I was in Geneva 
not long ago and got a briefing from the WHO on their major 
health programs, one of which is to combat tuberculosis, which 
is particularly virulent in Russia and parts of the former 
Soviet Union. But also it has an impact within our country 
because, as I understand the spread of the disease, it has a 
Southern United States component, too. It is a major concern 
for them, more than their major initiatives.

                           the western sahara

    Mr. Latham. We were in Morocco with the Chairman last year, 
and the Western Sahara question was in the forefront of 
discussion. Could you update us or where we are there; if the 
progress that they were so hopeful for last year has 
materialized?
    Ambassador Burleigh. Yes, I am happy to. It continues to be 
a both complex and kind of fragile political situation. Let me 
just summarize it roughly as follows: The most current 
information is that the UN now believes that it has Government 
of Morocco agreement to move forward on the identification of 
those people who might be voters in the ultimate referendum.
    I think when you were there, you were already, as we have 
been for some time, quite impatient on this slow process. And 
we have been doing whatever we could to encourage our friends 
in Morocco to, in effect, bite the bullet and make a decision 
about whether the Government of Morocco is going to facilitate 
the conclusion of this review of who the people are who might 
vote in a referendum.
    In this regard, as I know you know, former Secretary of 
State James Baker is the personal envoy of the UN Secretary 
General, and he is deeply engaged again this month on trying to 
move this process forward. It has been slower than it should 
be. We have been telling the Moroccans that repeatedly. As I 
say, the UN now believes they have something of a breakthrough 
with regard to Moroccan agreement to move on this process. But 
it will take another few months I think before we are clear 
that this is a real commitment from the Moroccan side to move.
    If it does not move, I understand that James Baker's 
intention is to press to move this process forward. But if he 
reaches the judgment that it is not going to move forward, for 
whatever reason, then the UN and the parties will have to 
reconsider how they will deal with the problem. Some people are 
speculating that there may, in fact, be a negotiated resolution 
as opposed to having this referendum. But that is not yet a 
decision that has been made.
    So in the meantime, and we are very aware of the views of 
the subcommittee with regard to this, we have continued to 
support the extensions of the MINURSO, the UN peacekeeping 
operation there. Frankly, we are very worried that should there 
be a withdrawal of MINURSO that the situation might revert to 
conflicts, and we all want to try to avoid that, to the extent 
we can.
    Mr. Latham. I think I am going to submit the rest.
    Mr. Rogers. Well, it is news to me if there is progress in 
MINURSO. I mean, it has been nine years, $350 million later 
that we are still hearing that you are going to have an 
election that we were promised in 1991, and you are still 
registering voters, or the UN is. But I am told now that, 
yesterday, that Charles Dunbar, the American who is Kofi 
Annan's special representative there for him, whom we met with 
and visited with in Morocco last year, has now resigned. He had 
said he would resign if he ever felt the situation was futile, 
and I could have told him that three years ago. [Laughter.]
    But for all practical purposes, do you not agree we are 
back to a stalemate, no prospect for a quick resolution and 
lots of dollars ahead of us?
    Ambassador Burleigh. We have been unhappy with the slow 
pace there for a long time, for years, but particularly this 
past year, 1998. We are very much influenced by James Baker's 
assessment and advice with regard to this process. But the U.S. 
has been leading, I would say, the effort to convince the 
Government of Morocco to move on this issue.
    With regard to Charlie Dunbar, we had, of course, heard 
that he had resigned. I do not know the circumstances of that. 
I am sorry he did. He was very effective. He is a colleague of 
ours, a retired foreign service officer, and very effective in 
his role there as the special representative of the Secretary 
General, but I do not really have a good comment on that about 
what led him to make that choice.
    I would, Mr. Chairman, also like to say that one way we 
have been trying to do our best in New York to accelerate the 
momentum on this is only to agree to short extensions of 
MINURSO requiring reports back to the Security Council so that 
we can try to keep reminding the parties that it is their 
responsibility to move this forward smartly.
    Mr. Rogers. If this can be of any help to you, you can 
report that the subcommittee chairman intends to direct that no 
further U.S. monies be extended for MINURSO unless they get 
this thing moving real quick, and we are going to markup pretty 
soon.
    Ambassador Burleigh. Okay. I will.
    Mr. Rogers. Mr. Obey?
    Mr. Obey. Thank you, Mr. Chairman. Peter, good to see you.
    Ambassador Burleigh. Very good to see you, Congressman.

                      ASSESSMENT RATE FOR THE U.S.

    Mr. Obey. Let me simply ask one question and make one 
observation. Do you believe that there is any possibility 
whatsoever of getting the support necessary from other 
Governments to reduce our assessment rate from 25 percent to 22 
percent in advance of our paying off our arrears?
    Ambassador Burleigh. My own assessment is we would have a 
chance of getting that done as part of a package, where we have 
demonstrated that we are actually paying our arrears or at 
least substantial amounts of the arrears, as assessed by the 
UN.
    If there is any thought that we could somehow get a vote to 
reduce our assessment prior to paying, I do not think that is 
realistic. We cannot manage it in New York.
    Mr. Obey. Last year, as you know, we missed an opportunity 
to lower our assessment rate for two years because we did not 
pay our arrears. We missed the opportunity not because the 
Appropriations Committee did not appropriate the funds, but 
because the majority leadership insisted on letting authorizers 
dictate the conditions of reform that could not be reached. And 
then, to make certain that the authorization would be vetoed 
and the arrears not paid, the House, in its infinite wisdom, 
backed a totally unrelated rider, the anti-family planning 
Mexico City language, as you know.
    How much has this maneuvering cost the U.S. taxpayer in 
higher assessments?
    Ambassador Burleigh. I think it is about $118 million this 
year. This is the difference between what we could have gotten 
two years ago if we had had a reduced assessment rate. So it 
has been costly in that regard, in financial terms, and it has 
also been politically costly to us. It has reduced our ability 
to press the kind of reforms in the UN that we all are 
committed to, and it has undermined our leverage in the UN in a 
broad range of both political and budget management issues, and 
that is just the facts of life.

                   NOMINATION OF AMBASSADOR HOLBROOKE

    Mr. Obey. You know, I go to a lot of hearings. I usually 
have a heck of a time keeping up with the changes in the 
issues. It is hard to watchdog 13 different subcommittees. But 
on this one it was easy because nothing has changed, nothing 
has changed. Basically, the UN has implemented some reforms. 
The Congress wants more reforms, or so it says, but the 
Congress is not willing to pay the dues that will enable us to 
leverage those reforms because we are stuck in theological 
debates about other issues. And yet we are now being told, 
apparently, if you look at the Roll Call article about Senator 
Helms or look at the Washington Times article about Senator 
Helms, he apparently is saying that he intends to hold up the 
nomination of the Ambassador to the United Nations unless he 
gets the deal that he wants.
    I would suggest that when parties go to the wall in 
negotiations and insist on it being their way or no way, and 
then that deal blows up, if they want to know why the deal blew 
up, all they need to do is look in the mirror.
    I am perfectly comfortable to have you at the UN running 
affairs until the cows come home. I know you. I have got great 
confidence in you, and I do not lust at all for having Mr. 
Holbrooke at the UN. I will be happy if he is there because he 
is a fine public servant, and I am perfectly happy to see you 
there for as long as required with or without Mr. Holbrooke.
    But I do think it is a flagrant abuse of the power of 
Congress, or certainly the part of the Senate, for one man to 
insist that he is going to hold up a crucial appointment to an 
agency in which we have strong and growing national interest 
because he has not been able to get what he considers to be a 
perfect deal on another question. I do not expect you to 
comment on it, but I would simply say that I think this is 
another example of why Congress is held in such low repute 
because individual members seem to often do what Senator Helms 
is doing, and Senator Helms seems to do it on a routine basis.
    So I would simply say it seems to me that the Senate has an 
obligation to consider that nomination up or down on its 
merits, not by playing back-room politics because of ancient 
conditions of senatorial courtesy that really make no sense in 
a modern age anyway.
    That is all I have got to say, Mr. Chairman.
    Mr. Rogers. I would be interested to know the Ambassador's 
thoughts about whether or not----
    Ambassador Burleigh. That was not part of what I was going 
to respond to, Mr. Chairman. I would like to say a couple of 
things.
    One is, I agree with you completely, Congressman, that we 
need a permanent representative at the United Nations. It is a 
problem. We have been 8 months without. I have been in this 
acting position, and I thank you for your words of confidence 
in me. But it is difficult for the U.S., and at a time, 
particularly at the time when we have got these key issues 
pending in the UN system that we have been discussing all day 
here today. So we are looking forward to Dick Holbrooke getting 
confirmed as early as possible, I certainly am, and the whole 
staff is.
    And I would make a second point. I think what we need to do 
is, we need to have a permanent representative. We need to 
vigorously pursue our reform and efficiency efforts at the UN. 
And we need to pay the arrears. We need to do all of those 
things and proceed with them.
    And with regard to the Congress, I will say that we are 
very appreciative of this subcommittee and the work it has done 
over the past many years on this whole range of questions, and 
I want to underscore that.
    Mr. Obey. I guess I would just say that Senator Helms' 
comments in this regard, if they are quoted accurately, sort of 
remind me of trying to play a football game without sending in 
the quarterback. You have got a coach who sends in the signals. 
You have got five assistant coaches in the Congress, so we are 
all arguing with the head coach about what signals ought to be 
sent, and so the way you get even is to see to it that you 
don't even send the quarterback into the game. That doesn't 
make a hell of a lot of sense to me, but not much does in this 
town.
    Mr. Rogers. Mr. Miller.

                        SPECIFICS OF UN ARREARS

    Mr. Miller. Good afternoon. This is my first time on this 
subcommittee, but I need some clarification from the questions 
of Mr. Serrano and Mr. Obey on the arrearage issue.
    Arrearage is often the peacekeeping activities only. Is 
that right? No?
    Ambassador Burleigh. No. We have arrearages in some of the 
specialized agencies, as well.
    Mr. Miller. Go over it by agency, then.
    Ambassador Burleigh. Our proposal here covers a large 
number of international agencies.
    Mr. Miller. Which ones are in arrearage? Is there a 
specific----
    Ambassador Burleigh. We have that. Do you have that?
    Mr. Miller. But most of it is international peacekeeping.
    Ambassador Burleigh. Yes.
    Mr. Miller. The rest is only modest.
    Ambassador Burleigh. Mr. Miller, I think we did never 
answer the Chairman's question at the start also about the 
amounts in question. If I could just tell you what they were, 
generally speaking----
    Mr. Miller. When I was asking about it, I was following up 
on some of that.
    Ambassador Burleigh. We seek to pay $712 million, $54 
million of which would go to the regular UN budget, and the 
bulk of the remainder, $658 million, goes for peacekeeping. 
This is the request that was made by the administration and 
embodied in the authorization language.
    We are also seeking, in addition to that, $309 million for 
other agencies of the UN system. Together those amounts are 
$1.021 billion. That is our request for payment of arrears.
    There are additional amounts that we contest, that the UN 
includes in its calculation of our arrears. The authorization 
legislation that was vetoed had a provision to deal with those 
contested amounts. This committee has appropriated for fiscal 
years 1998 and 1999, $575 million, and in our request we have 
asked for $446 million more for fiscal year 2000 to meet the 
arrearages.
    Mr. Rogers. Would the gentleman yield?
    Mr. Miller. Yes.
    Mr. Rogers. I notice that we owe $31,000 to the 
International Office of Epizootics, correct?
    Ambassador Burleigh. We are quickly checking here, Mr. 
Chairman.
    Mr. Rogers. That is our favorite office.
    Ambassador Burleigh. Yes. Yes.
    Mr. Rogers. And we owe the International Office of the Vine 
and Wine $41,000.
    Mr. Welch. Must be excellent wine.
    Ambassador Burleigh. Yes.
    Mr. Serrano. And I have no comeback lines at this moment, 
so----
    Mr. Welch. The arrearages, organization by organization, 
are figures that we can certainly provide to you.
    Mr. Rogers. Would you, please?
    Mr. Welch. I would be happy to.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  DECREASING THE U.S. ASSESSMENT RATE

    Mr. Miller. Mr. Obey was asking a question, and I am new to 
this subcommittee, so I missed some of this. Mr. Obey was 
saying that if we would pay the arrearages, we would get a 
lower assessment rate from the UN. Is that the agreement?
    Ambassador Burleigh. There is no agreement on the UN side, 
but our package proposal would be that we would go ahead and 
seek to reduce the assessed rates on both budgets, the regular 
budget in the first instance from 25 to 22 percent--we now are 
assessed 25 percent--and on peacekeeping we are assessed at 31 
and we would like to go down to 25, which is what we are----
    Mr. Obey. Would the gentleman yield?
    Mr. Miller. Yes.
    Mr. Obey. The Chairman of this committee, rightfully so, 
has been asking that we try to reduce our share of costs for a 
variety of UN agencies. The argument is simply whether or not 
you have leverage in getting that done when you are the biggest 
deadbeat on the block; or whether by paying your bills, as part 
of that process you can use that payment to in fact leverage 
those lower rates, to save our taxpayers some money, as the 
chairman is trying to do.
    Mr. Miller. And you are saying the amount, in responding to 
Mr. Obey's question, $118 million, what was that? That is how 
much we would have saved if we would have negotiated this 2 
years ago, if we could have gotten new assessment rates?
    Ambassador Burleigh. Yes, annually.
    Mr. Miller. Correct?
    Ambassador Burleigh. Approximately, yes.
    Mr. Welch. Mr. Congressman, you said we would ask the UN to 
lower these rates. Actually we have to go to the member states 
and get them to agree that those assessment rates--they would 
have to vote on it.
    Mr. Miller. Why would they agree to that, which means they 
have to raise their own assessments?
    Mr. Welch. Well, we think we would have leverage if we had 
the arrears in hand to provide.

                       ONGOING UN REFORM EFFORTS

    Mr. Miller. You mentioned some reforms that have been 
accomplished but then some reforms that haven't been 
accomplished. Could you elaborate a little bit about the types 
of reforms that you're having the roadblocks on?
    Ambassador Burleigh. Roadblocks, I would describe some of 
these as processes that have been going on over a few years. 
One is oversight and accountability.

                          INCREASED OVERSIGHT

    Under pressure, and with the enthusiastic support of the 
U.S., the UN opened an office that is more or less the 
equivalent of an Inspector General's office, and it has become 
increasingly active and effective, I would say, and efficient, 
and it reviews and tries to identify, as our Inspectors General 
do, institutional weaknesses, management practices that might 
lead to waste or fraud or abuse.
    On the UN side this has been, in the UN Secretariat and 
including the peacekeeping part of the Secretariat, this has 
been in our view increasingly effective and increasingly 
assertive of its right to do this. On an annual basis it looks 
into issues. It has also done some research and investigations 
relating to past practices where there may have been some 
problems, with regard to contracts, for example. In other 
words, it has done a lot of the kind of work that an Inspector 
General would do in our Federal Government.

                             ACCOUNTABILITY

    We want to continue to support that effort, make sure that 
it is staffed with excellent investigators and accountants and 
so on, which it is now. But we also want to make sure that 
individuals are held accountable, and I would say that there 
has been--we haven't gone far enough yet in establishing within 
the UN sort of culture, if you can call it--if that is the 
right description of it, a culture of accountability, personal 
accountability, the way we would have in our government 
structures here. So that is an example of an area where more 
work needs to be done.
    We have, in writing, assurances from the Secretary General 
of the United Nations and his Deputy Secretary General that it 
is their firm intention to move, to continue to move in that 
direction and to hold individuals accountable. I am talking 
about if they do find fraud, that there would be some legal 
action taken against individuals.
    Mr. Miller. That is not done today?
    Ambassador Burleigh. In general, not done. And we think 
there probably are circumstances where it should be done more 
frequently. But that is on a case-by-case sort of judgment 
about what needs to be done. That is one example.

                        RESULTS-BASED BUDGETING

    We would like to have a much stricter system of results-
based budgeting, so that you have a project, an enterprise in 
the UN that is supposed to last for 3 or 4 years and its goal 
is to do X. We would like to have a system so that as part of 
the authorizing of that to begin with, and establishing a 
mandate, that there be clear requirements for what is expected 
to be accomplished within the time frame, and if it isn't, then 
a review and explanations why it hasn't effectively been able 
to meet the goals.

                     enactment of sunset provisions

    And also, related to that, sunset provisions. In other 
words, agreement when new enterprises are established that when 
their function is accomplished, if it is a finite, specific 
function, that there be a time for it to close. One of the 
problems at the UN is that functions start and get 
constituencies, let's put it that way. This is not the only 
organization in the world for which this might be the case, but 
at any rate, it is a problem at the UN, and blowing the whistle 
and sort of closing something down is very difficult.

                          budgetary discipline

    And the final one is the one we were mentioning earlier 
with the chairman, which is in general continuing budget 
discipline, and it varies slightly in the different specialized 
agencies as well as the UN and certainly the peacekeeping 
operations. But the culture has to be changed, and it is in the 
process again of being changed, and they have stuck--the last 
two budgets have stuck with their cap, essentially. We are very 
insistent that be the case for the 2000-2001 budget, which is 
what we are debating now and will be for the next several 
months, whether we can keep the cap or not.
    Those are works in progress where we need as much leverage 
and clout that we can bring to bear on the situation, and I was 
relating that fact to the need to pay our dues, essentially. It 
will help us do that job right.
    Mr. Miller. Thank you.
    Mr. Rogers. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.

                             the un and y2k

    Mr. Ambassador, you mentioned earlier that 8 months ago our 
friend and former colleague, Bill Richardson, jumped out of the 
skillet at the UN and apparently into the frying pan at the 
Department of Energy.
    He appeared 2 weeks ago before the Interior subcommittee on 
which I serve and asked, by surprise, for a $14 million 
emergency appropriation to bring the nuclear reactors in the 
former Soviet Union into Y2K compliance because they weren't 
doing it. They weren't doing much of anything, and the threat 
of people freezing to death or some kind of catastrophic event 
like Chernobyl happening again caused him to say we have got to 
deal with this.
    The question I have is, what does the UN do and what role 
does the UN play on that particular issue of Y2K around the 
world? The folks back in Tennessee where I am from, they can't 
understand a lot of the peacekeeping missions. Why, we debate 
that all the time. But I think they are concerned about the 
effect Y2K will have, not necessarily in this country because 
they feel like we are catching up as quick as we can, but 
globally, particularly when it comes to things as serious as 
nuclear reactors.

             accountability for foreign assistance funding

    And it also seems like some of the money that we give to 
foreign countries--and I know the Foreign Ops bill is one thing 
and UN participation is another--but from North Korea to the 
Soviet Union, it seems like money goes that is supposed to help 
solve problems, that the money ends up doing other things and 
it doesn't get there. I mean, what kind of accountability is 
built into this thought that U.S. taxpayer resources actually 
get to where they are going overseas?
    Ambassador Burleigh. Yes. Let me start with that latter 
one. I mean that is exactly the kind of reform and efficiency 
that we are trying to get the UN to apply to all its programs. 
In other words, it says it wants $30 million to do Project X.
    We are saying, ``Okay, we'll look at that seriously, but 
let's define the project clearly. We want to know the scope of 
its mandate and exactly what it is you have in mind. We want to 
know exactly what you expect to accomplish, and we want an 
estimate of when that would be, how many months or years it 
would take to accomplish it.''
    And then have a structure so that there are reviews as you 
go along the process, to try to see--try to assure yourself 
that the money is being well spent and that the project is 
doable roughly within the time frame estimated, or if not, why 
not? And then an assessment needs to be made about is this--is 
the reason for the ``why not,'' if it is ``why not,'' 
inefficiency or lack of good management, or is the problem more 
complicated and something we all can understand, and then we 
would also authorize maybe a longer period of time to 
accomplish it.
    In other words, what I could call a kind of rational 
approach to any sort of undertaking, and getting that in any 
large organization is not easy. But that is what we are trying 
to do in the UN, and we have made some progress there.

                           un efforts on y2k

    With regard to the Y2K, the organization itself has been 
fairly active in ensuring that its systems are okay worldwide 
and in its specialized agencies. They hosted, with World Bank 
assistance, they hosted a big international meeting on Y2K for 
all UN members in November or December.
    Mr. Wamp. Recently.
    Ambassador Burleigh. Yes, very recently, and they 
discovered that--and they invited national Y2K committees from 
all member states, all 185. Many didn't have them. We do. The 
White House has established one, as you know. We were strongly 
represented there by our Y2K committee, and they started 
networking.
    Now, admittedly this was pretty late. It was late in '98 
already. But it did help identify where some of the biggest 
weaknesses are around the world, and as you might expect, they 
are among the poorest countries who somehow thought that they 
wouldn't be impacted by this, or they thought that this was 
some kind of advanced, you know, computer problem that wouldn't 
affect them, and it turns out of course it affects all kinds of 
practical issues.
    Mr. Wamp. The follow-up is, do you foresee a greater UN 
role, if Y2K really does impact the world in such an adverse 
way that you have massive humanitarian problems? I can see this 
becoming a problem in countries where the governments are 
negligent, and things are happening that no one anticipated. Is 
this one of your missions?
    Ambassador Burleigh. It is not an explicit program of the 
UN now, and what financed the conference that they did hold was 
the World Bank. In other words, they weren't using their own UN 
funds, to the best of my recollection.
    And they are having a part two of that in May, to sort of 
catch up with who is doing what, where, and has progress 
accelerated. And I think there is an intention to identify 
problem countries, but not for the UN to take on, unless the 
members come up with some money to do this, I mean there as a 
new program to specifically target the Y2K problem, but look to 
countries which are willing to help some of the poor or less 
developed countries.

                              north korea

    Mr. Wamp. One question, and I am new to this as well, I 
think it is the KEDO agreement that North Korea was supposed to 
fulfill certain obligations. Is this under your jurisdiction? 
Who negotiated the agreement with North Korea where we 
appropriated money for fuel and food.
    Ambassador Burleigh. Right. That is not part of this 
legislation but it is an activity that the State Department is 
deeply involved in, for funding energy costs, the Korean 
Economic Development Organization. And we have--I am by no 
means an expert in this, but we have also just concluded some 
negotiations with the North Koreans with regard to inspections, 
an inspection, a very critical inspection of this new 
construction that our intelligence community has been very 
suspicious of, going back to their nuclear program. Part of 
that KEDO agreement was----
    Mr. Wamp. Did we have to pay them to be able to inspect it? 
That is what I heard. Is that----
    Ambassador Burleigh. There is a trilateral agreement, I 
believe. The South Koreans, the U.S. and the North Koreans have 
an agreement with regard both to payments, I think provision of 
some agricultural products because they have starvation in 
North Korea, but I am not an expert on that. We can ask our 
colleagues to write you about it, if you would like us to.
    Mr. Wamp. Thank you, Ambassador.
    Mr. Welch. It is partly the purview of your committee, sir. 
We do request money for our regular budget assessment to the 
International Atomic Energy Agency, and that agency is 
responsible for safeguards internationally, including in Korea. 
Now I would imagine, and we will provide you with the 
information, that there are contributions we make apart from 
that. Perhaps those are directed specifically at activities in 
North Korea.
    Mr. Wamp. Yes, I would like to learn of that.
    Thank you, Mr. Chairman.
    [Clerk's note.--Subsequent to the hearing, the following 
additional information was provided:]

                         U.S. Support for IAEA

    The U.S. share of the IAEA's [International Atomic Energy 
Agency] regular assessed budget in 1999 is approximately 
$53,997,000. The 1999 U.S. voluntary contribution to the IAEA 
totals $40,000,000.

                      IAEA Program in North Korea

    The IAEA is responsible for international nuclear 
safeguards, and in keeping with this responsibility has 
maintained a continuous presence at the North Korean nuclear 
sites in and around Yongbyon since the Agreed Framework was 
signed in 1994.
    Part of the U.S. assessed contribution to the IAEA's 
regular budget goes to cover the cost of the IAEA's presence in 
North Korea.
    IAEA activities are more extensive and costly in North 
Korea--due to a desire to maintain a continuous inspector 
presence--than they would be for similar facilities in 
operational condition in another state which would not require 
a continuous presence. Outside of safeguards, the IAEA has no 
other activities in North Korea.
    Mr. Rogers. Now let me ask you a series of hopefully quick 
exchanges here.

                     cambodia war crimes commission

    You asked for $3 million for a new Cambodia War Crimes 
Commission, but last week the government of Cambodia rejected 
the idea of the UN tribunal, saying that they would conduct 
their own trial. Any international tribunal would require the 
cooperation of the Cambodian Government, which now seems very 
unlikely. Can we assume that that $3 million is no longer a 
requirement for your fiscal 2000 budget?
    Ambassador Burleigh. No, Mr. Chairman. We have not given up 
on the question of an international tribunal for Cambodia. We 
continue to think it is important.
    The Secretary General of the UN yesterday announced his 
position, which was he recommended to the UN organization that 
an international tribunal be set up under the jurisdiction of 
the Security Council. We support that. That is the U.S. 
position as well. We are continuing to work on the Cambodian 
Government to get it to change its view, frankly.

                       un efforts to combat fraud

    Mr. Rogers. Now last year the UN Inspector General reported 
on serious fraud, corruption, and mismanagement in procurement 
for the peacekeeping operation in Angola. Those actions 
occurred more than 3 years ago, but the culprits have not yet 
been disciplined or prosecuted.
    In the fiscal year 1999 bill we asked you for a report on 
what the Department and the UN are doing about rooting out the 
fraud and corruption, and to implement reforms to fix the 
problem. We got your report on Tuesday. It states that, The 
``institutional culture'' of the UN peacekeeping office works 
against bringing corrective and disciplinary actions to quick 
conclusions.
    What is it about this ``institutional culture'' that 
prevents the prosecution of fraud?
    Ambassador Burleigh. It is a very serious issue, and it is 
one of those where the UN has not moved far enough yet to 
establish individual accountability amongst its employees. And 
you will notice in that report that we belatedly, and I 
apologize for that, sent to the subcommittee, that we have had 
an exchange.
    I can't tell you how many meetings I have been in in New 
York, I have, and my colleague Ambassador Sklar has. But most 
recently we got--you will notice on page 5 of that report that 
we got the most forward-leaning response from the UN which is 
along the following lines: that ``The Secretary General will 
certainly ensure that any individual found to have been 
responsible for misconduct or fraud with respect to procurement 
in UNAVEM will be brought to account.'' Then it skips a bit and 
it says: ``The Secretariat now seeks to prosecute any case 
where sufficient evidence exists to pursue the case in court. 
This policy would also apply to the issue of procurement fraud 
in UNAVEM.''
    Now that is a very good stated policy, and we applauded the 
UN for telling us this, but we now are continuing to press on 
this issue because they have their own internal procedures to 
decide whether they think that the individual--what would you 
call it?--culpability reaches a level that would justify 
referring it to some judicial proceeding, and they assure us 
that they will do so if they make that judgment. Those 
processes are going on with the individuals who have been 
identified in this report, as I understand it.
    Mr. Rogers. Well, Angola looks like it may just be the tip 
of the iceberg. Last week the IG reported that what he called 
``clueless managers'' signed what he called ``sloppy 
contracts'' that resulted in the UN paying out $27 million in 
five arbitrated contract claims. There are reportedly more 
cases in arbitration that could total more than $200 million. 
What can we do about this?
    Ambassador Burleigh. Well, I would make two points. One is, 
we need to ensure that this process, the Inspector's process, 
is continued through getting the facts and holding people 
accountable. Most of those cases that you are referring to, Mr. 
Chairman, date back to the early nineties when there was the 
explosion that you are aware of in the number of UN 
peacekeepers around the world, the very rapid increase in both 
the number of peacekeeping enterprises and the employees 
within. There was some very sloppy contractual management, 
according to the OIOS study--studies--in several cases.
    To the best of our knowledge, for the past several years 
these kinds of management controls and capabilities have been 
increased dramatically. We are not aware of recent examples 
that are anything like these examples of the early nineties. So 
I would say they are improving; that they have to keep up the 
pressure within their own system, and we will do our best to 
assist in that process, so that people are brought to account.
    Mr. Rogers. Well, why do they drop all these dark clouds on 
us, saying we are the deadbeat and we won't pay our arrears? We 
are paying a fourth of their operating budget annually, with no 
arrears, hardly any, and we are paying almost a third of the 
peacekeeping costs, and if you calculate what we give in-kind, 
it is a lot more than that.
    I mean we are supporting the UN in a major, major way, but 
we have got to go back and justify to our taxpayers the wisdom 
of doing that and that the money is being spent well. But when 
we have got this kind of fraud, I mean a ripoff in a major, 
major way--I mean one of these claims is $190 million, there 
are three of them totaling $32.3 million, and they just paid, 
the UN just paid one bunch, $27 million. I mean, these are not 
insignificant numbers.
    And I would ask you to go back to the UN leadership, ask 
for a concrete plan within 2 months or some reasonable short 
span of time, step-by-step, action-by-action, to correct those 
massive problems in peacekeeping procurement and bring those 
responsible, in the UN or outside of the UN, to judgment and 
justice. I mean, I think we are entitled to have that. I think 
the world is entitled to have it. All people who contribute to 
the UN are entitled to have some kind of discipline on this 
outrageous ripoff of the public treasury, if you will, the UN 
treasury.
    Ambassador Burleigh. I want to assure you we are doing that 
and will continue to, and I will take up your specific request 
with them right away, with the leadership right away.
    The good news here is that the UN itself is discovering 
these practices and investigating them through the OIOS, and I 
think we have to recognize that, that this is a major step 
forward for the UN that these cases are being investigated.
    Mr. Rogers. That is the good news, yes.
    Ambassador Burleigh. And the bad news is that it hasn't 
gone far enough and it takes too long to bring individuals----
    Mr. Rogers. Can you get us something concrete, and would 
you relay our impatience and our frustration and disgust at 
that kind of procedure?
    Ambassador Burleigh. Yes.
    Mr. Rogers. That is exactly why we are getting the kind of 
pressure we are getting to push reform on the UN, and surely 
there is some understanding of that, that if we are going to 
foot the bills to the extent we are, that we are at least 
entitled to know how the money is being spent, and it is not 
being frittered away and ripped off somewhere around the world, 
which it now is.
    Ambassador Burleigh. I agree that is what we are entitled 
to know.

                     expenditures for peacekeeping

    Mr. Rogers. Now in Angola and Macedonia, peacekeeping 
missions came to a sudden end, in Angola due to civil war, in 
Macedonia due to a Chinese veto. Both of those events again 
brought out problems in UN peacekeeping. What reduction in 
peacekeeping expenditures will those two cancellations lead to 
in 1999 and in your 2000 request?
    Ambassador Burleigh. Well, you are right that they have 
both ended unceremoniously and too early, in our view. We are 
very sorry China vetoed the extension of the UN force in 
Macedonia, especially now, given all the problems--Macedonia 
borders Kosovo, as you all know, and the whole region is so 
fragile and potentially explosive now that we were very unhappy 
with the Chinese veto. Out of the Security Council, 13 members 
voted to extend that and China vetoed and Russia abstained.
    On Angola, we are also sorry that the government of Angola 
decided, in effect, to insist on the closing down of the MONUA, 
the UN force in Angola. We are hopeful, we are trying to 
arrange a continuing UN representation in Angola, so that there 
may be an opportunity to, if the civil war can be brought to a 
close again, have some role there.
    And, Mr. Chairman, the other important issue I have to flag 
for you, but I can't give you--I can give you country names but 
not specifics--there are several possibilities of new 
peacekeeping operations in 1999, including the Democratic 
Republic of Congo--that's Kinshasa--which is in the midst of a 
terrible war, very complex political and military situation in 
central Africa there.
    There is also the question of whether--there is an ongoing 
war now between Ethiopia and Eritrea, where some tens of 
thousands of people have been killed in the last couple of 
weeks. There may be a UN role in an observation mode there if a 
cease fire can be implemented. We are working very hard in that 
regard. The U.S., President Clinton has sent a special envoy 
there. Former National Security Advisor Tony Lake has been 
involved.
    And the third one I wanted to flag for you is East Timor, 
which we mentioned briefly earlier, but there may need to be, 
as they move to either autonomy or independence from Indonesia, 
there may be a requirement for at least a modest UN monitoring 
operation there.
    So basically what I am saying----
    Mr. Rogers. I would point out that we do have this 
unofficial, informal consultative process that we set up a few 
years ago----
    Ambassador Burleigh. Yes.
    Mr. Rogers [continuing]. To hold down on the number of 
peacekeeping missions, that we would expect to play in these 
that you have mentioned as well.
    Ambassador Burleigh. Yes, I know that, Mr. Chairman, and we 
very much value that exchange with you. We don't always agree 
on everything, but it is a very useful exchange. But I felt we 
needed to flag those three potential--they will, I think 
without any doubt they will be raised as possibilities during 
1999.
    Mr. Rogers. Well, if you have got a way to pay for them, go 
right ahead without talking, but----
    Ambassador Burleigh. That is why we are here, Mr. Chairman.
    Mr. Rogers. But you are going to save some money on Angola 
and Macedonia on UN peacekeeping. Can you tell us what you 
expect there?
    Ambassador Burleigh. I don't have good figures for you 
there. I don't know, David, do you have--I have not seen them. 
I think the problem here, Mr. Chairman, is that while there may 
be some funds saved there, presumably there must be----
    Mr. Rogers. Your thought was that if we save them there, 
they will be spent somewhere else?
    Ambassador Burleigh. We will be consulting with you about 
the possibility of spending them somewhere else. That is what I 
meant. I am told that we just sent up a reprogramming 
notification with regard to some of these questions.
    Mr. Rogers. Well, if you will file for the record the 
dollar figures for Angola and----
    Ambassador Burleigh. Macedonia.
    Mr. Rogers [continuing]. Macedonia, yes, the reductions 
that you expect just from those two, so we will know what we 
are dealing with.
    Ambassador Burleigh. Yes.
    [Clerk's note.--Subsequent to the hearing, the following 
additional information was provided:]

    In FY 1999, the amounts needed for the operations including 
liquidation costs are higher than the amount in the FY 1999 budget 
request. These higher amounts are shown on the reprogramming of FY 1999 
CIPA funds submitted to Congress on March 12.
    In FY 2000, the amounts requested for Angola operations of $34.2 
million and for operations in Macedonia $16 million are too high even 
assuming a small follow-up operation in Angola. Mr. Charles Casper, the 
Budget Officer in the Office of Peacekeeping and Humanitarian 
Operations, will be going to New York on May 5th for further 
consultations on this issue. We anticipate briefing Congress on the 
conclusions reached at those meetings during our regularly scheduled 
peacekeeping briefing on the following day. However, we anticipate that 
these funds may be needed for some combination of currently unbudgeted 
operations in East Timor, Ethiopia/Eritrea, and the Democratic Republic 
of Congo.

                        un peacekeeping in haiti

    Mr. Rogers. Now, regarding Haiti, General Charles Wilhelm, 
commander of the U.S. Southern Command, testified before the 
Defense Appropriations Subcommittee and recommended that the 
U.S. end its five year presence in Haiti because our troops 
have not been able to create stability and are now at risk. If 
the American general, the commander, is recommending 
withdrawal, what does that say about the continued presence of 
200 police trainers protected by 240 Argentine gendarmes?
    Ambassador Burleigh. Right. Well, I told you earlier I was 
a trained diplomat, but let me say I don't agree with General 
Wilhelm on this, on this point. Those were interesting views, 
but the U.S. view is both that our presence in Haiti continues 
to be important and a part of the stabilizing influence there 
in a very complex and frankly frustrating political and 
economic situation that continues to be the case.
    We have authorized, through the Security Council, through 
November of 1999, the continuation of the CIVPOL, the civilian 
police training activities. And as you rightly pointed out, the 
Argentinean Special Police is very active there. The 
Administration believes that this is an important contribution 
that the international community can make to Haitian stability. 
We have been very frustrated by the political impasse there, 
but despite that, we think it is worth staying the course to 
see if there can't be a turn-around in the situation with 
regard to Haiti.
    I am aware of the Subcommittee's views on this subject, but 
I would also just flag that you know we have some direct 
interests in trying to restore some kind of economic and 
political help to Haiti, lest there be some--in addition to our 
concern about what goes on in Haiti and amongst Haitians--some 
spillover into the U.S.
    Mr. Rogers. Well, the only thing the UN is doing there, as 
I understand it, is exclusively police training. Is that not 
correct?
    Ambassador Burleigh. That is right.
    Mr. Rogers. And two years ago, the then-Assistant Secretary 
for International Organizations agreed with us that the 
peacekeeping mission would be transferred to one of the 
organizations that engages in police training, and that there 
was no need for the UN to remain there. But then, the NSC 
apparently vetoed that idea, and so then the Haiti-UN 
peacekeeping mission has been renewed twice for at least a 
year. So how long, how long will this be going on?
    Ambassador Burleigh. Well----
    Mr. Rogers. We were told 2 years ago that the UN mission 
would be out of Haiti no later than November of '97.
    Ambassador Burleigh. Well, the current resolution, which we 
voted for, authorizes the civilian police training to continue 
through November of '99. It also authorizes or requires, 
really, a transition out of peacekeeping, out of the 
peacekeeping mode into a development, what I would call, 
broadly speaking, development mode.
    The Security Council intends to pass the baton here to 
ECOSOC, the Economic and Social Council of the UN, which has 
relationships with the development agencies. So those are 
discussions that are underway between the Security Council and 
the Economic and Social Council. But I am not in a position 
today, Mr. Chairman, to assure you that that would be a 
successful passing of responsibilities within the UN system, 
though we hope it will be.
    In the meantime, I think all the observers on the ground in 
Haiti believe that the Haitian National Police are, if 
anything, the one national institution--and they are the ones 
who have been trained under this peacekeeping program--the one 
national institution that has acted in a professional and 
objective and nonpolitical way through all of this past year of 
ongoing political turmoil in Haiti. It is the one identifiable 
entity that is a success story, frankly.

                un peacekeeping central african republic

    Mr. Rogers. Now last year we talked about the Central 
African Republic and how the Department in my judgment had made 
a mockery of the congressional consultation process that we had 
developed by supporting a new mission that was opposed by every 
relevant congressional committee. This year, the Department is 
making a mockery, in my opinion, out of its own commitments 
which it insisted be written into last September's Security 
Council resolution, that the mission would terminate in 
February.
    We are now into a $60 million operation, the third most 
expensive peacekeeping mission the UN is involved in. It is a 
clear case where you have peacekeepers doing what is called 
nation-building tasks. And my question, are you on track for 
coming up with a way to turn that work over to a more 
appropriate mechanism, and vote to terminate that mission in 
November?
    Ambassador Burleigh. We are making maximum efforts in that 
regard. It is the same issue of how to turn something over from 
the jurisdiction of the Security Council to the Economic and 
Social Council, and it hasn't been done effectively in the 
history of the UN, so we are establishing precedent here with 
both Haiti--with our attempts on Haiti that are ongoing and the 
Central African Republic.
    So what I can do in all seriousness today, Mr. Chairman, is 
assure you that we are working very hard on this. Virtually on 
a daily basis we are having meetings in New York to try to 
figure out how to cause this to happen, and--because part of 
the big question is, when the Security Council passes on a 
responsibility like the Central African Republic, if it wants 
to be assured of ongoing programs, where is that money coming 
from? It won't be under the peacekeeping budget. It will come 
out of budgets of the development agencies, presumably, which 
are having their own problems, like UNDP and others.
    But we are committed to trying to cause that to happen, and 
I can assure you of that. I can also tell you, with regard to 
the Central African Republic, that there is so much chaos going 
on in Central Africa, in the Great Lakes region in Central 
Africa--the Congo, Angola, Sierra Leone, Liberia--that we were 
isolated completely in the Security Council. It was essentially 
a view of 14 to 1 with regard to closing down MINURCA, the 
peacekeeping operation, in February, and we reluctantly agreed 
to go with the majority view on the understanding, first of 
all, that there would be political and economic reforms that 
are linked in the resolution, and that the project would be 
passed on to other agencies of the UN by November.

                        u.s. un mission building

    Mr. Rogers. Now, there appears to be a disconnect on the 
budget with respect to a new building for the U.S. Mission. 
There is money proposed by GSA to pay for the demolition of the 
current building. There is no money in the State's budget to 
pay for costs that are supposedly States' responsibilities like 
above-standard buildout costs in the temporary leased space. 
Are you in danger of being put out into the street with nowhere 
to go?
    Ambassador Burleigh. Mr. Chairman, you have been to the 
building and you saw that, without mincing too many words, it 
is sort of a dump at this point, our office structure. There is 
money in a GSA proposal to the Congress. There have been 
several hearings on it, both on the House and on the Senate 
side last year, and we are hopeful that those monies will be 
approved. Now, there is supposed to be, I have to say I am 
embarrassed to hear--you probably know this better than I do--
there are supposed to be some additional supplementary funds in 
the State Department budget linked directly to our security 
requirements which are in excess of the normal GSA construction 
security for domestic construction projects which is basically 
what they do.
    We are insisting on security standards which are equivalent 
to those that we use for our embassies overseas because I can 
tell you we do get threats. You have been there. You see how 
vulnerable we are. I have taken the position in testimony and 
within the State Department that we should not do the project 
unless we are going to do it right with regard to the security 
of our employees there.
    So I am going to, immediately this afternoon, I will be 
finding out what happened to the money that is supposed to be 
in the State Department budget request for this.
    Mr. Rogers. Well, I agree with you. A new building needs to 
be designed with security in mind, among other things, and we 
would want to be consulted about what GSA or anyone else is 
going to do about security in that particular building.
    Ambassador Burleigh. Thank you. We will.
    Mr. Rogers. So we are with you on that entirely.
    Ambassador Burleigh. Thank you very much.

                    inter-american indian institute

    Mr. Rogers. Now, you continue to request money for the 
Inter-American Indian Institute, even though we have not 
provided money since 1995, and that resulted from the 
Department's own description of the utility of that 
organization. Where does that organization rank in priority, in 
numerical ranking, 1 to 50, compared to the other 49 
organizations proposed for funding, Mr. Secretary?
    Mr. Welch. I am not sure I can give you an ordinal ranking 
on this, Congressman.
    Mr. Rogers. Let me ask you this: Is there any organization 
that ranks lower? [Laughter.]
    Mr. Welch. That is a loaded question. I do not know if I 
want to answer that either. [Laughter.]
    Mr. Welch. We requested funding for the Inter-American 
Indian Institute because of signs of improvement in its 
organization and management. There is a new director general. 
He is working to implement changes we sought, and we believe 
that he cannot address those reforms without paying our quota 
of $120,000. Other participants, Argentina, Chile, Colombia, 
Mexico, Paraguay, Venezuela, have normalized their payments and 
other funding has been sought from UNESCO, OAS and Governments.
    There is more active involvement from the constituency it 
is supposed to address, Mr. Rogers, and that is a positive 
sign.
    Mr. Rogers. That is not a real resounding endorsement. You 
do not seem too enthusiastic.
    Mr. Welch. Well, we are requesting it. We stand behind our 
request.

            status of political and economic reform in haiti

    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    On the issue of Haiti, it seems to me that there was a lot 
of hope when our involvement started in Haiti, our most recent 
involvement, when we decided to get rid of that dictatorship. 
As you well know, there was a period in our history--recent 
history--when Latin American dictators and Caribbean dictators 
were just asked one question, ``Are you with the Soviets or the 
Chinese?'' and if the answer was, no, then we looked the other 
way. I am sure if the Cold War was going on, we probably would 
still be supporting Junior Doc Duvalier, but the fact is that 
there was a lot of hope that a lot of things were going to 
happen when we went in there.
    Has something dramatic happened in Haiti? And let me, 
before you answer that, tell you that I am one of those few or 
many, maybe, who believe that, south of the Texas border, to 
tell me that there is a democratic form of Government in place 
is not enough. Elections in some countries in Latin America 
mean very little to me. It is how they treat people after 
people get elected.
    Has there been a real change, something that we can point 
to and say that we have gotten, since these hearings are really 
supposed to be budget hearings--although you can ask any 
question you want--have we gotten our monies' worth in terms of 
what we set out to do, other than to have elections in Haiti?
    Ambassador Burleigh. Well, I think the frank answer is 
there has not been the kind of political and economic reform 
and progress that the U.S. and many others in this hemisphere 
had been hoping for in Haiti. There has recently been at least 
a modest political breakthrough. They went for almost a year 
this past year without a Government in place. There was an 
elected President, but no Prime Minister and no cabinet because 
of internal disputes between the political parties, their 
inability to reach agreement about making up a cabinet 
Government. That has now, at least there is some modest 
progress there.
    But basically, as I understand it, the economic conditions 
in Haiti are not improving. There has not been sufficient new 
investment to create jobs and to give people more hope in their 
own country and in their own society. But having said that, we 
have not given up on it. We think it is important. The U.S. has 
a lot of different programs there, one part of which is this UN 
peacekeeping operation which, in effect, is a police training 
operation. But we do a lot of things bilaterally, as do other 
countries in the region. Canada and Argentina have committed a 
lot of money and a lot of energy into Haiti as well.
    I am not an expert really on Haitian developments, except 
as it applies to the UN, but I think it is clear that outside 
donors and friends of Haiti have been frustrated that more 
progress has not been made; that the political system cannot 
seem to get traction and move ahead on these pressing issues. 
Haiti you know, is still the poorest country in the Western 
Hemisphere. The lot of an average Haitian is a very sad one, 
and the problem there, among other things, is lack of hope, I 
think, for the future.
    So we are committed to keep trying to make a difference 
there and to turn that situation around. But it has been, I 
think, a frustrating experience.
    Mr. Serrano. And you very clearly stated that you disagreed 
with the report that the Chairman brought up, the statements 
that our troops were at risk in Haiti. Do you disagree with 
that part; that our troops are at risk now or that troops, in 
general, are at risk? And if such, what risks are they facing?
    Ambassador Burleigh. Well, I really would not want to 
challenge the General in that assessment. I mean, he would be 
more expert than I. But troop protection is something, force 
protection is something that we have to be concerned about. And 
I would hope that, having made those statements, I do not know 
what has happened, but I hope that steps have been taken so 
that whatever the risks were have been met, in some way, 
because the forces are still there. So I assume that he has 
taken the appropriate steps.
    The point I was making is that the Administration does not 
agree to a kind of withdrawal from Haiti. We think it is worth 
the effect, despite the difficult slog there, to trying to turn 
the situation around.

                               east timor

    Mr. Serrano. On the issue of East Timor, you said that you 
definitely envision a role, I guess a role both for the UN and 
perhaps a role for the U.S. What shape would that role take?
    Ambassador Burleigh. It is under negotiation now. What is 
happening is that there has been a turnaround in the Indonesian 
Government position on East Timor, you know, since 1970. It was 
a Portugese protectorate, and then they had a relationship with 
the UN, and then the Indonesians took it over and claimed it as 
a province of Indonesia.
    Very recently, the Indonesian Government has agreed that it 
will agree to either autonomy or independence for East Timor, 
and negotiations are going on as we speak. There was a set of 
negotiations last week in New York between Portugal, which is 
the only colonial ruler, and the Indonesia Government sponsored 
by the UN. They will be coming back, I think, in two weeks' 
time to try to finalize the agreement. There will be some kind 
of, not an election exactly, but some kind of consultation with 
the population of East Timor, both those who are in East Timor, 
and there is a huge diaspora out of East Timor. There is a 
large community of Timorese in Australia and other countries in 
the region. Somehow those people are going to have to be 
consulted, too, about whether they want some kind of continuing 
association with Indonesia, autonomous association, or complete 
independence.
    And the UN is going to be asked, and has made itself ready, 
to play a role helping with those elections or those 
consultations. There needs to be disarmament. There are a lot 
of arms on the island. It has been a very bloody, in effect, 
civil war for many years. So there are a lot of young people, 
in particular, who have grown up in an environment of violence 
and so on. So there may be a role not only for election 
observers and experts in elections, but also some kind of 
monitoring force to make sure that the people stay quiet and do 
not resort to violence.
    I do not think it will be clear for several months, of what 
might be asked of the UN. But I think that all sides, including 
the Timorese, have agreed that there should be a UN presence.
    Mr. Serrano. We are on record as saying that those who live 
inside and outside East Timor should be consulted.
    Ambassador Burleigh. Consulted, yes.
    Mr. Serrano. That is of great interest to me, Mr. Chairman. 
As you know, I have often said on the House floor and whenever 
the question comes up of whether Puerto Rico should become a 
State or an independent Nation, those of us who live outside 
the island should be consulted. That amendment lost on the 
House floor last year.
    Let me ask you a Cuba question. The Chairman and I have a 
little kind of gentleman's understanding that he tries not to 
bring up the census issue, which is at the center of this 
committee's work, and I try not to bring up Cuba. [Laughter.]
    But having the UN in front of me and not bringing up Cuba--
so, if you will forgive me, I will break the rule once again, 
Mr. Chairman. [Laughter.]
    Mr. Rogers. Well, then he has got to explain the census. 
[Laughter.]
    Mr. Serrano. But since we have no relations with Cuba, we 
cannot impose a census on Cuba yet.
    Mr. Ambassador, how many countries are still voting with us 
on the embargo? I guess you know my position of ending the 
embargo tomorrow morning and dealing fully with Cuba tomorrow 
afternoon.
    How many countries are still supporting us? And the most 
important question, for my understanding, among you folks at 
the UN, is Cuba an issue where they look at you in the 
cafeteria and say, ``Boy, you guys are crazy,'' and then they 
drop it? Is it a real tough issue, ``You guys are really insane 
and when are you going to stop this?'' or is it not an issue 
and it just comes for a vote and then goes back to not being an 
issue.
    Ambassador Burleigh. Well, it is an issue in the UN in a 
couple of dimensions, one that may surprise you, but let me 
mention it first; that Cuba is one of the leading advocates of 
the status quo in the UN. Virtually every reform and every 
efficiency the U.S. and like-minded propose, Cuba opposes in 
various ways, often effectively. They vigorously object to most 
of everything we have been talking about this morning, for 
their own reasons.
    So they are very much on our agenda with regard to 
management and reform issues at the UN and in the UN agencies. 
That is an interesting sort of phenomenon that, frankly, I was 
not aware of until I got to New York, and I see it. We live 
with it almost every day.
    Mr. Serrano. Do you think they oppose reform for opposing 
reform's sake or is part of their strategy to stick a finger in 
our eye the way we have been sticking one in theirs?
    Ambassador Burleigh. I do not know the answer to that. They 
appear to do it on its merits, but who knows what the 
motivation is.
    I can tell you that the other subject that comes up 
repeatedly are human rights in Cuba. They sometimes come up in 
New York. But the main focus of attention is in Geneva with the 
Human Rights Commission, and that question will be coming up 
again this month in Geneva.
    We had a debate in the fall over some human rights-related 
issues--I also was personally involved--and I will tell you the 
Cuban foreign minister was also representing Cuba at that 
point. I made a statement about Cuba, and his initial response 
was, ``Those who do not pay their UN bills should not be 
criticizing others.'' This is how he led off his discussion. 
The substance was human rights and the people who had been 
arrested, the dissidents who had been arrested, the ones who 
have just been convicted, I believe.
    In Geneva, there will be an effort to push a resolution on 
Cuba. This was defeated last year, very narrowly defeated, and 
we and others who have concern about the state of affairs--I 
would say sad state of affairs--of human rights, as reflected 
in this conviction of these four dissidents, will be tabling a 
resolution again.
    Mr. Serrano. But the larger question is does the opposition 
to the embargo end every time we take a vote? You did not 
answer which countries are still supporting the embargo.
    Ambassador Burleigh. Very few support the embargo in the 
context it comes up in the General Assembly.
    Mr. Serrano. It was Israel, right?
    Ambassador Burleigh. Israel, and I cannot remember, I will 
confess. We will give you that information, but it was----
    Mr. Serrano. It was Israel by itself.
    Ambassador Burleigh. It was not really linked directly to 
Cuba with unilateral sanctions, economic sanctions.
    Mr. Welch. So you have Libya, Iran and all of the others 
lobbying for their position.
    Ambassador Burleigh. It was not Cuba-specific. But that 
having been said, the Cubans and the Libyans trade off every 
year in the General Assembly tabling this resolution. 
Certainly, Israel voted with us, and I cannot remember this 
year if anyone else did or not. We can get you those figures. 
But it was like 165 or 150 to three or four, of which we are 
one.
    Mr. Serrano. And then the last question, which was the 
first one, is I know you told me about other conversations 
going on about Cuba, but I am saying, once those votes are 
taken, what is the sense of member delegates towards you? 
Again, is it, ``When are you guys going to stop this?'' I mean, 
other than the debate.
    Because, what happens around here in Congress is very 
interesting, and I am not speaking about anyone in this room 
right now. But in Congress everybody goes to the floor and 
condemns Cuba, and then in the cafeteria everybody says, ``We 
are crazy. We should not be doing this, but we have got to do 
it,'' and it is like this difference.
    Once the vote is taken, is there still questioning of you? 
Is there a feeling or is it not an issue at all?
    Ambassador Burleigh. I do not hear much about it after the 
vote is taken. It tends to be a one-off affair for a day or two 
while we are debating the actual resolution. No, we do not hear 
too much about it.

                           concluding remarks

    Mr. Serrano. Well, I thank you for your answers.
    Mr. Chairman, I have no other questions. I just wanted to 
once again thank you, both of you, for the work that you do, 
for the service that you give our country, and to tell you that 
I stay committed and some of us will stay committed to making 
sure that you look good by having us pay our bills. We will do 
whatever we have to do to do that. And we will not consult with 
any past Secretaries of State to see where we get the money 
from. [Laughter.]
    I can assure you of that. That would not be a good idea on 
my part.
    But I just want to thank you. I think that what you do is 
something that is very serious for the future of this world. I 
join Mr. Obey in saying that, from what I know of you, from 
what I have seen today, I would have no problems if you stayed 
there forever. [Laughter.]
    It will give me some time to convince you on Cuba. 
[Laughter.]
    Mr. Rogers. We thank you all for coming and appreciate your 
testimony. Mr. Ambassador, I know you are pulling at least 
double weight over there with the two or three hats that you 
are wearing. We appreciate that.
    Mr. Secretary, welcome and congratulations to you for the 
new position that you have undertaken. It is a tough one. We 
appreciate both of your work.
    I think you know that the arrearage question has plagued 
this Subcommittee for many years now. If it were within our 
province, we would have it resolved quickly. But there is an 
overriding issue that people not on this Subcommittee are 
insisting upon over the years that has held up our ability to 
get the money paid. But one can always hope.
    Good luck to you, and if we can help you in the meantime, 
let us know.
    Ambassador Burleigh. Thank you, Mr. Chairman, and thank 
you, Congressman. I can assure you we will be back at your door 
very soon on the question of the arrears legislation. We are 
really committed to trying to move on it this spring. We hope 
that it will not have that kind of complication that you were 
just alluding to, frankly, because we all have great respect 
for the important issues involved with regard to family 
planning and abortion but, in my view, this is the wrong 
legislation to attach it to. It is not the place to fight this 
battle. But whether that is shared in the Congress, that view 
is shared or not, I do not know.
    But we have an overriding national interest in getting this 
done this year, and we need your help, and we will be asking 
for it.
    Thank you.
    Mr. Rogers. Thank you. Very good. We are adjourned.
                                         Wednesday, April 14, 1999.

                   ADMINISTRATION OF FOREIGN AFFAIRS

                               WITNESSES

BONNIE R. COHEN, UNDER SECRETARY FOR MANAGEMENT
PATRICK F. KENNEDY, ASSISTANT SECRETARY FOR ADMINISTRATION
MARY A. RYAN, ASSISTANT SECRETARY FOR CONSULAR AFFAIRS
DAVID G. CARPENTER, ASSISTANT SECRETARY FOR DIPLOMATIC SECURITY AND 
    DIRECTOR OF THE OFFICE OF FOREIGN MISSIONS

                  Opening Statement of Chairman Rogers

    Mr. Rogers. The Committee will come to order.
    We are pleased to welcome today Bonnie Cohen, the Under 
Secretary of State for Management. She is accompanied by Mary 
Ryan, the Assistant Secretary for Consular Affairs; Patrick 
Kennedy, the Assistant Secretary for Administration; and David 
Carpenter, the Assistant Secretary for Diplomatic Security, 
among others.
    This hearing will focus on the fiscal year 2000 budget 
request for the administration of foreign affairs. In addition 
to the usual challenges of managing the U.S. presence in over 
250 locations worldwide, and the conduct of the Nation's 
foreign policy, the fiscal year 2000 budget request also is 
impacted greatly by some unusual events.
    First, it includes the consolidation of the U.S. 
Information Agency and the Arms Control and Disarmament Agency, 
for the first time. We will want to hear about your plans for 
integrating those functions into the Department.
    Second, this is the first annual budget request submitted 
in the wake of the embassy bombings in Nairobi and Dar es 
Salaam. These bombings signaled the beginning of a new era in 
terms of how we think about protecting our missions and our 
employees abroad.
    This Subcommittee, I believe, has established a record of 
providing the necessary resources for the conduct of foreign 
affairs, while also advocating reforms and efficiency 
improvements at the Department. We appreciate our relationship 
in working together toward those goals.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I want to thank you, 
and I am pleased to once again welcome Secretary Cohen and 
Assistant Secretary Kennedy. I am interested in listening to 
your testimony, and I can prior to that testimony assure you 
that I stand ready to assist you in any way that I can, to make 
sure that you do the job that you are supposed to. I join the 
chairman in that endeavor. Thank you.
    Mr. Rogers. Now, before we turn to you, Madam Secretary, 
for your statement, I want to just take a moment to briefly 
recognize someone behind you. Stan Silverman, making his final 
appearance before the Subcommittee as the Comptroller of USIA, 
which of course will cease to exist at the end of this fiscal 
year. Stan has been a regular at this table for many years, and 
he has done marvelous work for the Agency. We want to salute 
Stan on his accomplishments at USIA and wish for him the best 
in whatever is out there. Stan, thank you for all your work.
    Mr. Silverman. Thank you, Mr. Chairman. It has been a great 
pleasure working with this committee for close to 40 years, 
going back almost to the beginning of the faces on the wall. It 
has really been a very proud moment for me to appear before 
this committee. It has been a wonderful interaction, and I 
thank you for the help you have given to the public diplomacy 
function and I hope that will continue. Thank you very much for 
your kind words.
    Mr. Rogers. Thank you, Stan. Thank you very much.
    Now, Secretary Cohen, your statement will be made part of 
the record and if you would like to briefly summarize it, we 
will be happy to hear it.

               Opening Statement of Under Secretary Cohen

    Ms. Cohen. Thank you, Mr. Chairman, Congressman Serrano. I 
do want to thank you for the cooperation we have received and 
the support that the Department has received. I will summarize 
the statement.
    I have talked to you before about the variety of activities 
the State Department engages in, and in times of crisis, our 
activities only intensify. Since the NATO bombings began in 
Yugoslavia a few weeks ago, the Department has carried out the 
evacuation of Embassy Belgrade personnel and dependents and 
assisted American citizens in departing the country. Even after 
their own evacuation to Budapest, Embassy Belgrade staff 
continued to assist American citizens still in Yugoslavia, 
including sending embassy cars and drivers to the Hungarian-
Yugoslav border to pick up families with infant American 
citizens. We also evacuated dependents from Embassy Skopje in 
neighboring Macedonia after a mob stormed the embassy to 
protest the NATO air strikes in Serbia and Kosovo, knocking 
down parts of the perimeter fence and setting fire to cars in 
the embassy parking lot.
    In the first week of the air strikes, dozens of antibombing 
demonstrations were held at our embassies overseas in locations 
ranging from Russia to Canada to Australia. Our embassy in 
Moscow was machine-gunned by a masked man after he attempted 
and failed to fire two rocket-propelled grenades at the 
building. In light of the possible worldwide reaction to the 
air strikes, we heightened, once again, our already high state 
of readiness at all of our overseas posts, focusing particular 
attention on countries bordering Yugoslavia and countries with 
large Serbian populations.
    Additional Diplomatic Security agents were dispatched to 
Skopje, Tirana and elsewhere to augment security at the 
embassies. In fact, of 204 DS special agents assigned to our 
field offices here in the U.S., all but 8 of these are 
currently out on security augmentation teams, protective 
details, or in training.
    Other activities I have previously described include our 
issuing of over 6 million passports, and our assisting of U.S. 
businesses and tourists overseas. We previously had a hearing 
on the security supplemental and our implementation, and we are 
very grateful, I think the whole State Department is grateful, 
for your active support of the $1.4 billion emergency 
supplemental.
    I will touch briefly on the various management challenges 
and the steps we have taken over the past year, but Pat Kennedy 
will speak first on the subject you raised, the integration of 
ACDA and USIA.

               consolidation of foreign affairs agencies

    Mr. Kennedy. Mr. Chairman, I appreciate this opportunity to 
appear to discuss our reorganization efforts. Our efforts in 
this area are substantial and reflect the high priority that 
both the President and the Congress give to this issue.
    The Foreign Affairs Reform and Restructuring Act required 
the President to submit a detailed plan to the Congress, which 
he did on December 30th. The Administration has subsequently 
submitted a revised plan report, which took into account a 
number of the comments from the Congress, including this 
committee, and from interested NGOs and others and have made 
changes to our original proposals. We are continuing extensive 
planning so that we can now move quickly into the 
implementation phase. Planning involves everything from 
personnel and floor space to how best to assure that the key 
missions of public diplomacy, arms control and nonproliferation 
are best assured in the new department. In this regard, 
Secretary Albright has written letters to the heads of the 
three affected agencies and we are doing everything we can to 
highlight the importance that she and the entire department 
attaches to these missions.
    The Secretary and others have held town meetings and other 
discussions with employees both here and abroad and we have 
posted information both on our Internet web site and at the 
Foreign Service Institute, which is also conducting special 
courses. In short, we are doing all that we can to ensure that 
the reorganization is implemented in an open and transparent 
environment.
    Ms. Cohen. Thank you, Pat.

                         y2k management issues

    I would like to touch on a few of the key management issues 
that are facing us now and we have been dealing with over the 
past year. One of the first is the Year 2000 that came up at 
our hearing a year ago. We have made substantial progress in 
the last year. The State Department itself is approximately 90 
percent implemented, which I think is a great achievement for 
the people involved in it, particularly because we have to 
implement at 260 posts overseas using employees with top secret 
security clearances, and in some cases, in countries where 
their own computer systems are really very primitive.
    In addition, the State Department itself is ready. I don't 
know how many of the other departments you have talked to 
within the government are ready, but we obviously have to 
prepare for possible interruptions in power supply; we have to 
be sure that we have backup communications in case the first 
line of communications fail, and we have all of that in place.
    One of our major challenges is the operation of the 
embassies overseas. We have been in contact with the embassies. 
Each embassy is in the process of identifying any backup 
equipment they need, for example, backup generators or 
telephones. In addition, each embassy is developing a 
contingency plan for their country, and that will be in to the 
Department the end of this week. That is one of the major 
initiatives.
    The Secretary herself has spoken and does speak to every 
world leader with whom she meets on the subject of the Year 
2000. In addition, finally, the State Department and the 
Defense Department are co-chairing an international working 
group under the NSC to work on the issues facing us in other 
countries. We had collected information from all of the 
countries overseas; that is now being analyzed by the CIA. We 
are collecting additional information; we are working with 
private industry. We will be asking ambassadors to talk to 
individual countries about our assessment of the situations, 
and we would anticipate with other agencies in the Federal 
Government that we will begin to reinforce the initial notice 
that we sent out over the December time frame as to travelers 
and business people being prepared for possible interruptions 
as the date changes. So we are very actively involved in that.

                  personnel management and recruiting

    In the personnel area, one of the things I think also we 
talked about last year was the shortage, in the State 
Department in particular, of qualified computer people, the 
number of vacancies we have had and the difficulty we have had 
in recruiting people. We had an enormously successful computer 
personnel fair out at FSI about a month ago where we advertised 
it I think very well in the Wall Street Journal, The Washington 
Post, on the web, other media sites. We got over 1,000 
attendees. We offered over 150 jobs, and these were people not 
coming for their first jobs, but people with experience who 
wanted to work at the State Department, and we think that that 
will be a great infusion of talent in that particularly hard-
to-fill area.
    We have developed additional training for the computer 
people. When I last spoke to you, four out of five of our 
training courses were devoted to our soon to become obsolete 
systems. We have now turned that around and have better 
computer training for everyone.
    We have developed an interesting pilot program where we are 
recruiting a few students directly out of college who speak 
Chinese to become fellows in our embassy in China to work with 
the consular officials. One of the major investment issues for 
the State Department is the training of people in language, and 
then what happens to them afterwards. We train people for 2 
years in Chinese. They then go to China for 2 years. It is a 
very difficult post in which to serve, and often they move on 
and don't return to China, so that we, the United States, have 
lost the benefit of that investment. We are looking at 
opportunities to recruit people directly out of school who have 
language readiness for maybe a couple of years, people who 
wouldn't necessarily go into the Foreign Service, but who can 
provide service to us. We will be assessing that with this 
program.
    We also have a study underway by McKinsey & Company looking 
at the personnel challenges facing the State Department. One of 
the issues we have facing us is the age curve of the employees 
in the State Department. We will have a substantial number of 
people retiring in the next 5 to 10 years, and we want to be 
able to assure ourselves that we can continue to recruit and 
motivate the very best people to join the State Department and 
stay in it, and we are working with McKinsey & Company to 
understand the issues facing the personnel system. We have 
their initial report, and we will be glad to share that with 
you.
    In Consular Affairs, we are moving forward, as always, 
implementing the border crossing card, and Mary can talk to you 
about that in detail.

                      foreign building operations

    In the Foreign Building Operations (FBO) area, FBO has been 
working very hard to rise to the challenge of the emergency 
supplemental, which was a major infusion of needed money into 
the security problems of the State Department, and they have 
been moving very effectively to get that money spent and spent 
well overseas. They have taken a number of innovative 
approaches that I think offer great promise to the State 
Department, especially if we continue to get the resources that 
we need. We have also reached out to private industry; we have 
met with Mobil, and we have met with other people who are 
recognized as leaders in the construction industry to get the 
best of their advice.

                        overseas presence panel

    We also have in operation, I think it has just been a month 
in operation, in response to the recommendations made by the 
Accountability Review Board, the Overseas Presence Panel. The 
Panel is looking at the issue, the larger issue of American 
presence overseas, in light of the security challenges we face, 
but also in light of the foreign policy challenges. We 
anticipate that their report will be done in the next two 
months, and we would be glad to share that with you along the 
way. I think the Secretary is anticipating having a joint 
meeting with you and with the panel to discuss the issues they 
are looking at.

                              new passport

    Finally, I have a handout which, it looks a little like 
show and tell, but it is important nonetheless. We have for you 
the new passport. I think you might have asked last year, 
Congressman Latham, about whether we would be ready for the 
Year 2000. We are. We have this new passport which Mary can go 
into in some detail, but it is, I think, a terrific step 
forward for the State Department and for security. You will 
notice that the picture is flush, and evidently one of the 
major security issues with our passports in the past has been 
the ability of people to cut the picture out and substitute 
another picture. There are also a number of other security 
techniques built into this. You can see the laser picture, and 
there are other things you can't see and I won't tell you. But 
that is the new passport.

                      other management initiatives

    Underneath that, you have a picture of Dar es Salaam after 
the bombing and the new interim facility there. And I just 
point this out to you, first of all, we wouldn't have been able 
to do it without your support, but it is extraordinary, I 
think, that the people out there and FBO together, working with 
DS, have been able to achieve this in such a short time.
    Additionally in the package is the handout from the Wall 
Street Journal which shows that the Bermuda embassy is on the 
market. I know that somebody told me the Committee has been 
concerned with that for 10 years, so you have that. One of the 
major issues for the State Department has been the quality of 
our ability to interact using computers, the information super 
highway, the web. We didn't have Internet a year-and-a-half 
ago. We have Fernando Burbano here, who is the new Chief 
Information Officer, and we have an excerpt from the Wall 
Street Journal that shows that they, at least, consider our web 
page to be the best in the government.
    I don't know how much of a chance you get to see these, but 
we have the kind of public announcements that Mary and her 
people are sending out all the time, and this has been a 
particularly busy year, I think the busiest the Department has 
had in terms of public announcements. I am sure Dave would be 
glad to share with you our current view of the security 
situation, but while America remains as active as it is in the 
foreign policy arena, we don't see any letup in terms of the 
challenges that we face from a security standpoint overseas.
    Finally, I think we have copies for you of the contingency 
plans that each embassy is filling out on its operations 
overseas as the Year 2000 approaches.
    Thank you very much. We would be glad to answer any 
questions.
    [The statement of Ms. Cohen and Mr. Kennedy follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Thank you.

                         management priorities

    Now, last year you indicated that your top three management 
priorities for the Department were: (1) Personnel recruiting 
and training; (2) technology modernization; and (3) getting in 
place a prioritized facilities improvement program. Are those 
still your top priorities?
    Ms. Cohen. I would say they are within the overall context 
of security for people overseas.
    Mr. Rogers. What strides have you been able to make in 
those three areas this past year?
    Ms. Cohen. In the personnel area, I touched on the job 
fair. I am particularly pleased with the strides that personnel 
and the computer area, IRM, together, have made to recruit 
talented people. I think when I talked to you last year that we 
had over 200 vacancies in that area, and that really causes 
great disruptions overseas, because many posts only have one or 
two trained people operating their computer systems. We tried a 
variety of approaches over the first six months after I talked 
to you and none of them were very successful. Then we did take 
this innovative approach of a job fair, and we are very pleased 
with the results. We are working very closely with DS to get 
background checks done and get those people on board. So the 
recruitment is going very well. In addition, the training has 
been modernized for people in the computer area.
    We are also working on training issues related to 
management, because at the mid-career level, management 
training has not been a priority of the State Department, and 
yet much of operating a post is management oriented. So we are 
developing a set of materials for that.
    In addition, in the civil service area, we have begun a 
skills inventory so that we can work with the civil service 
employees to see that they have the option of being trained so 
that they have the skill level to advance.
    As far as modernization goes, I think we have about 1,000 
people on the Internet now, and we are rolling that out. We 
would like to see more and we would like to train them better 
on how to use it, but we are moving forward in that area.
    As far as the building priorities go, we are working very 
hard on that. We have had recommendations from the 
Accountability Review Board. We now have a somewhat new process 
that involves Diplomatic Security, FBO, and the regional 
assistant secretaries, so that the decisions on what the 
priorities are are not one group versus another.
    As you know full well, we have plenty of priorities. We are 
a little scarce on resources.

                  technology modernization initiative

    Mr. Rogers. Well, you are in the third year of the five-
year technology modernization initiative that is going to cost 
$2.7 billion. You provided us a report outlining some areas 
where savings are expected in relation to that effort. When GAO 
reviewed the effort last fall, they recommended that you 
identify and quantify savings. Can you tell us the cost saving 
estimates that you have developed in response to that 
recommendation?
    Ms. Cohen. I myself have met a number of times with the 
General Accounting Office. I don't have an estimate of savings, 
and I can follow up with people and see if we can get you 
additional information. We are a department, though, I caution, 
that has been under-investing for a long time, so while we may 
start to see some efficiencies, I think we would want to talk 
to you about applying those resources in other areas where we 
have needs. We have not been able to budget, for example, very 
well. I don't know for how long, but we certainly haven't been 
budgeting for replacement. So we don't want to find ourselves 
in a position of having modernized, and then not be able to do 
life cycle replacement.
    Mr. Rogers. Well, if you don't mind, take that March 4 
report, and there are 7 areas of cost savings that were 
identified. Attach some dollar estimates to each of those seven 
categories so that we have something to look at.
    Now, I understand you are drafting what I call a vision 
paper to guide your technology modernization program. Will that 
vision have any additional cost implications in it?
    Ms. Cohen. We are developing a vision paper. I don't know 
the exact answer to that, but we have benefited from major 
investments in modernization from this committee for the last 
couple of years, and I think what we would like to do is to 
hang on to those resources going forward. But if we have 
additional needs, I will get them to you.
    Mr. Rogers. Do you promise?
    Ms. Cohen. Yes.

                         status of y2k efforts

    Mr. Rogers. Now, on Y2K, your objective has been to have 
all systems compliant, but the report card that the House 
Government Reform Committee issued gave you an F, a failing 
grade, because only 61 percent of your systems are compliant. 
You received $57 million in emergency 1999 funding to address 
the problem. Yet you are at the very bottom of the grading 
scale. Can you explain why?
    Ms. Cohen. Yes. The reason is that our two major systems 
for modernization involve the embassies overseas. One is the 
ALMA system and the other is the Consular system. And we had, I 
think predating me, we had very well thought-out plans and very 
well-trained people to implement these across the world. And 
the decision was made when OMB changed the schedule that we 
would stick with our original schedule, because we didn't have 
the ability to bring on trained, secure teams to accelerate the 
schedule, and that called for us basically to be done in the 
spring, and we are on that schedule.
    In the last report from OMB, we have gotten promoted from 
tier 1, which is the worst, to tier 2, and we are, I think 
really doing quite well. The report card that you talk about 
came at a time when we were on our schedule, but we weren't 
able to be on the schedule that they were judging against. But 
we are well over 90 percent implemented. We will be almost done 
by May, with just a couple of posts left to do in the June time 
frame.
    Mr. Rogers. About May?
    Ms. Cohen. Yes. Excuse me, these are also with tested 
systems. I mean that is an important point that isn't true 
everywhere. The systems that we are rolling out around the 
world now are operating in various posts, so it is not a 
question of getting them out and then flipping a switch and 
seeing that they don't work. They are already operational. We 
just have to get them to the remaining posts.
    Mr. Rogers. Are there any mission-critical systems still 
not compliant?
    Ms. Cohen. Only in the sense that we have these embassies 
we have to finish up. We have a mission-critical financial 
system that is being implemented in three places. In one place 
it is fully implemented; the other two places will be done by 
the end of May.

                          integration of usia

    Mr. Rogers. Now, you have resubmitted your plan to 
reorganize the Department to include USIA and ACDA. Originally 
you proposed that all USIA public diplomacy programs would be 
lumped together in one bureau. I and many others have 
reservations about that, as you know. I understand that you are 
now proposing one bureau for exchanges and a separate office 
for the rest of the public diplomacy.
    Can you explain that proposal and how you think it serves 
the best interests of integrating these programs within the 
Department?
    Ms. Cohen. I will let Pat Kennedy address that.
    Mr. Kennedy. Thank you, Mr. Chairman.
    After a lot of review and analysis, including concerns 
expressed by yourself, the Secretary rereviewed her 
recommendations to the President and we have, as you know, 
submitted a revised plan and program for the public diplomacy 
arena. We have gone back to the statutory provision of the 
Bureau of Educational and Cultural Affairs, which is the exact 
language drawn from the Fulbright-Hays Act and is actually 
almost back to the future. The Bureau of Educational and 
Cultural Affairs was located in the State Department in the 
1970s and was subsequently transferred to USIA, so it will be 
coming back almost to where it was in the 1970s as a full-
fledged bureau with the sole responsibility for dealing with 
educational and cultural affairs, and, as was always the case 
in the budget submission, having this separate statutory 
appropriation line for educational and cultural exchanges, 
Fulbright-Hays and others.
    On the question of information programs, this is in fact a 
service-type function. This is a very good organization in USIA 
that serves, and in fact is, an in-house effort to produce 
programs, films, video, other productions, that tell America's 
story and communicate our foreign policy goals and concerns to 
the world. This will be set up as a special office under a 
coordinator for international information programs, reporting 
directly to the new Under Secretary of State for Public 
Diplomacy that is provided in the statute, and this office will 
continue to serve the regional bureaus, the exchange bureau, 
the functional bureaus in the State Department, by providing 
them the in-house expertise to develop outreach public 
diplomacy efforts that will serve the American people. We think 
that this new proposal, with the Assistant Secretary handling 
the cultural and educational programs and a coordinator for 
information programs, will provide the best balance to get 
those two missions done.
    Mr. Rogers. Why not two bureaus, one for exchanges and one 
for information programs, the way it currently is in USIA?
    Mr. Kennedy. The information area is rather a support 
function than a policy formulation function in its own right. 
Its size is only about 250 or so people, so it does not reach 
the level of the size of a number of the other support bureaus 
in the Department whose numbers are almost in the 500 range, 
plus or minus. Therefore, since it is a support function, since 
it really is serving the Under Secretary for Public Diplomacy, 
it is his staff arm to make sure that programs are developed 
and the support is rendered to the regional and functional 
bureaus in communicating public diplomacy. It was decided that 
rather than create another Assistant Secretary with the 
concomitant overhead, that a coordinator for public diplomacy 
would be a more effective way of providing that support to the 
Under Secretary.
    Mr. Rogers. The plan takes two public diplomacy programs, 
worldnet interactives and foreign press centers, and puts them 
under the Secretary's press spokesman. Do you not see any 
difference between public diplomacy and public affairs?
    Mr. Kennedy. Mr. Chairman, there is clearly a distinction 
between public diplomacy and public affairs. The issue here 
that we wrestled with and the reason the Secretary came down 
the way she did in her recommendation to the President is that 
these days, though there are separate public diplomacy 
audiences around the world and a separate American audience, 
there is not a separate world press corps that is different, in 
effect, from the United States. When senior Members of Congress 
speak, when the President speaks, when a Member of the cabinet 
speaks, they are addressing one press corps, everyone from CNN 
to Agence France Presse to Deutsche Welle, all lumped together. 
There is one press corps out there that is covering the United 
States' statements and policy initiatives. And in order to 
streamline, in order to achieve savings, in order to deliver a 
more effective and cost efficient operation, it was thought 
that having one office that addressed the one, in effect, world 
press corps, would be more efficient and more effective, 
because right now, American journalists go to the foreign press 
center, foreign journalists come to the State Department's 
daily press briefing, and running two separate press operations 
within one State Department would be a waste of resources and 
not an efficient use of the taxpayers' money.
    Mr. Rogers. Well, one of the reasons why the State 
Department plan was put in place was really a reinvention of 
the State Department's operations, streamlining, reinvention. I 
don't see any of that in this new plan, if you are going to 
have the Secretary, the Deputy Secretary and six under 
secretaries, by my count, 29 bureaus. I was sort of hoping you 
would take advantage of the softball we threw you to really 
reinvent the whole department. What do you think?
    Ms. Cohen. I think we are in the process of reinventing the 
Department. It may not be showing up yet on the reorganization 
chart, but I think it will show up there in the next six months 
or so, but it is showing up now in terms of the kinds of 
efforts that we are undertaking, including, I talked about the 
McKinsey effort and the overseas presence panel. There are a 
variety of studies underway, and I think rather than simply 
rearrange the boxes, the Secretary has chosen to take a look at 
how things are functioning and is working on relooking at the 
State Department right now.
    Mr. Rogers. Well, as my letter indicates to you, the one I 
sent earlier, I was somewhat disappointed that you didn't take 
advantage of the opportunity while we were consolidating to go 
ahead and reinvent the whole department, streamline, save 
money, consolidate other functions, cure inefficiencies. So 
what you are saying is that you are still in the process of 
doing that?
    Ms. Cohen. I would say we are doing it. It is a work in 
progress. But people talk about efficiencies at the Department, 
and I think that there will be efficiencies we can achieve, but 
I would say simultaneously that this is a department that in 
some areas, as you have recognized, has also been in need of 
investment.
    Mr. Rogers. And I fully appreciate that. But it is a 
department that has resisted being jerked into the 18th century 
for a long time, and we are trying to move in that direction.
    Mr. Serrano.
    Mr. Serrano. Thank you.
    I am listening and wondering if you really do reinvent, if 
I could give you a list of policies you could ignore in the new 
department. However, I promised, Mr. Chairman, I wouldn't 
mention that island in the Caribbean at this hearing and he is 
not going to mention the census.
    Mr. Rogers. You managed to just do both.
    Mr. Serrano. We could take a census in the Caribbean island 
and come up with how they feel about a policy.

                       security of overseas staff

    You spoke about the security measures that were taken 
overseas since the bombings began. I am wondering, you spoke 
about the State Department areas, but have there been threats 
to housing facilities for State employees stationed in these 
countries and in surrounding countries also?
    Ms. Cohen. I will let Dave Carpenter answer that.
    Mr. Carpenter. Congressman, I don't believe that there have 
been threats per se, which should not be confused with are we 
addressing the issue of housing overseas and the security of 
our personnel in that housing, either complexes or specific 
residences. We have increased our local guard contracts to 
ensure that they have a security presence at our housing 
facilities. If they are in a compound, it is certainly easier 
to ensure that presence. If their homes are spread out over a 
relatively small area, we have patrols that are watching those 
houses. We are in the process of installing shatter-proof 
window film in those residences that we own overseas for the 
prevention of someone throwing a rock or something like that. 
We are increasing lighting where we can in cluster housing to 
try to deter someone with intent to do harm to a person.
    Mr. Serrano. Now, has anybody been telling us what 
countries our people are in, and have we evacuated people from 
other places fully?
    Ms. Cohen. We can supply you with a list. I don't think we 
want to go into----
    Mr. Serrano. No, no, but do we have people in danger of 
being hurt by our own actions?
    Ms. Cohen. Well, I will say this. I have had the chance to 
talk to Congressman Rogers and you about this somewhat more, 
but I think Dave will agree, we are finding that as America 
takes the initiative in different foreign policy areas, there 
are groups that are opposed to what we are doing, and what they 
are focusing on are our embassies. Not to say that there 
wouldn't be threats against individuals, but the threats so far 
are largely at the embassy. They are the targets that really 
get the most attention and perhaps the most press for people; 
they are the most visible, they are the symbol of the United 
States. So when you say are our people in danger, to the extent 
that our embassies are not fully secured, yes.
    Mr. Serrano. I guess my greater concern is one of 
coordination. When we undertake something like we are doing 
now, I mean I hope somebody from the side that does the 
bombing, with all due respect to them, talks to you guys and 
says, you know, get some people out of the way. As foolish as 
that may sound or as ridiculous as that may sound, I get the 
feeling sometimes one hand doesn't know what the other one is 
doing. We have situations in this country in our policy where 
you are not allowed to travel to certain countries, right? But 
we have people, Americans living in Hong Kong, which is now a 
part of a place that perhaps you were not supposed to travel to 
10 years ago, and no one has asked those thousands of Americans 
to come home because they are not living under a certain 
system. It gets pretty confusing to me and I wonder how 
confusing it is to you guys.
    My question still is, are there people in harm's way that 
we never meant to be in harm's way, or is someone telling you 
to get people out before they go bombing our own people?
    Ms. Cohen. We have much better coordination now between all 
of the agencies involved, and Dave, you might want to address 
that, and Mary can tell you about the travel warnings.
    Mr. Carpenter. I think you bring up a couple of points. 
One, an example of what you are describing is Belgrade. 
Obviously, prior to the bombings that took place in Yugoslavia, 
we evacuated all of our personnel out of there, alerted all of 
our personnel on the bordering countries of the impending 
hostilities, and tried to make decisions based on their 
vulnerability by virtue of their proximity to the front, if you 
would call it that.
    The analysis that you are referring to goes on daily. We 
virtually discuss every embassy in the world on a daily basis 
as to threats, either new threats or ongoing threats to our 
personnel there; do we have personnel in danger overseas? 
Answering your initial question, of course we do. It is 
dangerous to live overseas.
    What we are trying to do is minimize that threat to our 
personnel by being proactive in analyzing the threats that we 
do have, analyzing the political situations within a country, 
as well as the capabilities of the host government to protect 
us there, and then make decisions as to do we have too many 
people at an embassy under the circumstances that we are 
facing. In other words, if we had a threat against a post, we 
are not the least bit shy about requesting that they cut down 
their size to their core level until this threat is resolved, 
and we have done that quite a few times over the past 6 to 8 
months.
    Mr. Serrano. Now, what responsibility do you have past your 
personnel? I mean do you also let other American citizens that 
are living in those areas get out. Do you force them to get 
out?

                protection of american citizens overseas

    Ms. Ryan. If I may, Congressman, that is in my area. I am 
one of the people who believes that government has no more 
important responsibility than the protection of its citizens 
abroad. So when we get threats in, we put out either a public 
announcement, which is a kind of a short-term thing, or a 
travel warning where we advise Americans that the country that 
is named, now of course it is Serbia, is too dangerous to 
travel to, and we advise them to really consider very seriously 
leaving that country and not to go to that country while the 
threat exists. And we also advise them at the time when the 
threat no longer exists. So we have now some 29 travel 
warnings--28 travel warnings and 29 public announcements out on 
countries all over the world where we are advising Americans of 
short-term danger. An election which may cause demonstrations 
or unrest would generate a public announcement. A situation 
like the former Yugoslavia would require a travel warning. So 
when we tell our own official people that there is a danger, we 
also simultaneously tell the American public. It is on our web 
site----
    Ms. Cohen. I think our web site----
    Mr. Serrano. It is fascinating though, what you just told 
me. Mr. Chairman, I was under the impression, I don't want to 
be sarcastic, that when we are bombing a place we would order 
Americans out. What I am hearing is that you advise.
    Ms. Ryan. We can't order Americans to do anything. Would 
that I could, because I wouldn't let them travel anywhere. But 
we can't tell them that they can't go somewhere.
    Mr. Serrano. Well, except out in the Caribbean, but that is 
by law, right?
    Mr. Kennedy. There is no general statutory authority, sir, 
available to the State Department to say to an American living 
in Yugoslavia, you must leave.
    Ms. Ryan. We give them the information that we have and 
tell them what we think they should do.
    Ms. Cohen. It is my sense that the State Department's 
travel warnings are really the most respected in the business 
and well-used. For example, various tourism companies that are 
operating tours will offer people refunds if the State 
Department goes to a certain threat level. So it is a generally 
accepted source of information on the risks that people will 
face.

                state's website and internet initiatives

    How many hits do you get a day on the web site?
    Ms. Ryan. The web site gets over 4 million hits a month, so 
we get a lot of business.
    Mr. Serrano. Just like Mr. Rogers says his congressional 
web page gets about 5 million hits a month.
    Speaking of the web page, you ended a statement by saying, 
and we hope we learn, I think that is what you were saying, I 
hope we learn to use it better.
    Ms. Cohen. Oh, yeah, the Internet.
    Mr. Serrano. What did you mean? For what purposes do you 
use it and what did you mean?
    Ms. Cohen. Well, the first thing that we have done in the 
last year was make the Internet available to State Department 
employees, and we don't have all new young recruits. We have 
many people my age and after you have learned to use e-mail, it 
is really important that you learn to use the Internet, that 
there are so many things that you can research and understand 
by using that. I mean just the kind of cross-references that 
you get on the NATO bombing, where you get to see, Serbian 
sites. That is the kind of information that we really have to 
train people to use. We have a very small group, it is in the 
intelligence area, that is working to provide our employees 
with a way to access the Internet so that if you look up a 
country, you will see not only its geography and topography in 
front of you, you will see the population, the roads, you will 
see the poverty rates in different parts of the country, 
environmental degradation, water resources. So all of that--the 
power of it is really not something people are yet taking 
advantage of.

              u.s. advisory commission on public diplomacy

    Mr. Serrano. Mr. Chairman, I have a question on a 
particular item that was brought to my attention. I understand 
that the U.S. Advisory Commission on Public Diplomacy was 
abolished in the reorganization legislation and that your 
organization plan does not propose retaining this advisory 
commission. You are probably aware that a bill has been 
introduced in the House, H.R. 559, to provide for the 
continuation of this advisory commission. Would you please 
comment on this issue and tell us the State Department's view 
concerning the usefulness of this advisory commission. Also, 
what is the annual cost for this commission, including staff 
costs and Member travel, and does the State Department have 
other advisory commissions that annually report on foreign 
policy issues, including public diplomacy? So please could you 
give us a little history of that?
    Ms. Cohen. I have met with this advisory commission and I 
know the good things that they have done in the past. Pat has 
been the lead on the reorganization, so I will let him respond.
    Mr. Kennedy. Thank you. The enabling legislation that 
passed last October abolished the advisory commission on public 
diplomacy. As Bonnie said, she has met with the members of the 
commission as have I, as have others who have been working on 
reorganization. The Commission has done excellent work in the 
past, and there is no doubt about that. However, in the current 
environment, where there are very constrained resources, and 
with the availability of a number of other commissions that 
have been engaged in the private sector, such as the Stimson 
Center and the CSIS studies, our feeling at the moment is that 
given scarce resources, given the availability of oversight and 
assistance to the Department from the private sector and 
nongovernmental organizations, there does not appear to us to 
be a need to reestablish the Commission, to fund the salaries 
and the travels of its Members, and to provide the staff for 
the Commission. I believe the figure was on the order of $1 
million, a little under that, and certainly not over it. But in 
this era of scarce resources, there are other places that we 
can turn to to find that kind of expertise to guide us and 
advise us.
    As you said, there are other advisory commissions that we 
have, but those commissions are usually of a, very highly 
specialized and technical nature and something on the area of 
nuclear weapons safety or the Pacific salmon, not such broad 
areas as public diplomacy, and we believe the area of expertise 
we need can be found in other places without cost to the 
taxpayers.
    Mr. Serrano. The Pacific, what did you say?
    Mr. Kennedy. Salmon.
    Mr. Serrano. You mean salmon like fish?
    Mr. Kennedy. Yes, sir.
    Mr. Serrano. So you trust the public sector on diplomacy, 
but not on fish?
    Mr. Kennedy. It is a question of where available expertise 
can come from, and there is a large number of----
    Mr. Serrano. I don't disagree with you, I just thought it 
was an interesting notion I wanted to keep in mind. Thank you.
    Mr. Rogers. We have two votes on the floor. It will require 
that we have to take a brief recess while we run down and do 
our duty on the floor, so we will be in recess for about 5 
minutes.
    [Recess.]

                        public diplomacy funding

    Mr. Rogers. The committee will come back to order.
    I am somewhat concerned about your proposal to lump the 
funds for public diplomacy into the diplomatic and consular 
programs account. Why aren't you proposing to keep those funds 
in a separate account as you are with educational and cultural 
exchanges?
    Mr. Kennedy. If I could, Mr. Chairman. The activities of 
the current USIA have a separate account, a separate 
appropriation for the exchange program, and then there is a 
separate account at USIA called international information 
programs, which is their generic account for providing 
everything from rents to utilities to public diplomacy 
activities. In the new State Department under the 
reorganization plan, we are requesting in the President's 
budget to retain a separate appropriation account for 
exchanges, but we believe that there can be sufficient 
efficiencies and economies obtained by having the routine 
operational money put into the State Department's diplomatic 
and consular programs. But, in order to ensure that public 
diplomacy is fully respected and to ensure that we can identify 
to you exactly what we are spending things on, we would set up 
a series of allotments that would be used only for public 
diplomacy activities. We would continue to identify that 
funding in the congressional presentation document, and 
specifically those devoted to public diplomacy, and with the 
allotment process, we get the identification and the 
segregation of those funds without setting up artificial walls 
and stovepiping things that will make it difficult to achieve 
efficiencies and economies in overhead and operations.
    Mr. Rogers. Well, your House authorization included a 
separate account for public diplomacy at $313 million in the 
Year 2000. Do you agree that that is the amount in your request 
for public diplomacy?
    Mr. Kennedy. The figure after adjustments, because the 
budget submission process and the reorganization process were 
running simultaneously is $305 million, sir.
    Mr. Rogers. What do you see as the benefit of having the 
vast majority of the Department's operating funds in a single 
account as you are proposing in the fiscal year 2000 budget? 
What is the benefit of that?
    Ms. Cohen. Well, I think from an overall point of view, we 
do submit to you detailed backup on how we are going to spend 
the money and how we do spend the money, but it gives the 
Secretary, from her perspective, the opportunity to exercise 
leadership and make decisions and be really the chief operating 
officer of the State Department.

                            embassy security

    Mr. Rogers. Now, let's get back to embassy security.
    At previous hearings, both you and the Secretary said that 
there were ongoing discussions within the Administration about 
submitting an additional request for security construction 
funding for 2000. Is there any progress you can report to us on 
that?
    Ms. Cohen. The discussions are still ongoing, but they 
haven't reached any satisfactory conclusion.
    Mr. Rogers. Your Overseas Presence Advisory Panel is 
underway. How is that effort going, and when can we expect to 
get their recommendations?
    Ms. Cohen. I think we are very fortunate. The Secretary has 
been very pleased with the quality of people who have really 
volunteered for this enthusiastically. I think it is a subject 
that people have thought hard about and want to be actively 
engaged in. The panel has been underway for a month. The panel 
members themselves, which include Admiral Crowe, Ambassador 
Rohatyn--I can't name them all, but if you don't have the full 
list, we would be glad to get it to you.
    Mr. Rogers. Well, I met with Mr. Kaden, and we asked him 
for some sort of timetable and he said he had hoped to get us 
preliminary thoughts at least before we marked up, and that is 
what I am shooting for.
    Have they done anything yet toward giving you some options 
or giving you some ideas about options?
    Ms. Cohen. They haven't yet, but they are just in the 
process of finishing up the trips by the panel members to 
different regions and looking at different sizes of posts. I 
will get back in touch with him and see what he thinks he can 
supply you before you mark up.
    Mr. Rogers. Much of your overseas work force is engaged in 
support functions. Have you considered outsourcing those 
functions as a way of reducing both costs and security risks?
    Ms. Cohen. Well, I am not sure what functions you have in 
mind. As you know, much of our work force overseas already is 
foreign nationals. We have some functions that we can't 
outsource because of security considerations. With the new 
computerization that we have been able to do with your 
assistance, we are considering whether there are some of those 
functions that we can pull back from individual posts support 
functions and centralize more.
    It is important to point out, as you know very well, that 
the support functions we provide are not just to State, but to 
all of the agencies there.
    In addition, as Jim is pointing out, under ICASS, we and 
the other agencies are taking a look at that for specific 
functions and in some cases posts have been identifying people 
in the local market who can provide services.
    Mr. Rogers. One of the tasks of the Kaden panel is to 
outline a multiyear funding program for security construction. 
Are you waiting for their recommendations before you put 
forward a new budget request that we had asked you for for 
construction?
    Ms. Cohen. Yes. This is, as you know better than I, an 
enormously difficult issue. We have needs for really billions 
of dollars. The administration has proposed $3 billion over a 
5-year period, and our needs are well in excess of that. So 
while we can identify the dollar requirements, we are working 
very closely with the panel, and I think in this case the lead 
panel member is Bill Poorvu from Harvard Business School 
working with, I think they hired Price Waterhouse, to come up 
with alternative ways of thinking about financing to propose to 
the administration and to you.
    Mr. Rogers. We would be all ears.
    Ms. Cohen. Yes, we would, too.
    Mr. Rogers. Last week the Department agreed with the Crowe 
report and said that you agreed with all of the 
recommendations, one of which was for the immediate closure of 
highly vulnerable posts, pending securing secured premises.
    My understanding is that only one post has been closed in 
that context. Does that mean--does that say that there are no 
other highly vulnerable posts?
    Ms. Cohen. No, it doesn't say that. I will say a little bit 
and ask Dave to add to it. We have closed one post; we have one 
post also where we have moved the people out of where they were 
into other interim facilities right away. We are considering 
that same option for a third post. In addition, where we see 
immediate threats we have closed posts for a matter of time 
while that threat is investigated.
    Dave?
    Mr. Carpenter. Mr. Chairman, I would only add to what Under 
Secretary Cohen said by mentioning that, basically, on the 
heels of the emergency supplemental, we have been allowed to 
take a great number of posts out of what we would call the 
vulnerable position. That is not to say that all posts are not 
vulnerable and that all posts have the necessary setback. We 
have taken in some cases extraordinary measures to try to 
compensate for the fact that they do not have the preferred 
setback, by using personnel to be vigilant in and around our 
facilities.
    In the absence of specific threat information, we are 
comfortable with the level of security that is being provided 
at most of our facilities. However, when threat information 
becomes available to us, we are duty-bound to evaluate the 
vulnerability of that particular post if it doesn't have 
setback and make decisions based on that fact. Our normal 
procedure has been to take a time-out, a temporary closure of 
that facility.
    We have, as you know, 260 facilities worldwide. Eighty-
eight percent of them do not have setback, and it is a daily, 
daunting, ongoing task to evaluate the vulnerability of these 
posts. To date, there have been a number of closing, I can 
provide you, if you would like, at a later date, the number of 
closings that we have had, the duration and the posts that we 
have actually closed. That is a process and procedure that we 
are using to ensure people's security.
    Let me assure you that in no instance do I personally or 
professionally believe we are keeping a post open and the 
keeping of that post open is putting people in a 
disproportionate amount of danger. We are radically opposed to 
that. We don't want to take any chances.
    Mr. Rogers. So you are reasonably comfortable unless where 
you have had a specific threat. Did you have a specific threat 
in Nairobi or Dar es Salaam?
    Mr. Carpenter. We did not. No, sir.
    Ms. Cohen. An additional thing I would say is that we are 
now in pretty constant touch with the embassies' ambassadors 
and Dave with his regional security officers, so that decision 
is on a comfort level or a combination of DS and people who are 
on the scene experiencing it themselves.

                   marine security guard detachments

    Mr. Rogers. Well, another recommendation was to augment the 
number of Marine security guard attachments. Where do we stand?
    Ms. Cohen. We are in the process of increasing the number 
in this year's budget, but I think that the recommendation goes 
beyond that. The Secretary is very supportive of the 
recommendation. I think the Defense Department is on record 
supporting the recommendation, and I think we would hope that 
the budget that the administration submits in 2001 would 
continue to increase the ramping up of that program.
    Mr. Rogers. Well, your plan was to put 37 new detachments, 
is that not right?
    Ms. Cohen. I think it was, yes.
    Mr. Rogers. And the plan was to split the cost 50-50 with 
DOD. But the money in the DOD budget for this current year, 
1999, is only for 14, not 37, and DOD has nothing in their 2000 
budget request for Marines. Is that not right?
    Mr. Kennedy. That is correct, Mr. Chairman. We are still in 
discussion with DOD. It was to be a multiyear shared phasing of 
the funding, and so for fiscal year 2000, DOD has not yet 
matched our request.
    Mr. Rogers. Well, have you included construction costs in 
your year 2000 request to house the Marine detachments?
    Mr. Kennedy. No, Mr. Chairman. Housing under the new MOU 
would be provided by DOD. They are now responsible for the 
building of the Marine security guard detachments overseas. 
What we have requested money for in our share would be for the 
physical changes to the embassy in order to permit the Marine 
security guard detachment to operate at the embassy and to 
cover certain operational costs.
    Mr. Rogers. Well, the bottom line is, we are not getting 
the Marines in place, are we?
    Mr. Kennedy. We are increasing the numbers this year, Mr. 
Chairman.
    Mr. Rogers. Modestly.
    Mr. Kennedy. Modestly. We have been working with DOD, 
because what DOD has to do is to literally increase the end 
strength, the table manning, staffing, whatever the military 
acronym is, I can't remember, for the Marine security guard 
battalion to enable them to increase to the full 37 new 
installations.
    Mr. Rogers. Well, if there is a revised budget request for 
embassy security, which I hope and trust there will be, do you 
anticipate that you would include funding to deploy these 
Marines more quickly? I mean I think everyone agrees that 
putting more Marines out there was a vital part of the overall 
plan. Is that not right?
    Mr. Carpenter. Yes, sir.
    Mr. Rogers. And to date, do we have any additional Marines 
at any embassy?
    Mr. Kennedy. We are currently constructing the hard line, 
the Marine security guard posts. The booth that you see at the 
door is being built at 11 posts, Mr. Chairman.
    Mr. Rogers. Is what?
    Mr. Kennedy. We are doing the construction work right now 
to add 11 posts to increase--to provide the facility from which 
the Marine security guards operate.
    Mr. Rogers. Well, do you anticipate we would have more 
requests in the budget request if it should come up?
    Ms. Cohen. Well, I will take your question back.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]
              Funding for Marine Security Guard Facilities
    There is an interagency plan to activate Marine Security Guard 
(MSG) detchments at up to 43 posts around the world. In FY 1999, $25.3 
million was provided for the acquisition of living quaters and other 
facility modifications to enable the deployment of MSGs to 10 posts; 
$12.8 million was funded by State and $12.5 million by DOD.
    In FY 2000, State is budgeting $10.9 million for our share of the 
joint program. Our understanding is that DOD did not seek additional 
funding for this purpose. The Department will now have to determine how 
to move forward with this program. It is our hope that it will continue 
to be jointly funded with DOD.

    Mr. Rogers. Is that an OMB decision?
    Ms. Cohen. Well, I would think so.
    Mr. Rogers. You know, I have said this at every hearing we 
have had. I don't know why we have these hearings. I don't know 
why we just don't bring OMB up here, line them up on the table, 
and let you all go back to work and let us hash out these 
things. Because they tell you what you can and can't do and 
they send you up here to defend what they say you can and can't 
do, and we can't get at them. So I think next year, next time, 
we are going to have OMB sitting at the table with you so that 
we can ask them, why did you cut back on the request of the 
Department for more Marines, as Crowe suggests, and these other 
security measures, more money for buildings, while we are 
spending $12 million to improve the residence of the ambassador 
in London, which we will get to later.

                    collocation of agencies overseas

    The Crowe report also recommended that when new facilities 
are built, all government agencies would be collocated in the 
same compound. Do you agree with that recommendation?
    Ms. Cohen. I think that that has been the policy, but we 
have been reaffirming it. There are some agencies that are 
separate; for example, the Peace Corps, which would have a very 
small office in a country and wants to keep it that way. But 
the major agencies have agreed, and I think the one who is most 
concerned was USAID and they have just sent us a letter 
indicating that they wish from now on to be collocated.
    Mr. Rogers. Can we expect collocation in Nairobi and Dar es 
Salaam?
    Ms. Cohen. Yes.
    Mr. Rogers. How do you expect to address the security needs 
of those agencies that are not collocated with you? Who is 
responsible for that?
    Mr. Carpenter. Well, although the State Department is 
responsible for the protection of those American employees, the 
decisions not to collocate would have to be made based on some 
security issues being satisfied. In other words, if a facility 
does not have certain safeguards; i.e., the shatter resistant 
window film, the Mylar type thing, setback and that type of 
thing, it would seem, in the current environment that we are 
in, illogical to grant a waiver for them to be off campus, so 
to speak. So that any attempt by an agency to not collocate 
would have to meet specific security conditions.
    Mr. Rogers. That apply to embassies?
    Mr. Carpenter. That apply to embassies, or very similar to 
what apply to embassies.

                            security funding

    Mr. Rogers. Now, finally, the Crowe report recommended $1.4 
billion annually to relocate posts to secure facilities and to 
provide additional security. In stark contrast, as we said 
before at this hearing, you requested not a penny in fiscal 
year 2000 to relocate posts, and we said that is unacceptable, 
and it is unacceptable. We will just not stand for it. I don't 
know what your request to OMB was in this respect. Do you have 
that before you, do you know what the request to OMB was?
    Ms. Cohen. Yes.
    Mr. Rogers. What was it?
    Ms. Cohen. Our final request for that specific activity was 
about $640 million. We had started at a higher level, but felt 
that $640 would give us the opportunity to make a lot of 
improvements and ramp up a substantial program.
    Mr. Rogers. Instead they gave you zilch.
    Mr. Kennedy. $36 million on the construction side, Mr. 
Chairman.
    Mr. Rogers. Crowe said you need $1.4 billion.
    Mr. Kennedy. There is about $250 million in the budget that 
is, in effect, the outyear funding for those personnel 
increases and other increases such as expansion of the security 
program that you provided in the emergency supplemental.
    Mr. Rogers. That is the tail of the supplemental. Crowe 
doesn't take that into account. Crowe says we want $1.4 billion 
and there is nothing in your budget for fiscal year 2000 for 
relocating posts to secure facilities for Americans working 
overseas. In the immediate aftermath of Dar es Salaam and 
Nairobi, the hue and cry out of the Administration was we are 
going to protect our people overseas and the Congress is not 
giving us enough money. And here you come up and you ask for 
nothing, and I find that to be the height of hypocrisy. Not on 
your part, but on the part of whoever makes that decision 
downtown at the White House. I assume it is the OMB, and it is 
just not acceptable. I will not have it on my hands, if 
something happens that we could have done something about. Any 
comment?
    Ms. Cohen. No.
    Mr. Rogers. Do you want to get back with us with some more 
money requested?
    Ms. Cohen. We hope to.
    Mr. Rogers. Do you want to tell us where we can find it?
    Ms. Cohen. That seems to be one of the major issues.

                   Renovations to official residences

    Mr. Rogers. Well, I can tell you where you could have found 
$12 million of it, and that is the London ambassador's 
residence. The State Department allowed a $3 million renovation 
of the London ambassador's residence to balloon to a $12 
million project and we are not done yet. How did we come to 
this point?
    Mr. Kennedy. If I might, Mr. Chairman, the ambassador's 
residence in London was donated to the United States Government 
in the late 1940s, and we pay an annual rent of, I think, 1 
pound or 1 shilling. It is literally a token rent. It is a very 
good property. Rents in London are extremely expensive for even 
a modest residence that we might want for a United States 
ambassador, and we have not put any maintenance money, any 
major overhaul into that property during the 50 years that we 
have had it. It reached the point where we either had to 
undertake major renovations of that property or give it up and 
go out and lease property on the market at a very, very high 
rate. We went in there, and remember that it is an historic 
property. As we opened up walls, we found asbestos and other 
materials that had to be removed.
    I fully agree with you, Mr. Chairman, that $12 million is a 
large sum of money, but when you prorate that sum of money over 
the 50-year life expectancy of the building that we will 
continue to operate, it becomes a good investment in terms of 
the rent costs that we will avoid.
    Mr. Rogers. Well, how many more of these are there? We ran 
across one by accident in Buenos Aires on a trip this 
subcommittee was on. The renovation of the ambassador's 
residence in Buenos Aires that we didn't know about cost $6 
million, and we came back and I had staff start scrutinizing 
the 1998 foreign buildings office reprogramming requests over a 
period of several months. We discovered that the cost of the 
London embassy rehab that started in 1994 at $3.4 million had 
grown to $6 million and was now estimated at greater than $12 
million. In the reprogramming response that we gave you, we 
told you not to go above $6 million, but you said you had 
already signed contracts. But as I understand it, the increases 
in cost decisions were basically made in the field without 
anybody at headquarters even knowing about it or signing off on 
it. Is that generally correct?
    Mr. Kennedy. Some changes were made in the field, but not 
of that magnitude. We have totally changed our procedures, Mr. 
Chairman, to ensure that there is both more identification to 
this committee and greater scrutiny. But we ran into, as I 
mentioned, we ran into severe electrical, mechanical and 
asbestos-related problems in that property as the process of 
reconstruction rolled out.
    Mr. Rogers. Well, not only did you voluntarily make 
changes, but in the 1999 bill we put in procedures that made 
you change.
    Mr. Kennedy. Absolutely.
    Mr. Rogers. And I want to know who made the decision on 
this, who was responsible for approving the project by spending 
$12 million and signing contracts at that level?
    Mr. Kennedy. I would have to get back to you, sir.
    Mr. Rogers. You don't know off the top of your head?
    Mr. Kennedy. No, sir, I don't.
    Mr. Rogers. That in itself is interesting testimony, that 
you don't know. Are you sure you don't know?
    Mr. Kennedy. No, sir, I don't know.
    Mr. Rogers. How soon can you get back to me?
    Mr. Kennedy. By the end of the week.
    [The information follows:]
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

      London Ambassador's Residence: Approval of Project Spending

    In Decmeber 1996, the former Deputy Assistant Secretary for 
Foreign Buildings Operations, Mr. Joseph Sikes, authorized the 
Department to incur expenses for the rehabilitation of the 
ambassador's residence in London.
    The property had been in continuous service and never 
undergone major rehabilitation since 1954 when the lease was 
renewed for 99 years at a cost of five pounds sterling per 
year. The cost to retain and renovate the residence was the 
least expensive alternative to providing an official residence 
for the U.S. Ambassador in London. Acquisition of another 
property, considering all expenses over the remaining lease 
term of 45 years, was determined not to be in the best 
interests of the United States.
    In addition to historic significance, the value of Winfield 
House is defined in part by the bilateral relationship between 
the United Kingdom and the United States. However, the property 
has no market value to the U.S. Government since it is leased. 
Since the U.S. Government enjoys virtually rent-free use of the 
residence for 45 more years, renovation costs are warranted 
even compared to free simple ownership of a comparable 
property. Except for maintenance, the financial value of 
Winfield House to the U.S. Government has been significant cost 
avoidance for years.

    Mr. Rogers. Name, address, telephone number, serial number.
    If this happens again, it will be a lot worse.
    Now, you are asking in the reprogramming currently before 
us for another $900,000 for that project to take it to $12.6 
million?
    Mr. Kennedy. That is to finish it off, yes, sir.
    Mr. Rogers. That is what they said at $3 million is give us 
a couple more dollars and we will finish it off.
    Mr. Kennedy. That was the estimate before we had the full 
engineering study that determined exactly what the asbestos and 
mechanical and electrical problems were.
    Mr. Rogers. Now, where are you proposing we take that money 
from to pay for that?
    Mr. Kennedy. From our general rehabilitation budget for 
overseas properties.
    Mr. Rogers. And we are not--and you are not asking for a 
penny to relocate dangerous posts, but you are asking for 
another almost $1 million to finish off the ambassador's 
residence in London, which I assume is not much of a threat, is 
it? That is not a very good story, is it?
    Ms. Cohen. If I can jump in at this point, we manage 
something like $10 billion worth of property, and while I am 
not familiar year-by-year and step-by-step with the London one, 
we obviously have a responsibility simultaneously to keep up 
these properties, and I can't tell you whether $12 million 
should or shouldn't have been spent in London, but we have a 
lot of properties that need to be repaired at the same time 
that we need to move properties and secure them. So these kinds 
of trade-off decisions are being made all the time. We will 
take a look at the $900,000, but the idea of finishing the 
property that people have already invested in, finishing it off 
makes sense, but we aren't in the business now of rehabbing 
ambassadors' residences ahead of the other kinds of issues that 
we have for security, unless there is a security issue related 
to the residence.
    Mr. Rogers. Well, we are perfectly willing to leave those 
decisions to you, but when we run across by accident, here are 
two instances I think of as egregious, it makes us wonder if 
there are others. So we are going to have to start working with 
you very closely on each project, because when you total up 
these kinds of dollars, you are talking about enough to build a 
secure embassy somewhere for a dangerous post, and that is our 
priority. The last I heard, the Congress still makes the 
decision about where the tax dollars are spent, and so we are 
going to expect to be included now in these decisions on 
renovations. As much as I don't want to do it, it looks like we 
are going to have to, at least for a while, because we have to 
find the money to make our people safe, not luxurious.

                             Berlin Embassy

    Now let's talk about the Berlin embassy. Where are we?
    Ms. Cohen. We have not put in money for the construction of 
the new embassy and we haven't undertaken any design work 
pending the city government closing the streets that we need 
for the setback. So we are in a pause for that embassy.
    Mr. Rogers. Well now, the last I heard, the Berlin Senat 
had passed a resolution approving the street changes for the 
100-foot setback. Is that true?
    Ms. Cohen. That is true, and then Dave went out there and 
visited and came back and recommended that we wait and see if 
the streets actually closed.
    Do you want to add to that, Dave?
    Mr. Carpenter. Yes. Mr. Chairman, what we saw was the same 
thing as you saw. Without setback, it would be ridiculous to 
build on that site. I am not 100 percent sure that the Senat 
passed that resolution. I know there was a motion to do that. I 
am not positive that that was ever done. I think there is a 
great deal of question as to their ability to carry through on 
that issue. There is a new mayor now, and I am told, that he 
currently is somewhat weak-kneed about the ability to carry 
through on that proposal. They may not be able to accomplish 
what they had at one point claimed that they could. It would be 
unwise, in the absence of the actual completion of that 
rerouting, on two very difficult streets to reroute I might 
add, to break ground until that work is completed.
    Mr. Rogers. I thought we had that settled.
    Mr. Carpenter. We thought we did also, but it appears that 
there is some backing away from that commitment.
    Mr. Rogers. Well, I told the mayor over there at the time 
that it was either build a building in Berlin or build a new 
building in Beijing, which is also in desperate need, and I 
said unless you can change these streets, ``Ich bin ein 
Beijinger!'' I don't think he liked that very much.
    Ms. Cohen. Well, we quoted you.
    Mr. Rogers. Well, so you don't have a good feel for what is 
going to happen here. Is the new mayor in office already?
    Mr. Carpenter. I couldn't say for sure.
    Mr. Rogers. Well, the RIAS site, the reason for the $50 
million shortfall is the overestimated cost, or the selling 
price of the so-called RIAS site which we looked at over there, 
and I am not a real estate person and I am not a German, and I 
don't live in Berlin, but I could have told you that that 
property is not worth the $64 million that State said it was 
worth as late as 1996, which now everyone admits to. In fact, 
what is the estimated worth now?
    Mr. Kennedy. Mr. Chairman, $12 million to $15 million.
    Mr. Rogers. Yes. What I want to know is, who provided the 
estimate of $64 million?
    Mr. Kennedy. That was a figure that was initially passed to 
us, if my recollection is correct, Mr. Chairman, by a 
combination of the Corps of Engineers and a multinational real 
estate firm that was doing work in Germany at that time. We 
took the Corps of Engineers estimate and the estimate from this 
international developer.
    Mr. Rogers. Well, I would like to get their names and 
addresses because I am trying to get a loan at the bank and I 
want them to appraise my house. I mean that is incredible. I do 
want the name and address of the origin of the $64 million 
evaluation in late 1996 on the RIAS property. I think what 
happened is, as I am afraid so often happens, there was a push 
to get the embassy going and the only way to do that, to find 
the money for it, was to overvalue the substituted property and 
knowing that once we got started we would have to fund it and 
keep it going.
    Well, as I understand it, and I am looking at the audit of 
May 1998 on this property, in 1991 the Corps appraised the site 
at $73 million, if zoned light industrial, mixed. In 1992 a 
contractor appraised the site at about $63 million if zoned 
residential. In 1995 another contractor appraised the site 
based on various zoning assumptions within a range of $6 
million to $21 million. Then, in 1996, FBO submitted to the 
Office of Management and Budget an estimated budget of $64 
million for the site. That is what I want to know the basis 
for.
    Mr. Kennedy. We will get that for you, Mr. Chairman, but 
that was an averaging of the Corps of Engineers estimate and 
the estimate of the private sector real estate firm. I think I 
know which private sector firm it was, a major multinational, 
but I want to confirm it. The assumption was based on this 
being an occupied property which had never been zoned. We 
acquired it at the end of the Second World War as part of the 
quadripartite agreement. It had no zoning and the question 
posed to the Corps and to the private sector was if this 
property would be zoned at highest and best use, which is 
standard real estate procedure, what would the property bring 
on the open market, and as the Inspector General's report that 
you were just quoting from, sir, indicated, that the range was 
from $63 to $73 million.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]
                    rias berlin property appraisals
    The referenced $64 million figure was included in the FY 97 Budget 
Request to OMB that the Department sent on OMB in August/September of 
1995, rather than the 1996 time frame stated in the OIG Audit. At the 
time for the OMB submission, the most recent appraisal of the RIAS site 
was a 1992 appraisal done by the international appraisal firm of Jones, 
Lang, Wootton at an appraised value of about $64 million. Since this 
was the best estimate of value available at the time, this was the 
figure included in the budget. The next appraisal of the RIAS property 
had been ordered by then but was reviewed and approved in October 1995.
    The firm of Jones, Lang, Wootton was a well-established, highly 
qualified international appraisal firm with offices worldwide, 
including Frankfurt. Today's firm is Jones Lang Lasalle and is located 
at 2 Platz der Einheit, Frankfurt 60327.

                     Kosovo Emergency Supplemental

    Mr. Rogers. Now, on Kosovo, the Department--the 
Administration is coming forward soon with a supplemental 
request for the costs associated with Kosovo and the military 
operations there. Will we see a State Department request as 
part of that supplemental?
    Ms. Cohen. Yes, there will be some funds for State 
Department operations there.
    Mr. Rogers. What would you anticipate would be in that?
    Ms. Cohen. That is still being discussed.
    Mr. Rogers. Have you thought about including any security 
construction requirements in conjunction with the Kosovo 
supplemental?
    Ms. Cohen. Yes.

                        NATO Anniversary Summit

    Mr. Rogers. Now, we received your omnibus reprogramming 
request March 30th. In it you proposed to spend $5.73 million 
for the NATO anniversary party later this month, as compared to 
$2 million in the budget request. Then, we have a separate 
reprogramming from USIA that proposes to spend an additional $2 
million on the same celebration.
    Now, I have to ask, is that an appropriate expenditure of 
dollars when we have people in danger overseas to spend seven 
and three-quarters million dollars on a party celebrating NATO?
    Ms. Cohen. Well, I don't know that we ever thought of it as 
a party, but it obviously is a major meeting of the 
international leaders of--how many foreign ministers are 
coming?
    Mr. Carpenter. Forty-three.
    Ms. Cohen. Mr. Chairman, 43 foreign ministers are coming, 
and that has commensurate costs. I think even when we requested 
the $2 million, which was I think a modest estimate----
    Mr. Rogers. Is it true that this celebration is going to 
take place on the 23rd?
    Mr. Kennedy. 23rd, 24th and 25th, Mr. Chairman.
    Mr. Rogers. And I am told that on the 23rd, you are 
shutting down the City of Washington, giving government 
employees the day off.
    Ms. Cohen. We aren't, no.
    Mr. Rogers. Well, who is?
    Ms. Cohen. The government, the Office of Personnel.
    Mr. Kennedy. The Office of Personnel Management, Mr. 
Chairman, is releasing government employees only within a 
certain circumscribed area around the Triangle. It is not 
shutting down the whole Federal Government.
    Mr. Rogers. Did they take this up with OMB?
    Mr. Kennedy. Yes, discussions with the White House, OMB and 
the Office of Personnel Management, sir.
    Mr. Rogers. Now, have you spent any of this money already?
    Ms. Cohen. Yes.
    Mr. Kennedy. Yes.
    Mr. Rogers. How much?
    Ms. Cohen. We can get you that figure.
    Mr. Kennedy. I don't know the figure.
    Mr. Rogers. You spent that without our prior approval?
    Ms. Cohen. Well, you had authorized to undertake NATO 
activities. Am I saying it wrong, Jim?
    Mr. Rogers. I think it was subject to being
    reprogrammed.
    Ms. Cohen. So do we.
    Mr. Rogers. And it has not been reprogrammed. Now, how are 
we going to pay this back? We just don't let money be spent 
without our approval, particularly when it is subject to a 
reprogramming request. How much is it?
    Ms. Cohen. Well, we will get you the number on what we have 
spent.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

                      NATO 50th Anniversary Summit

    The Department of State is reprogramming $5.73 million 
within the Diplomatic and Consular Programs appropriation to 
support the NATO 50th Anniversary Summit. The Department plans 
to expend the entire $5.73 million in support of the Summit 
activities that were designated on an interagency basis for 
State Department funding. Of this amount, the Department has 
already expended about $1.9 million of the $5.73 million that 
the Department has committed or obligated thus far for Summit 
activities.

    Mr. Rogers. That request has not been approved, and the 
monies can't be spent until that happens. So we will have to 
find a way to put the money back.

                          Reports to Congress

    Now, in the fiscal year 1999 House report, we asked for a 
number of reports on a wide variety of management issues. I 
understand that four of those reports are overdue. What seems 
to be the problem? I thought we had overcome that problem.
    Ms. Cohen. I will follow up. I don't know----
    Ms. Ryan. Mr. Chairman, in the consular area, there was a 
request for a report on passport databases that I signed off on 
which you should have. There is another report on the 
compliance with the Hague Convention on the Civil Aspects of 
International Child Abduction, which we had completed, but when 
we attempted to clear it with the Legal Advisor's office, they 
told us that we had so much detail in there that it violated 
the Privacy Act, so we are in the process of rewriting it. You 
ought to have it momentarily. I have the draft right here, so 
it will be up here in a couple of days. Those are the only two 
that I know of in the consular area.
    Mr. Rogers. Well, there is another two. There is one on the 
financial outlook for the AIT Taiwan, and there is one that is 
requested relative to the U.S.-Cuba agreement, which we don't 
have.
    Mr. Serrano. Wait a minute.
    Mr. Rogers. And then there is one on the census which we 
want you to deliver.
    Mr. Serrano. You said them both this time.
    Ms. Cohen. We will follow up. The Taiwan one is in draft, 
and we will follow up.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]
                        Reports to the Congress
    The following is a status report, as of May 5, 1999, on overdue 
reports required in the FY 1999 House Appropriations Committee report:
    (1) Financial Outlook at AIT Taiwan: due March 31, 1999, delivered 
to Capitol Hill on April 13, 1999
    (2) Methods employed by the Government of Cuba to enforce the US-
Cuba agreement of September, 1994: due March 1, 1999, pending final 
clearance, expected to be delivered no later than the end of next week
    (3) Compliance with the Hague Convention on the Civil Aspects of 
International Child Abduction: due March 1, 1999, pending final 
clearance, expected to be delivered no later than the end of next week
    (4) Improving access to passport data: due March 1, 1999, pending 
final clearance, expected to be delivered no later than the end of next 
week.
    The Department regrets the delay in the transmission of these 
reports and pledges its best efforts to ensure a timely response to 
future Committee reporting requirements.

    Mr. Rogers. Well, we would like to have those by the end of 
the month, and I hope we can make them timely in the future, 
because we request it for a purpose.

                       Machine Readable Visa Fees

    Now, your budget request anticipates $293 million in 
machine-readable visa fee collections, and a spending level for 
border security of $296 million. Fees are now anticipated to 
bring in $310 million. You proposed a spending level of $313 
million this year. Tell us what accounts for these increased 
collection and spending estimates.
    Ms. Ryan. Increased what, sir?
    Mr. Rogers. Estimates. What has caused the increased 
collection and spending estimates?
    Ms. Ryan. I will have to get back to you on that. I don't 
really know. We took in $247 million last year in machine-
readable visa money, and I thought we had estimated close to 
$300 million spending for the next fiscal year. So I will just 
have to get back to you.
    Mr. Rogers. Okay. You will get that to us, I would 
appreciate it.
    Ms. Ryan. Yes, sir.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]
             Increased Collection and Spending of MRV Fees
    Projecting MRV revenues is complex. We experienced a decrease in 
revenue in Brazil and South East Asia due to economic problems in those 
countries that resulted in a drop of tourism to the United States. In 
Mexico, we saw an increase in demand for the combined Nonimmigrant 
Visa/Border Crossing Card due to legislation requiring replacement of 
existing cards. The nest effect of these changes in demand accounts for 
the difference between our earlier revenue projection of $293 million 
and our revised estimate of $310 million.
    The change in spending from the $296 million level originally 
forecast to the current estimate of $313 million also results from 
several factors. Among the most important was a decision by the House 
Appropriations Committee to defer approval of a portion of a FY 1998 
reprogramming action. That shifted $5 million in spending for overseas 
consular automation from FY 1998 into FY 1999. In addition, the costs 
of Y2K compliance, particularly in terms of passport production, are 
higher than originally forecast. This is included within the passport 
photodigitization budget line item. Finally, the costs of the Border 
Crossing Card (BCC) program in Mexico are higher than originally 
estimated. The higher costs were driven by the need to renovate 
facilities, improve security, and reimburse the Immigration and 
Naturalization Service for producing the BCC.

                        Embassy Security Funding

    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. I am glad the Chairman stopped, because I am 
afraid to tell you from this side that the more he spoke the 
more I was agreeing with him on some things, and I am not 
supposed to join at times in making your life miserable. But 
let me give you some very friendly advice. There seems to be at 
the center of discussion about the management of our foreign 
policy comment after comment about the security of our 
personnel overseas and embassy security. Now, I understand, and 
I preface my comments by saying I understand that you are, as 
the Chairman has clearly pointed out, in a bind because some 
people will have to tell you what money to ask for. But I 
suspect that in addition to other issues, one other issue, the 
census, which could put this bill in a very difficult 
situation, I suspect that if Members on the other side join 
Members on this side in making a very serious issue about the 
fact that there was no request for embassy security and if, 
heaven forbid, anything from now to the time we take this bill 
into markup happens in one of these places overseas, you are 
going to have a major reason why this bill will get held up 
again.
    So I don't know what I am asking you to do, but I am just 
telling you that even from this extremely friendly side, I 
realize that the Chairman is right, that this could become a 
major issue, and this one in the middle of a war, because that 
is what it is, may overshadow the census debate. That is hard 
to believe, but it could, and it could end up, and frankly will 
end up having bipartisan support saying on both sides how could 
you not be asking for money. So I would hope that you would 
take that into consideration and bring that back to whoever it 
is that you bring it back to.

                       Overseas Staff Residences

    On the other issue of expenditures, and I am going to shock 
the Chairman again, I am all for supporting the people who 
represent us overseas; I always have been, and I always will 
be. But you know, it is difficult to discuss $12 million for a 
renovation when I represent the South Bronx. For $100,000, I 
could build a housing unit for a poor family, and I have to 
fight daily to ask for the Federal subsidy to keep one of those 
families in one of those apartments, people who work and try to 
feed their families.
    So shocking as it may be, the Chairman has touched on two 
subjects that I have to agree with him on. I think we have to 
be very careful as to how--you know, on one hand I am telling 
you I want the respect and dignity and safety of the people who 
do this work for us, and I have respect for them myself, but on 
the other hand, you know, keep in mind that around here there 
is going to be eventually some serious funding fights. For 
example, discussion about whether I get a little money from VA-
HUD to build a public housing project in my district or whether 
somebody gets $12 million to renovate a mansion somewhere else. 
It will not click and even your friends will begin to realize 
that it doesn't click.

                    Broadcasting Board of Governors

    Mr. Chairman, I will break my rule, since you mentioned 
Cuba, and just ask, would it be possible to ask you a couple of 
questions about the Broadcasting Board, or would it be 
something that I ask and then you will get back to me on? How 
do you want to handle that?
    Mr. Kennedy. Mr. Serrano, I have been doing the 
reorganization project for the Secretary, so I could, depending 
on the question, answer questions about the Broadcasting Board 
of Governors in a logistical or administrative way, but I might 
not be able to handle substantive questions and would have to 
get back to you, sir.
    Mr. Serrano. Well then, I will try them both and one of 
them may not be fitting into what you are talking about.
    How does continued funding, in your opinion, for TV Marti 
fit within the evolving policy towards Cuba, particularly since 
everyone agrees that it hardly ever has been seen in Cuba? You 
know that every year we put in an amendment and some years it 
has even passed parts of the Committee, if not the Full 
Committee, and then funding gets put back in because it is a 
big, touchy subject. But you know TV Marti hasn't been seen 
ever, maybe 3 times; we heard it was seen once for 3 nights and 
we continue to fund it as an electronic toy for a certain lobby 
group in Dade County and I wonder how right that continues to 
be.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided by the Broadcasting Board of Governors 
in response to the question.]

    Enabling legislation for both Radio Marti (P.L. 98-111) and 
Television Marti (P.L. 102-138) states:
    (1) ``It is the policy of the United States to support the right of 
the people of Cuba to seek, receive, and impact information and ideas 
through any media and regardless of frontiers, in accordance with 
Article 19 of the Universal Declaration of Human Rights;
    (2) ``Consonant with this policy, radio and television broadcasting 
to Cuba may be effective in furthering the open communication of 
accurate information and ideas to the people of Cuba and, in 
particular, information about Cuba.''
    It is our belief that efforts to promote a peaceful transition to 
democracy in Cuba depend, to a large degree, on the availability of 
accurate, objective, and comprehensive news, and a variety of 
responsible views.
    While available evidence indicates that the Cuban government's 
efforts to interfere with the Television Marti signal have been largely 
successful, it is important to remember that the Cuban people are 
unable to view TV Marti not because its broadcasts are produced 
unprofessionally, or are of poor technical quality, or because they are 
not balanced, but because their government prevents them from doing so.

    Mr. Kennedy. Funding for TV Marti or any other Broadcasting 
Board of Governors program is contained in a separate budget 
request for the Year 2000 and it is being submitted by the 
Broadcasting Board of Governors which, on October 1, will be an 
independent Federal agency. So I am afraid, sir, that 
question----
    Mr. Serrano. You have nothing else to do with it at all?
    Mr. Kennedy. No, sir.
    Mr. Serrano. And it won't be part of your management of 
foreign policy?
    Mr. Kennedy. No, sir. Pursuant to the Foreign Affairs 
Reorganization Act, on October 1, the Broadcasting Board of 
Governors becomes an independent Federal agency, and the only 
nexus is the Secretary of State provides foreign policy 
guidance, but not on operational or journalistic activity.
    Mr. Serrano. Right. But the Secretary of State sits on that 
board, right?
    Mr. Kennedy. The Secretary of State is a member of the 
Broadcasting Board of Governors for the purpose of providing 
foreign policy guidance, not in relation to any journalistic or 
other activity.
    Mr. Serrano. Well, but there is some work being done on TV 
Marti, we have known that for a long time. It is all our, 
whatever you want to call it, propaganda, and some of it may be 
fine in some cases, so I didn't want to drag you into a 
conversation you didn't want to be a part of. However, I don't 
think it is totally correct to say that there will be no State 
Department involvement, because Radio and TV Marti in the case 
of Cuba and our policy towards Cuba is in fact more than 
anything else a foreign policy issue. It is not a journalism 
issue. I mean they have been lying for years about what they 
say on that station, but that is not important. It is a foreign 
policy issue, and how can you tell me that State won't be 
involved?
    Mr. Kennedy. All I can say, sir, is that now the 
Broadcasting Board of Governors is an independent entity, but 
it is in the USIA appropriation, and on October 1 it is an 
independent Federal agency with its own appropriation and it is 
not in my jurisdiction. My jurisdiction is only the division of 
the current personnel resources of USIA that will move to the 
State Department not those that will go to the Broadcasting 
Board of Governors when they become independent. So I am afraid 
I am not competent to answer your question.
    Mr. Serrano. Okay. Do you have an opinion on whether you 
think they will be conducting their own foreign policy after 
this happens then, or will they still be conducting your 
foreign policy that the State Department manages?
    Mr. Kennedy. They are an element, an arm of the Government 
of the United States. That is all I can say.
    Mr. Serrano. Okay. It always amazes me how when we discuss 
that part of the world, nobody seems to have any information.
    It is my understanding that on April 8, the Chairman of the 
Broadcasting Board of Governors announced the start of a 
combined Voice of America-Radio Free Europe, Radio Liberty, 24-
hour programming to stream into Serbia. Do we have any 
information as to, whether it is fully operational? How is it 
going?
    Mr. Kennedy. We will be glad to get that.
    Mr. Serrano. Are we getting any letters or e-mails from 
people telling us that they are hearing us and having an 
effect?
    Mr. Kennedy. Again, because at the moment that is a USIA 
activity and not a State activity, I will be glad to pass that 
on to my USIA colleagues and ask them to get back to you, sir.
    [Clerk's note.--Subsequent to the hearing, the following 
Information was submitted by the B Boadcashing Board of 
Governors:]
   U.S. International Radio Broadcasting to Serbia During the Kosovo 
                                 Crisis
    Radio Free Europe/Radio Liberty and Voice of America programming in 
vernacular languages for Serbia and the sourrounding countries has been 
broadcast since the beginning of the Kosovo crisis on shortwave, AM, 
the Internet, and through affiliate stations in Montenegro. As of April 
9, a 24-hour per day programming stream featuring combined VOA and RFE/
RL broadcasts began through 106.5 FM from a USAID-facilitated 
transmitter in eastern Bosnia. This is the first of a planned chain of 
FM and possibly AM transmitters in neighboring countries around Serbia 
to ensure further delivery of accurate and objective news and 
information to the Serbian people.
    Independent audience reaseach indicates that prior to the present 
crisis 14% of adult Serbs listened to VOA programming weekly, and 7% 
listened to RFE/RL programming weekly. These are high levels of 
listening relative to international broadcasting standards. Of VOA 
listening, 19% was on shortwave, 34% on Am, and 23% on FM. (Percentages 
do not equal 100% as some of those surveyed could not recall how they 
heard the programming.) While VOA and RFE/RL have lost their local FM 
and AM affiliates, programming is still readily available through U.S.-
controlled or-leased transmitters, broadcasting on AM and shortwave. 
Moreover, during the Serbian crisis in December 1996, listening to VOA 
rose sharply, from an 11% weekly rate to 16%. Increased listening 
should also obtain in the present crisis.
    Radio Free Europe/Radio Liberty. REF/RL's South Slavic service 
currently broadcasts nine and one-half hours of original programming 
per day in Sebian and Albanian on the Kosovo crisis. An additional four 
hours of South Slavic service programming focuses on Bosnia and Croatia 
but can be heard by and is also relevant to a Serbian audience. Regular 
broadcasts in Serbian were extended by three and one-half hours on 
March 23 very soon after NATO's formal decision to begin air operations 
in the region. In addition, RFE/RL's new broadcasts in Albanian to 
Kosovo were doubled on March 24 to one hour. All RFE/RL broadcasts can 
also be heard on the Internet. Six RFE/RL-affilitated FM stations in 
Montenegro continue to carry the expanded RFE/RL Serbian and Albanian 
broadcasts to the former Yugoslavia. The six affiliate broadcasters can 
be heard throughout Montenegro. RFE/RL is maintaining its relationship 
with independent broadcasters in Serbia during the crisis in spite of 
the Milosevic government's ban on rebroadcasts of foreign radio 
programming. Between eight and twelve RFE/RL affiliate stations in 
Serbia are filing on-the-spot news reports, even though they cannot 
broadcast the resulting program. RFE/RL continues to carry on-the-spot 
reports from a network of freelance correspondents throughout Serbia 
and to broadcast interviews with Sebian officials and citizens.
    Voice of America. VOA Serbian and Albanian services have expanded 
their programs to two hours and forty-five mintues daily in Albanian to 
Albania and Kosovo since the crisis began. VOA recently established a 
new Macedonian service, broadcasting fifteen minutes a day. VOA Balkan 
languages reporters and editors have produced a stream of reporting by 
covering daily briefings at NATO headquarters in Brussels, the White 
House, Pentagon, State, and Congress. Through stringers in Macedonia, 
Montenegro, and Albania, VOA has reported on the refugee crisis and the 
intenational community's efforts to assist the Kosovar Albanians. VOA 
has been featuring American and world press reaction, reports from 
European and other capitals, and analyses from Washington-based experts 
and human rights activists here and abroad. VOA has also sought the 
view from Belgrade. Recent programs included interviews and commentary 
from Vuk Drashkovic, Deputy Prime Minister and Valdislav Jovanovic, 
Yugoslav Ambassador to the United Nations, among others. VOA has lost 
contact with its stringers in Belgrade and Pristina.
    Indications of Listenership. On April 13, the ABC Nightline TV 
program reported that Kosovar refugees rely on the Albanian-language 
broadcasts from the Voice of America to try to make sense of what is 
happening to them.
    In addition, VOA's Albanian Service received more than seven hours 
of phone calls in the periods from April 9 through April 11 on its 
Refugee Hotline. The Hotline was initiated to make it easier for 
Kosovar Alabanians to locate family members caught up in the chaos of 
expulsion. Another half-hour of broadcasts has been added to the 
Albanian broadcasts to serve the Hotline.

    Mr. Serrano. Okay. I wanted to ask, going back to my little 
commission that won't exist, can you provide me details of the 
other commissions and bodies that are privately funded that you 
will be relying on for information? Please, when you do give me 
that information, unless you want to give it to me now, tell me 
how they function better than the Commission you are cutting 
out.
    Mr. Kennedy. We will get that, we will get that to you.
    [Clerk's note.--Subsequent to the hearing, the following 
information was submitted.]
                  Part I--List of Advisory Committees
              advisory committees--dos federally chartered
    1. Advisory Committee on International Economic Policy
    2. Overseas Security Advisory Council
    3. Shipping Coordinating Committee
    4. Overseas Schools Advisory Council
    5. Secretary of State's Advisory Committee on Private International 
Law
    6. Advisory Committee to the U.S. National Section of the Inter-
American Tropical Tuna Commission
    7. Advisory Committee on Historical Diplomatic Documentation
    8. Advisory Committee on international Communications and 
Information Policy
    9. Advisory Committee on international Law
    10. Defense Trade Advisory Group
    11. Advisory Committee for Studies of Eastern Europe and The 
Independent States of the Former Soviet Union
    12. U.S. International Telecommunications Advisory Committee
    13. Advisory Panel to the U.S. Section of the North Pacific 
Anadromous Fish Commission
    14. Advisory Committee on Religious Freedom Abroad
    15. Overseas Presence Advisory Panel
    16. Advisory Committee on Labor Diplomacy (approved but pending 
official filing)
    17. Fine Arts Committee (Non-Advisory)
    18. Advisory Committee on Arms Control, Nonproliferation, and 
Disarmament (approved but pending official filing) (ACDA)
    19. East West Center Board (USIA)
    20. Cultural Property Advisory Committee (USIA)
    Part II--Budget for the Advisory Commission on Public Diplomacy
    The Budget for the Advisory Commission on Public Diplomacy is as 
follows:
    FY98 Obligated: $430,428
    FY99: $492,704
    About 70% of the budget is expended for salaries. The balance is 
for domestic and overseas travel and admin costs.
         Part III--U.S. Advisory Commission on public Diplomacy
    We are mindful of the services the Commission has performed in the 
past, and we also strongly agree that public diplomacy deserves high 
priority and should be at the heart of our foreign policy.
    This said, the Administration is reevaluating the potential role of 
the Commission. Several considerations are important.
    The intent of the Congress in the Foreign Affairs Reform and 
Restructuring Act of 1998 is to streamline. We are doing this wherever 
possible, even if difficult choices must be made. Streamlining also 
helps us accommodate severe budget restraints.
    Second, distinguished private panels are studying diplomacy and 
issuing informative and thoughtful reports. Recently, for example, the 
Stimson Center and the Center for Strategic and International Studies 
sponsored major efforts. The CSIS report, in particular, devotes much 
attention to public diplomacy.
    Although an advisory commission might help build wider support for 
public diplomacy, creating a commission has to be weighed against these 
other factors.

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    Well, thank you for your testimony and please stay in 
touch.
    The hearing is adjourned.

            QUESTIONS SUBMITTED BY REPRESENTATIVE TOM LATHAM

                Shatter Resistant Window Film Contracts

    QUESTION: Of the five contracts awarded for window film, how many 
will meet bomb blast performance?
    ANSWER: All manufacturers awarded a contract for shatter-resistant 
window film (SRWF) are required to meet technical criteria that must be 
verified by an independent testing laboratory to ensure compliance with 
specified requirements. The criteria include impact performance; 
tensile, peel and puncture strength; surface abrasion; and flame spread 
and smoke density. The technical criteria used in the solicitation have 
been determined to be the primary performance characteristics of SRWF 
and are based on research by the U.S. Department of Defense, General 
Services Administration, and British, Israeli and Austrian governments.

               Shatter Resistant Window Film Performance

    QUESTION: Admiral Crowe, Chairman of the Accountability Review 
Boards, has told Congress he feels windows are the number one killer in 
bomb attacks. How much will the Department be paying for this window 
film order and will the film be based on bomb blast performance?
    ANSWER: The interagency Overseas Security Policy Board (OSPB) has 
approved physical security standards which require that all new office 
buildings be constructed to meet blast protection requirements, 
including the use of laminated windows composed of thermally tempered 
glazings or heat-strengthened glass. In its concern over the 
vulnerability of windows to bomb blasts in other buildings, the 
Department has implemented new security standards, pending OSPB 
approval, that call for laminated windows to be installed in existing 
and newly acquired office buildings whenever major renovations and 
facade/window upgrades occur. Replacing existing windows with laminated 
windows can be highly problematic. The additional weight of the windows 
can pose a wide variety of associated engineering problems. In the 
meantime, shatter-resistant window film (SRWF), 8 mil or performance 
equivalent, will be used in those cases where laminated windows are not 
or cannot be installed.
    The Department plans to commit $52 million for purchasing, 
shipping, and installing SRWF for office facilities and residences. 
Manufacturers providing the SRWF are required to meet technical 
criteria, which must be verified by an independent testing laboratory 
to ensure compliance with specified requirements. The tests include 
impact performance; tensile, peel and puncture strength; surface 
abrasion; and flame spread and smoke density. These criteria have been 
determined to be the primary performance characteristics of SRWF.
    The Bureau of Diplomatic Security is working with a number of U.S. 
Government agencies conducting extensive tests to measure the 
performance of SRWF in different thickness' when used in conjunction 
with other blast mitigators such as curtains and catch bars.

               Accountability Review Board Recommendation

    QUESTION: Has the Department been following the recommendation of 
the Accountability Review Board report and the recent Congressional 
Testimony of Admiral Crowe?
    ANSWER: The Accountability Review Boards recommended that, `` * * * 
essential physical security upgrades should be made immediately and 
should include inter alia, strengthening all windows with the most 
technology advanced safety lamination * * * ''
    The Overseas Security Policy Board (OSPB) has approved physical 
security standards which require that all new office buildings be 
constructed to meet blast protection requirements, including the use of 
laminated windows composed of thermally tempered glazings or heat-
strengthened glass. In its concern over the vulnerability of windows to 
bomb blasts in other buildings, the Department has implemented new 
security standards, pending OSPB approval, that call for laminated 
windows to be installed in existing and newly acquired office buildings 
whenever major renovations and facade/window upgrades occur. Replacing 
existing windows with laminated windows can be highly problematic. The 
additional weight of the windows can pose a wide variety of associated 
engineering problems. In the meantime, shatter-resistant window film 
(SRWF), 8 mil or performance equivalent, will be used in those cases 
where laminated windows are not or cannot be installed.

                          Y2K Monthly Updates

    QUESTION: As you know, we spoke last year regarding Y2K compliance 
and I'm pleased you've made progress. Although the Department is not 
totally compliant you have taken the steps to meet that goal by the end 
of the year including doing end-to-end testing.
    I only ask that you provide me with monthly updates on 
certification and end-to-end progress.
    ANSWER: The Department welcomes the opportunity to furnish this 
information. At the end of each month, beginning with April, we will 
send you a report on progress in certifying applications and the status 
of end-to-end testing.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Albright, Hon. M. K..............................................     1
Burleigh, Peter..................................................   275
Carpenter, D. G................................................217, 329
Cohen, B. R....................................................217, 329
Fuller, W. P.....................................................   409
Gershman, Carl...................................................   425
Kennedy, P. F....................................................   329
Ryan, M. A.......................................................   329
Thomasson, P. L..................................................   217
Welch, C. D......................................................   275
Williams-Bridgers, J. L..........................................   383


                               I N D E X

                              ----------                              

                           Secretary of State

                                                                   Page
American Trade Deficit...........................................   190
Biographical Sketch--Secretary of State Albright.................    31
Budget in Brief--U.S. Department of State--Fiscal Year 2000......    32
Certification of Mexico..........................................   199
Congressional Debate on Kosovo...................................   186
Deployment of U.S. Troops Overseas...............................   195
East Timor.......................................................   202
Embassy Security.................................................   193
Exchange Programs with Russia....................................   198
Expiration of Budget Authority...................................   188
Extradition Treaty with Mexico...................................   196
Foreign Affairs Reorganization...................................   203
Funding for Embassy Security.....................................   180
Import Quotas on Foreign Steel...................................   189
International Land Mine Treaty...................................   193
International Narcotics Control Efforts..........................   192
Kosovo Negotiation...............................................   179
Minority Recruitment Efforts.....................................   204
Opening Statement--Chairman Rogers...............................     1
Opening Statement--Congressman Serrano...........................     1
Opening Statement--Secretary of State Albright...................     3
    Assistance to Central America and Jordan.....................     4
    Budget Constraints on the Department.........................     4
    Foreign Affairs Agencies Reorganization......................     4
    Security Challenge Facing the Department.....................     3
    Situation in Kosovo..........................................     5
    U.N. Arrears.................................................     5
Personnel Shortages in the Department............................   200
Questions for the Record:
    Congressman Kolbe:
        Laser Visa...............................................   208
        Universal Postal Union...................................   207
        World Trade Organization Ministerial.....................   209
    Congressman Latham:
        Exchanges Carryover in FY 2000...........................   213
        Exchange Obligations in 1999.............................   213
        Foreign Policy and Military Resources....................   211
        MEPP: Unilateral Declaration of Statehood................   213
        New Role for NATO........................................   212
        U.S. Interests in Kosovo.................................   212
    Congresswoman Roybal-Allard:
        Employment Diversity.....................................   215
        Procurement Diversity....................................   213
    Congressman Taylor:
        U.S. Involvement in Kosovo...............................   210
Regionalization of Overseas Functions............................   182
Station for the Record--Secretary Albright.......................     7
Technology Transfers to China....................................   201
Transfer of Satellite Licensing Authority........................   191
U.N. Arrears and Reform..........................................   203
U.S. Economic Embargo on Cuba....................................   184
U.S. Policies in the Balkans.....................................   194
U.S. Policies in China...........................................   196
U.S. Role in the United Nations..................................   183
Visa Issuance Problems...........................................   192
World Trade Organization Ministerial Meeting.....................   189

                            Embassy Security

Assessment of Security Threats...................................   269
Berlin Embassy...................................................   249
Biographical Sketch--Assistant Secretary Carpenter...............   241
Biographical Sketch--Under Secretary Cohen.......................   240
Budget Constraints...............................................   252
Budget Request for Security Upgrades.............................   263
China 2000.......................................................   255
Collocation of Agencies Overseas.................................   254
Crisis Management Program........................................   250
Crowe Report.....................................................   244
Dealing with Terrorism...........................................   246
Defensive Weapons Against Terrorism..............................   248
Determining List of Terrorist Nations............................   248
Diplomatic Security Staffing.....................................   259
Embassy Designs..................................................   242
GAO Report on Security Construction..............................   256
Historical Perspective...........................................   242
ICASS and Security Costs.........................................   251
Implications of Regionalization..................................   246
Listing of Terrorist Nations.....................................   247
Maintenance and Repair of U.S. Missions..........................   261
Marine Security Guards...........................................   259
Model Embassies..................................................   251
Need for an American Presence....................................   247
Opening Statement--Chairman Rogers...............................   217
Opening Statement--Under Secretary Cohen.........................   218
    Crisis Management Training...................................   224
    Current Threat Environment...................................   220
    Emergency Supplemental.......................................   219
    Global Surveillance Detection................................   224
    Host Government Support......................................   223
    Model Embassy Project........................................   223
    Overview of the State Department.............................   218
    Resource Requests............................................   224
    Response to Security Threat..................................   223
    Results of Emergency Supplemental............................   223
    Security Personnel...........................................   224
    Services Rendered to American Citizens.......................   219
    Support of American Business.................................   219
    Support to Other U.S. Agencies...............................   220
    Threat from Indigenous Terrorist Groups......................   220
    Threat from State Sponsored Terrorism........................   222
    Threat from Transnational Terrorist Groups...................   221
    Threats Triggered by U.S. Actions Overseas...................   222
Overseas Presence of Non-Foreign-Affairs Agencies................   261
Plans for Security Upgrades......................................   263
Preventive Action Against Terrorism..............................   257
Prioritization of Renovations and Security Upgrades..............   269
Questions for the Record:
    Congressman Serrano..........................................   273
    Congressman Taylor...........................................   271
Regionalization..................................................   262
Regionalization of Embassy.......................................   243
Regional Security Officers.......................................   260
Relocation of Embassies..........................................   252
Renovation of Overseas Residences................................   268
Risks from Shattering Windows....................................   250
Safety Upgrades of Embassy Windows...............................   250
Security Funding and Budget Constraints..........................   249
Security Resource Requests.......................................   258
Security Video Cameras...........................................   249
Statement for the Record--Under Secretary Cohen..................   226
Surveillance Cameras.............................................   268
U.S. U.N. Mission................................................   270
Welcome to New Committee Members.................................   218
Worldwide Security Upgrade Funding...............................   245

              International Organizations and Peacekeeping

Accountability...................................................   312
Accountability for Foreign Assistance Funding....................   313
Ambassador Sklar/Official Travel.................................   291
Assessment Rate for the U.S......................................   303
Biographical Sketch--Ambassador Burleigh.........................   286
Biographical Sketch--Assistant Secretary Welch...................   287
Budgetary Discipline.............................................   313
Cambodia War Crimes Commission...................................   316
Concluding Remarks...............................................   327
Decreasing the U.S. Assessment Rate..............................   311
East Timor.......................................................   324
Enactment of Sunset Provisions...................................   312
Expenditures for Peacekeeping....................................   318
General Assembly Vote............................................   298
History of UN Arrears............................................   300
IAEA Program in North Korea......................................   315
Increased Oversight..............................................   311
Inter-American Indian Institute..................................   322
Letter from Emergency Coalition for U.S. Financial Support of the 
  UN.............................................................   296
Nomination of Ambassador Holbrooke...............................   303
North Korea......................................................   315
Ongoing UN Reform Efforts........................................   311
Opening Statement--Ambassador Burleigh...........................   276
    Importance of International Organizations to U.S. Interests..   276
    UN Arrears...................................................   278
    UN Peacekeeping Operations...................................   277
    UN Reform Efforts............................................   278
Opening Statement--Chairman Rogers...............................   275
Opening Statement--Congressman Serrano...........................   275
Promoting Reform Efforts to the UN Membership....................   288
Results-Based Budgeting..........................................   312
Specifics of UN Arrears..........................................   305
Statement for the Record--Ambassador Burleigh....................   280
Status of Political and Economic Reform in Haiti.................   232
UN and Y2K.......................................................   313
UN Biennium Budget Request.......................................   290
UN Efforts on Y2K................................................   314
UN Efforts on Tuberculosis.......................................   301
UN Efforts to Combat Fraud.......................................   316
UN Peacekeeping in Central African Republic......................   321
UN Peacekeeping in Haiti.........................................   320
U.S. Role in International Organizations.........................   299
U.S. Support for IAEA............................................   315
U.S. UN Mission Building.........................................   322
Western Sahara...................................................   301
Zero Growth Budgets..............................................   294

                   Administration of Foreign Affairs

Advisory Committees..............................................   379
Berlin Embassy...................................................   370
Biographical Sketch--Ambassador Ryan.............................   352
Biographical Sketch--Assistant Secretary Carpenter...............   353
Biographical Sketch--Assistant Secretary Kennedy.................   351
Biographical Sketch--Under Secretary Cohen.......................   350
Broadcasting Board of Governors..................................   376
Collocation of Agencies Overseas.................................   367
Embassy Security.................................................   363
Embassy Security Funding.........................................   375
Funding for Marine Security Guard Facilities.....................   366
Integration of USIA..............................................   356
Kosovo Emergency Supplemental....................................   372
London Ambassador's Residence: Approval of Project Spending......   369
Machine Readable Visa Fees.......................................   374
Management Priorities............................................   354
Marine Security Guard Detachments................................   365
NATO Anniversary Summit..........................................   372
Opening Statement--Chairman Rogers...............................   329
Opening Statement--Under Secretary Cohen.........................   330
    Consolidation of Foreign Affairs Agencies....................   331
    Foreign Building Operations..................................   333
    New Passport.................................................   333
    Other Management Initiatives.................................   334
    Overseas Presence Panel......................................   333
    Personnel Management and Recruiting..........................   332
    Y2K Management Issues........................................   331
Overseas Staff Residences........................................   376
Protection of American Citizens Overseas.........................   360
Public Diplomacy Funding.........................................   362
Questions for the Record:
    Congressman Latham:
        Accountability Review Board Recommendations..............   381
        Shatter Resistant Window Film............................   380
        Y2K Monthly Updates......................................   381
Renovations to Official Residences...............................   368
Reports to Congress..............................................   374
RIAS Berlin Property Appraisals..................................   372
Security Funding.................................................   367
Security of Overseas Staff.......................................   358
Statement for the Record--Under Secretary Cohen..................   335
State's Website and Internet Initiatives.........................   360
Status of Y2K Efforts............................................   355
Technology Modernization Initiative..............................   354
U.S. Advisory Commission on Public Diplomacy.....................   361
U.S. International Radio Broadcasting to Serbia during Kosovo 
  Crisis.........................................................   378

                  Statements Submitted for the Record

Inspector General of the U.S. Department of State, ACDA, and 
  USIA, including International Broadcasting.....................   383
The Asia Foundation..............................................   409
National Endowment for Democracy.................................   425

                               <greek-d> 

</pre></body></html>
